<html>
<title> - THE 2007 HURRICANE SEASON: ARE WE PREPARED?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                       THE 2007 HURRICANE SEASON:
                            ARE WE PREPARED?

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2007

                               __________

                           Serial No. 110-35

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
48-910                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 
Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                  (ii)















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on 
  Homeland Security..............................................    16
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    22
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    23
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    44
The Honorable Donna M. Christensen, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    30
The Honorable David Davis, a Representative in Congress From the 
  State of Tennessee.............................................    25
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    33
The Honorable Al Green, a Representative in Congress From the 
  State of Texas.................................................    42
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    35
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................    37
  Prepared Statement.............................................    37
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    26
The Honorable Eleanor Holmes Norton, Delegate in Congress From 
  the District...................................................    20
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    40
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama...............................................    19
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    17
The Honorable Christopher Shays, a Representative in Congress 
  From the State of Connecticut..................................    31
The Honorable Ginny Brown-Waite, a Representative in Congress 
  From the State of Florida......................................    28

                               Witnesses
                                Panel I

The Honorable R. David Paulison, Director, Federal Emergency 
  Management Agency, Department of Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     6

                                Panel II

Mr. Joe, Becker, Senior Vice President, Preparedness and 
  Response, American Cross National Headquarters:
  Oral Statement.................................................    69
  Prepared Statement.............................................    71
Mr. Craig Fugate, Director, Florida Division of Emergency 
  Management:
  Oral Statement.................................................    61
  Prepared Statement.............................................    63
Mr. William Jenkins, Director, Homeland Security and Justice 
  Issues Division, Government Accountability Office:
  Oral Statement.................................................    46
  Prepared Statement.............................................    47

                               Appendixes

Appendix I: Enhanced Capabilities for Catastrophic Response and 
  Recovery.......................................................    89
Appendix II: Related GAO Products................................    97

 
                       THE 2007 HURRICANE SEASON:
                            ARE WE PREPARED?

                              ----------                              


                         Tuesday, May 15, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 1:09 p.m., in Room 
311, Cannon House Office Building, Hon. Bennie Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Lowey, Norton, 
Jackson Lee, Christensen, Etheridge, Langevin, Cuellar, Carney, 
Green, Perlmutter, King, Shays, Rogers, Brown-Waite, Bilirakis, 
and Davis of Tennessee.
    Chairman Thompson. [Presiding.] The Committee on Homeland 
Security will come to order.
    The committee is meeting today to receive testimony from 
FEMA and other key stakeholders on what has been done to 
prepare for the 2007 hurricane season.
    Good afternoon. On behalf of the members of the committee, 
let me welcome our panel. We are glad that all of you are here 
to discuss preparations for this year's hurricane season.
    First of all, I am enormously concerned, Mr. Paulison, that 
FEMA is still not compliant with the committee's requirement 
that testimony be submitted within 48 hours of the hearing. We 
have shared this to the secretary. I know you have significant 
jurisdictional issues, a lot of committees. We have said we 
would work through it. And I understand what other challenges 
you have before you, but we have some committee rules that we 
have adopted, and, to the extent practicable, we would like to 
see them followed.
    The purpose of this hearing is to examine whether FEMA is 
adequately coordinating activities with its partners and the 
state and local level as well as key stakeholders in the 
private sector.
    The 2007 Atlantic hurricane season officially begins on 
June 1 and will last until November 30. The fact that FEMA 
still not has issued the strategy that establishes practices 
and procedures for coordination among federal, state and local 
governments is very disturbing.
    I called this hearing to examine just how FEMA is doing and 
whether all key stakeholders are ready to respond and 
coordinate effectively. As a member of the Gulf Coast, I have 
particular interest in seeing FEMA apply the lessons learned 
from Katrina into practices for the future. In the event that a 
hurricane makes landfall and puts our communities at risk, we 
need to know that FEMA will respond quickly and administer 
assistance in an evenhanded way.
    Another key player that has some hard lessons learned from 
Katrina was the American Red Cross. I am interested in hearing 
how the organization plans to coordinate with FEMA. As we all 
know, FEMA's response to Hurricane Katrina was abysmal. Last 
year, Congress passed major FEMA reforms with an expectation 
that we would see some real progress at this beleaguered 
agency.
    I expect that Mr. Paulison will have an explanation for its 
agency's failure to produce a national response plan by the 
start of hurricane season, and FEMA will have a lot of 
explaining to do if it is not all ready when a hurricane makes 
landfall this season.
    I want to thank the witnesses again for being here and look 
forward to their testimony.
    The chair now recognizes the ranking member of the full 
committee, the gentleman from New York, Mr. King, for an 
opening statement.

   Prepared Statement of the Honorable Bennie G. Thompson, chairman, 
                     Committee on Homeland Security

    The Purpose of this hearing is to examine whether FEMA is 
adequately coordinating activities with its partners on the State and 
local level as well as key stakeholders in the private sector. The 2007 
Atlantic hurricane season officially begins on June 1st and will last 
until November 30th.
    The fact that FEMA still has not issued the strategy that 
establishes practices and procedures for coordination among Federal, 
State and local governments is very disturbing.
    I called this hearing to examine just how FEMA is doing, and 
whether all key stakeholders are ready to respond and coordinate 
effectively. As a Member from the Gulf Coast, I have a particular 
interest in seeing FEMA apply the ``Lessons Learned'' from Katrina into 
practices for the future.
    In the event that a hurricane makes landfall and puts our 
communities at risk, we need to know that FEMA will respond quickly and 
administer assistance in an evenhanded way.
    Another key player that has some hard `Lessons Learned' from 
Katrina was the American Red Cross. I am interested in hearing how the 
organization plans to coordinate with FEMA.
    As we all know, FEMA's response to Hurricane Katrina was abysmal. 
Last year, Congress passed major FEMA reforms with an expectation that 
we would see some real progress at this beleaguered agency.
    I expect that Mr. Paulison will have an explanation for his 
agency's failure to produce the National Response Plan within the 
required period. Mr. Paulison, explanations don't excuse and excuses 
don't explain. And FEMA will have a lot of explaining to do if it is 
not ready when a hurricane makes landfall this season.

    Mr. King. Thank you, Mr. Chairman. Let me thank you for 
holding this hearing and for the bipartisan effort that we are 
making, as far as ensuring that FEMA is given the jurisdiction 
and the tools to get the job done.
    Last year, our committee, working in a bipartisan way, was 
very instrumental in the enactment of the FEMA reform bill, 
which kept FEMA within the Department of Homeland Security but 
certainly set up a chain of command and gave the director, I 
believe, the authority and the power that he needs to get the 
job done in times of terrorist attacks and natural disasters.
    That legislation clarified the command structure and 
required establishment of a surge capacity force. It also 
consolidated emergency communications, grant-making, and other 
responsibilities.
    Let me just say also, speaking as someone from New York, I 
want to commend FEMA for the job they did during the heavy 
snowstorms this year. They delivered generators less than 24 
hours after the snowfall ended, and even though it was not in 
my district, in talking to people around the State, they were 
very appreciative of the job you did, the professionalism and 
the timeliness.
    I also, like the chairman, would appreciate testimony being 
provided to the committee on time. At the same time, however, 
though, I think it is important and upon us in the Congress to 
work in a bipartisan way to reduce the number of committees 
that Director Paulison, Secretary Chertoff and all the 
undersecretaries and assistant secretaries have to report to.
    So while I am not excusing the late testimony, I also 
realize that it is in everyone's interest, including the 
country's, primarily the country's, that we consolidate this so 
you are not going from committee to committee and getting 
caught up in jurisdictional entanglements.
    I look forward to your testimony. I want to commend you for 
the job that you have done. You took over under very trying 
circumstances. Certainly, from talking to first responders 
across the country, particularly those in the fire service, 
they speak very highly of the efforts that you are making. 
Unfortunately, you are in a job where, I guess, you are judged 
by mistakes.
    But all I can say is that I certainly want to commend you 
for the enthusiasm, the professionalism and the energy that you 
bring to the job, and I look forward to your testimony today.
    I yield back.
    Chairman Thompson. Thank you very much.
    Other members of the committee are reminded that, under the 
committee rules, opening statements may be submitted for the 
record.
    I now welcome our first panel. We are pleased to have the 
administrator of FEMA, Mr. David Paulison, here to testify. Mr. 
Paulison has an extensive background in the emergency 
preparedness arena, having served as the U.S. fire 
administrator and as the fire chief of Miami-Dade County in 
Florida.
    Without objection, the witness's full statement will be 
inserted into the record. I now ask Mr. Paulison to summarize 
his statement for the committee for 5 minutes.

    STATEMENT OF HON. R. DAVID PAULISON, DIRECTOR, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Paulison. Chair Thompson, I appreciate the invitation. 
Ranking Member King.
    And, just for the record, I take very seriously your issues 
with getting our testimony in on time, and we will make a very 
honest, concerted effort to make sure we do that.
    I also take very seriously your comments about the national 
response plan. We are working very diligently to get that out 
and operating. I will talk about that a little bit in my 
testimony. I am sure it will come up during the questioning.
    We have made steady progress to approve our preparedness 
posture for the 2007 hurricane season. The new FEMA is leaning 
further forward to deliver more effective disaster assistance, 
not only to individuals but to communities impacted by the 
disaster.
    You can see our results in our response this year in 
Florida, Georgia, the Alabama tornadoes, the nor'easter that 
affected the states in the Mid-Atlantic and up in New England 
and just last week in Greensburg, Kansas. In each of these 
cases, FEMA was engaged as a partner with the state 
immediately, we deployed operational and technical experts, we 
rolled logistics and communication capabilities even before the 
disaster declaration was declared, and we coordinated with the 
governor to facilitate a presidential disaster delegation.
    It was also FEMA that supported and helped facilitate the 
effective unified command among many federal, state and tribal 
and local partners involved in these responses. We called this 
an engaged partnership. Our response in these diverse and 
numerous events across the breadth of this great country are 
evidence of the new FEMA's readiness for the 17 currently 
predicted storms during the 2007 hurricane season.
    With the first named storm of the season, Andrea, already 
behind us, let's look at our advanced preparation, our plans 
for operations during the storm and our proved ability to help 
with the long-term recovery.
    Local governments will always, always be the first to 
respond, but FEMA has an important role to play. The old 
paradigm of waiting for the state and local governments to 
become overwhelmed before providing federal assistance simply 
does not work in today's environment.
    Under our engaged partnership, FEMA has strengthened our 
relationship with key state and local partners. A one-size-
fits-all approach to emergency management will not work. FEMA 
is helping each state analyze their strengths and weaknesses. 
Thus, our planning is more informed, and we can better 
anticipate specific needs and quickly move to support each 
state.
    A visible demonstration of improved federal capabilities is 
our playbook of pre-scripted mission assignments. It contains 
plans for a range of federal support that may be requested in a 
disaster and lays out interagency coordination needed to ensure 
that it gets there. The support ranges from heavy helicopters 
from the Department of Defense, generators from the Army Corps 
of Engineers, to disaster medical assistance teams from HHS and 
emergency road-clearing teams from the U.S. Forest Service.
    Prior to Katrina, we had just a handful of these pre-
scripted mission assignments. Last year, we had about 40, and 
this year, we have over 180 pre-scripted mission assignments 
with over 21 federal agencies.
    So don't believe the stories that say FEMA and the federal 
government is not ready and do not have plans in place. We do 
and they are getting better.
    With these preparations under way, FEMA will be ready to 
act. We have prearranged contracts, an improving logistics 
system and other elements that are already in place to expedite 
our response. FEMA can surge its own teams and assess them to 
an area in anticipation of an approaching storm.
    This forward-leaning new FEMA is evident of our response in 
the tornado that devastated Greensburg. In the first 72 hours, 
FEMA coordinated the efforts of numerous federal agencies, 
supplies rolled in before they were requested, mobile support 
vehicles moved in early, and when the state asked us to 
supplement their urban search and rescue efforts, the FEMA task 
force was on the ground within hours.
    I also need to point out that the Kansas City National 
Guard, led by General Todd Bunting with the local mayor and the 
city administrator, simply did an outstanding job of responding 
to this disaster, despite the fact that their homes were 
destroyed also.
    I am proud of the response by our team of federal, state 
and local partners in responding to this tragedy.
    Now, once a storm has passed, FEMA is also better prepared 
to help with the recovery. FEMA's disaster assistance 
directorate has expanded its capabilities to provide mass care, 
sheltering, debris removal, victim registration, including 
enhanced protections against waste, fraud and abuse, and 
coordination among government and private-sector entities, all 
moving to provide assistance.
    I am pleased to report that on May 3, 2007, an offer was 
made and accepted for the national disability coordinator. This 
individual is in clearance in our security office, and the 
official start date has not been declared, but we should have 
her on board by the end of this month.
    One recent example is FEMA's response to the storms and 
flooding that hit the Northeast earlier this spring. FEMA had 
staff on the ground before the rain stopped, evaluated damage 
and registering victims. Mobile assistance centers were 
available in the immediate wake of the storm. The first 
individual financial aid was actually delivered less than 24 
hours after the president signed the first disaster 
declaration. This fast, efficient, multi-state response shows 
the type of action you can expect from FEMA during this year's 
hurricane season.
    In conclusion, we have made real progress at FEMA and are 
much better prepared for the 2007 hurricane season. By leaning 
further forward to coordinate the federal response, which is 
more informed through assessments and communication with our 
partners, we can better serve all Americans.
    Today, FEMA has created an engaged partnership with state 
and local governments, we have facilitated and supported 
effective unified command across all levels of government, we 
have engaged with hurricane-prone states to gain a better 
understanding of the vulnerabilities, and we have improved 
logistics and communication capabilities to improve our 
response, and we have a much improved disaster assistance 
capability for recovery efforts.
    Now, we are not done yet. We have a lot of work to do, but 
if our progress over the past year is any indication, I believe 
we are on the right track for fulfilling our vision of becoming 
the nation's preeminent emergency management agency.
    I am especially proud of the men and women who work at 
FEMA. They really have put their heart and souls into 
rebuilding this agency.
    So I want to thank this committee and you, Chairman 
Thompson, particularly, for your continued support, and I look 
forward to the opportunity to discuss with you about the 2007 
hurricane season.
    [The statement of Mr. Paulison follows:]

                Prepared Statement of R. David Paulison

    Good morning, Chairman Thompson, and Members of the Committee.
    I welcome the opportunity to appear before this Committee to 
discuss how the Federal Emergency Management Agency (FEMA) is prepared 
for the 2007 Hurricane Season.
    The guiding principle of the new FEMA is that we are leaning 
further forward to deliver more effective disaster assistance to 
individuals and communities impacted by a disaster. We call it 
``engaged partnership''. That is the FEMA you saw in the Florida, 
Georgia, and Alabama tornadoes--the Nor'easter that affected the New 
England States and most recently in Kansas where the community of 
Greensburg was devastated by a tornado.
    In those disasters you saw a FEMA that became an engaged partner 
with the State within minutes of the disaster, immediately deployed 
operational and technical experts to the disaster site, started moving 
logistics and communications capabilities even before a disaster 
declaration and coordinated with the Governor to facilitate a 
Presidential disaster declaration. And, FEMA has supported and helped 
to facilitate an effective Unified Command with other Federal agencies, 
and State and local officials.
    All of these actions were taken by a well led, motivated, and 
professional FEMA workforce that has embraced and enhanced the vision 
and reality of a new FEMA.
    Colorado State University has predicted 17 named storms, including 
9 hurricanes, of which 5 are expected to be major hurricanes. 
Predictions from the National Hurricane Center (NHC) are scheduled to 
be released on May 22, 2007, during National Hurricane Preparedness 
Week.
    FEMA is preparing for an active 2007 hurricane season by taking the 
following actions:
        1. Establishing a heightened posture of hurricane preparedness;
        2. Engaging our State and Federal partners in more thorough and 
        informed hurricane planning; and
        3. Building FEMA's operational capabilities to provide 
        effective response and recovery.

Establishing a Heightened Posture of Hurricane Preparedness
    FEMA is placing primary emphasis on strengthening the Federal-State 
partnership to better ensure we are able to achieve shared objectives 
for a safe, coordinated and effective response and recovery effort. 
First, we are emphasizing the States' primary responsibility to provide 
for the safety and security of their citizens. The States must take the 
lead to ensure they and their local jurisdictions are prepared for 
hurricane season.
    The Stafford Act acknowledges the Constitutional authority of a 
State to respond to incidents within that State through the State's 
Emergency Management Agency or similar agency, which incorporates the 
States' mutual aid system and principles of the Incident Command 
System, and provides the structure through which State and local 
government agencies respond. The State Emergency Management Agency 
coordinates the overall management of an emergency to include requests 
for support and resources from other State agencies, from other States 
under the Emergency Management Assistance Compact (EMAC), and for 
supplemental assistance from the Federal government. The EMAC process 
offers state-to-state assistance during Governor-declared states of 
emergency: EMAC offers a responsive and straightforward system for 
states to send personnel and equipment to help disaster relief efforts 
in other states. When one State's resources are overwhelmed, other 
states can help to fill the shortfalls through EMAC.
    The strength of EMAC and the quality that distinguishes it from 
other plans and compacts lies in its governance structure, its 
relationship with federal organizations, states, counties, territories, 
and regions, and the ability to move just about any resource one state 
has to assist another state.
    Second, FEMA, by advancing the concept of engaged partnership, then 
stands shoulder-to-shoulder with the State--there to support, fill 
gaps, and help to achieve a successful response and recovery. In the 
past, our system was cued to sequential failure: where the State held 
back until the local jurisdiction was overwhelmed, and the Federal 
system held back until the State was overwhelmed. This approach, 
evident in the response to Katrina, ensured caused delays in delivering 
support. Under ``engaged partnership,'' FEMA has strengthened the 
relationship between FEMA Regional Administrators and State Emergency 
Managers to focus on more deliberate disaster planning. In preparation 
for this hurricane season, we have engaged each of the 18 hurricane 
impact States (Maine, New Hampshire, Rhode Island, Massachusetts, 
Connecticut, New York, New Jersey, Delaware, Maryland, Virginia, North 
Carolina, South Carolina, Georgia, Florida, Alabama, Mississippi, 
Louisiana, Texas), the Commonwealth of Puerto Rico, and the Territories 
in a focused effort to identify strengths and weaknesses. We are 
engaging now in discussions to fill gaps and develop mitigation 
strategies to ensure successful response and recovery. FEMA is prepared 
to allocate commodities and enlist the assistance of other departments 
and agencies as needed to ensure a strong response to a State's call 
for assistance. And, as a result of our joint planning, we can 
anticipate a State's needs and be more able to quickly provide support.
    Third, FEMA has extended our reach across the span of Federal 
agencies to ensure the smooth and responsive coordination of Federal 
support when it is needed. The most visible demonstration of that 
coordination is the array of Federal capabilities contained in our 
``playbook'' of pre-scripted mission assignments. This playbook 
represents an examination of the range of Federal support that may be 
requested in response to a disaster. It also includes advance inter-
agency coordination to ensure delivery of that capability when it might 
be called upon in time of need. At present, we have gained approval for 
103 separate forms of assistance and are reviewing 85 potential pre-
scripted mission assignments over a span of 21 Federal agencies. This 
support ranges from heavy-lift helicopters from DOD, to generators from 
the U.S. Army Corps of Engineers, to Disaster Medical Assistance Teams 
from HHS and Emergency Road Clearing Teams from the U.S. Forest 
Service. These pre-scripted mission assignments will result in more 
rapid and responsive delivery of Federal support to States.
    Disaster response support is coordinated through one or more of the 
National Response Plan's (NRP) 15 Emergency Support Functions (ESFs). 
The ESFs serve as the primary operational-level mechanism supporting 
FEMA in providing State and local disaster assistance in functional 
areas such as transportation, communications, public works and 
engineering, firefighting, mass care, housing, human services, public 
health and medical services, search and rescue, agriculture, and 
energy.  The signatories to the NRP provide substantial disaster 
response assistance in their areas of expertise and provide operational 
support for FEMA when assigned missions to support the disaster 
response.  In addition, FEMA can surge its own teams and assets into an 
area in anticipation of an approaching storm or event that is expected 
to cause a significant impact and result in a declared emergency or 
major disaster and can turn to other DHS components such as the U.S. 
Coast Guard for assistance.  The surge capability allows FEMA to 
position assets prior to the event to enable a quick response, but 
actual assistance cannot be provided until the Governor requests and 
the President approves a disaster declaration.
    Within the first 72 hours after the tornado devastated Greensburg, 
Kansas, FEMA coordinated the efforts of numerous Federal agencies in 
their ESF roles under the NRP. For example, the DHS/National 
Communication System (ESF 2) worked with the State and local officials 
to reestablish communications infrastructure, advising local government 
as necessary, and providing needed technical assistance. The U.S. Army 
Corps of Engineers (ESF 3) management team for critical facility 
restoration planning was on-site providing technical assistance to 
state and local government. Additionally, Mobile Emergency Response 
Support (MERS) in the form of 13 small Mobile Emergency Operations 
Vehicles (MEOVs) and one large MEOV were deployed to Greensburg for 
communications and command and control support. The larger MEOV was 
provided to serve as the Unified Command Post.
    To further strengthen our partnerships, FEMA is actively engaging 
with State governments and other Federal partners in joint exercises as 
we prepare for the 2007 Hurricane Season. During the first week in May, 
FEMA tested the national incident management system and its response 
operations during an exercise called Ardent Sentry--Northern Edge, 
which depicted a Category 3 hurricane that struck Newport, Rhode 
Island.

Engaging with State and Federal Partners in More Thorough and Informed 
Preparedness Planning
    As we approach the 2007 Hurricane Season, FEMA is a taking a three-
tier approach to planning. First, we are engaging each of the 18 
hurricane impact States, the Commonwealth of Puerto Rico, and the 
Territories in focused hurricane planning. This includes employing a 
Gap Analysis Tool that will inform the planning process. Second, we are 
providing specific attention to the Gulf Coast States pursuing for the 
first time regional development of a Gulf Coast Evacuation Plan. Third, 
we are pursuing specific planning efforts with our partners in the 
State of Louisiana, in recognition of their fragile condition following 
the devastation of Hurricane Katrina. Last, we are also focusing 
Catastrophic Disaster Response Planning on Southeast Louisiana and the 
State of Florida.
Hurricane Gap Analysis Tool
    FEMA is employing a Gap Analysis Tool that is serving as the basis 
for better understanding vulnerabilities in a more consistent manner. 
The Gap Analysis Tool was developed in coordination with the State of 
New York Emergency Management Office/New York City Office of Emergency 
Management and has been implemented to provide FEMA and its partners at 
both the State and local levels in the hurricane prone regions of the 
country with a snapshot of asset gaps at the National, State and local 
levels
    The initiative is a joint effort between State Emergency Management 
representatives and FEMA Regional representatives to conduct a series 
of structured discussions with local jurisdictions to better understand 
potential disaster response asset gaps in the critical areas of debris 
removal, evacuation, sheltering, interim housing, healthcare 
facilities, commodity distribution, communications, and fuel. The 
discussions are providing an opportunity for local jurisdictions to ask 
specific questions of Federal and State officials and identify issues 
of critical concern to help long-term preparedness programs. We are 
confident that through these structured discussions, we will all be 
better prepared.
    Specific gaps are determined by identifying a series of 
requirements in each critical area within each location and then 
subtracting the corresponding capabilities for meeting those 
requirements for each location. By June 1, 2007, the data will be 
compiled for the jurisdictions within the hurricane prone States, 
reviewed, and then incorporated into FEMA's planning efforts. Although 
our initial use of this method is being applied for the upcoming 
hurricane season, this process is applicable to all hazards and the 
goal is to build upon lessons learned and apply the tool to all 
locations for all hazards on an ongoing basis.
    The new FEMA has made a conscious effort to focus broadly on all 18 
hurricane-prone States, the Commonwealth of Puerto Rico, and 
Territories to prepare for the 2007 Hurricane Season. Today, FEMA is 
working closely with each of the 18 state emergency management 
communities in hurricane prone states using a consistent set of 
measures and tools to evaluate strengths and vulnerabilities.
    We are actively conducting these analyses with state emergency 
managers. So, not only have we improved our ability to respond, we also 
will have a better understanding of what type of response and supplies 
may be needed for a particular area following a disaster.
    Modeling is also an essential element of FEMA's planning efforts 
for different circumstances. FEMA is coordinating with the DHS Science 
and Technology (S&T) Directorate to adapt modeling tools to large 
metropolitan areas. For example, many tools utilize a standard figure 
for population per square mile, often resulting in skewed data for 
areas with high-rise apartment buildings. The work with S&T is focusing 
on adapting these modeling tools to urban environments.
    As the use of the Hurricane Gap Analysis Tool becomes more mature, 
FEMA plans to incorporate additional modeling capabilities to validate 
the data received and to forecast needs based on different variables. 
FEMA's current hurricane planning efforts rely heavily on existing 
modeling tools such as:
        <bullet> HurrEvac (Hurricane Evacuation) to enable tracking 
        hurricanes and assist in evacuation decision making;
        <bullet> SLOSH (Sea, Lake and Overland Surges from Hurricanes) 
        to enable estimates of storm surge heights and winds resulting 
        from historical, hypothetical, or predicted hurricanes by 
        taking into account pressure, size, forward speed, track, and 
        winds;
        <bullet> HAZUS (Hazards U.S.) established by FEMA to assess 
        risk and forecast losses based on population characteristics 
        and buildings;
        <bullet> The US Army Corps of Engineers modeling tools which 
        rely on geospatial capabilities to provide estimates of debris 
        volumes; water, ice, and commodity needs; and the number of 
        people within the households likely within hurricane force 
        winds; and
        <bullet> NISAC (National Infrastructure Simulation and Analysis 
        Center) advanced modeling and simulation capabilities to 
        analyze critical infrastructure interdependencies and 
        vulnerabilities.

Gulf Coast State Evacuation Plan
    FEMA is helping Louisiana, Mississippi and Alabama develop a Gulf 
Coast Evacuation Plan that extends to adjacent States who may host Gulf 
Coast evacuees. The purpose of this effort is to synchronize separate 
State evacuation plans to create a more jointly organized effort. Teams 
are engaging with each State, identifying requirements and 
capabilities, and then will work to develop a plan that integrates 
shelter planning with transportation planning. The result will be a 
timelier, better organized and coordinated evacuation by those with 
their own transportation and those who need assistance to evacuate by 
bus or air.

Coordinating with Louisiana
    Recognizing Louisiana's continuing fragile situation, we are 
collaboratively assessing requirements, State capabilities and the 
potential need for Federal assistance. Louisiana is better prepared 
than last year--by applying lessons learned and investing some of their 
resources, but still needs assistance in finding shelter space in 
adjacent States, ensuring sufficient transportation resources to 
conduct a timely and effective evacuation, pre-positioning commodities, 
and caring for those with critical medical needs.

Catastrophic Disaster Planning Initiatives
    We are also working with 13 southeastern Louisiana parishes 
(including the City of New Orleans), which were selected as the initial 
geographic focus area for FEMA's ``Catastrophic Planning'' initiative, 
because of their vulnerability to hurricane disasters. Substantial 
planning activity continues with the State of Louisiana and its 
parishes in planning and preparing for the 2007 Hurricane Season.
    In addition, FEMA is using scenario-driven workshops to enhance the 
State of Florida's capability to respond to a Category 5 Hurricane 
making landfall in Southern Florida. This is a two-phased project. 
Phase 1 focuses on developing regional response and recovery annexes, 
including evacuation planning, for the counties and communities 
surrounding Lake Okeechobee (in the event of failure of the Herbert 
Hoover Dike) and will be completed by the beginning of the 2007 
Hurricane Season. Phase two will address the effects of a Category 5 
hurricane striking south Florida. The end product for phase two will be 
standardized and comprehensive catastrophic Category 5 hurricane 
disaster functional response and recovery plans for the State of 
Florida and responding Federal agencies. Phase two will be completed by 
September 30, 2008. These plans will be used as planning templates for 
other large urban areas also.
    Next, it is important to understand what FEMA is doing to build its 
operational capabilities to improve its response and recovery 
capabilities in support of State and local efforts.

Building FEMA's Operational Capabilities to Provide Effective Response 
and Recovery
    In addition to the many action items already described to better 
prepare for the 2007 Hurricane Season, FEMA's comprehensive strategy 
for improving its disaster response efforts includes a 2007 Hurricane 
Contingency Plan, a new operational planning unit, an Interagency 
Agreement with Defense Logistics Agency, Total Asset Visibility, a new 
generation of response assistance teams, principal federal officials 
role, and mass evacuation planning.

2007 Hurricane Contingency Plan (CONPLAN)
    The 2007 Hurricane CONPLAN provides the operational incident 
management framework to prepare for, respond to, recover from, and 
mitigate the effects of hurricanes impacting the United States. The 
CONPLAN provides guidance on actions that will be executed by Federal 
Departments and Agencies.
    This document was developed in collaboration with all of FEMA's 
National Response Plan partners for the Emergency Support Functions--or 
``ESFs''--and addresses the coordinated national-level Federal 
preparedness, response and initial recovery operations that will be 
used to support State, local, Territorial and Tribal government 
entities impacted by a hurricane or tropical storm.

New Operational Planning Unit Capabilities
    FEMA is hiring staff for its new Operational Planning Unit 
(Planning Unit). Located in FEMA's Headquarters, the Planning Unit will 
provide sophisticated operational analyses. With the new staff, FEMA is 
building its core planning competency that will possess greater depth 
of experience and more capability to perform critical disaster response 
operational analyses, prepare operational plans, and conduct crisis 
action planning to ensure that the Agency can lead, coordinate and 
support a national all-hazard emergency management response.
    Specifically, the Operational Planning Unit--
        <bullet> Provides National and Regional operational planning 
        guidance and coordination;
        <bullet> Coordinates at the operational level the execution of 
        all hazard contingency plans;
        <bullet> Provides forecasting and analysis of potential events;
        <bullet> Assists FEMA Regions in operational planning at the 
        regional level; and
        <bullet> Leads the development of DHS and FEMA hazard-specific 
        contingency plans.
    Eventually, planners will also be hired for the Regions to provide 
this capability to those specific areas.

FEMA/DLA Interagency Agreement
    FEMA and the Defense Logistics Agency (DLA) have entered into a 
collaborative partnership, via an Interagency Agreement, to optimize 
the planning, ordering, storing and replenishing of certain commodities 
such as emergency meals and fuel, and develop a road map for larger 
scaled supply chain initiatives.
    The FEMA/DLA partnership has improved FEMA's immediate response and 
logistics capabilities by reducing the acquisition and distribution 
time, as well as the replenishment lead-time. The partnership has also 
improved FEMA's day-to-day supply chain operations by creating 
repeatable, sustainable processes for planning and execution at the 
strategic, operational and tactical levels. Through this agreement DLA 
will procure, maintain, transport, and stage commodities. DLA currently 
provides visibility of all commodities shipped to disaster locations, 
logistic centers or other locations as directed, from the initial 
receipt of the order until ownership passes to FEMA.

TAV Program
    FEMA Logistics has identified areas for improving its end-to-end 
supply chain to deliver critical supplies at the right time, in the 
right quantity and to the right location. FEMA is implementing industry 
best practices for supply chain management and an automated system that 
is improving information flow by providing real-time visibility into 
orders and shipment of critical supplies during emergency response 
efforts. The Total Asset Visibility (TAV) Program oversees, directs and 
manages the design and implementation of an initial capability pilot 
system to monitor and view the orders and movement of select 
commodities which was launched during the 2006 hurricane season.
    Currently, the TAV Program provides FEMA with the ability to (1) 
manage and view orders and inventory of select commodities and (2) 
track the location of trailers carrying the commodities distributed 
from the FEMA Logistics Centers (LCs) and select vendors to field 
sites. The long-term vision for the TAV Program is to engage external 
emergency management stakeholders--from state, local and tribal 
governments and other federal agencies to non-government agencies and 
vendors--in the entire FEMA supply chain. These activities cover 
requests for critical supplies to tracking shipments and delivery to 
people in need during times of emergency. Stakeholders would have real-
time visibility into the status of requests and locations of shipments 
in transit.
    FEMA recognizes that certain types of resources may be required 
immediately after a disaster by State and local governments in order 
for them to adequately respond.
    If State or local governments, and State partners, are unable to 
supply these resources, then FEMA will coordinate the provision of 
Federal commodities to ensure that resources are in place in order to 
supplement State and local response efforts during the immediate phase 
of response activities. FEMA has initiated the Pre-Positioned Disaster 
Supply (PPDS) program to position life-saving and life sustaining 
disaster equipment and supplies in modular containers as close to a 
potential disaster sites as prudent, in order to substantially reduce 
the initial response time to incidents.

Enhanced Response Teams
    FEMA is developing the next generation of rapidly deployable 
interagency emergency response teams, tentatively identified as 
Incident Management Assistance Teams (``IMATs''). These teams will 
support the emergent needs of State and local jurisdictions; possess 
the capability to provide initial situational awareness for Federal 
decision-makers; and support the initial establishment of a unified 
command. These teams will ultimately provide the three national-level 
response teams and regional-level emergency response ``strike'' teams 
required by the Post Katrina Emergency Management Reform Act of 2006.
    The teams are still being designed and decisions on team assets, 
equipment, and expected capabilities have not yet been finalized. 
FEMA's goal is to establish interim Regional and National teams using 
existing personnel within FEMA. The teams will subsume the existing 
mission and capabilities of the Federal Incident Response Support Teams 
(or ``FIRSTs'') and Emergency Response Teams (or ``ERTs''). The mission 
and capabilities will incorporate similar leadership, emergency 
management doctrine, and operational communications concepts. The 
national-level and regional-level teams will eventually be staffed with 
a core of full-time employees, unlike the ERTs, which are staffed on a 
collateral duty basis; will be fully compliant with NIMS and ICS; and 
will train and exercise as a unit.

Principal Federal Officials
    Also, the Secretary of Homeland Security is represented by the 
Principal Federal Official (PFO). The PFO ensures that incident 
management efforts are well coordinated and effective. The PFO does not 
direct or replace the incident command structure, nor does the PFO have 
directive authority over other Federal and State officials. For 
example, during a terrorist incident, the local FBI Special Agent-in-
Charge coordinates with other members of the law enforcement community 
and works in conjunction with the PFO.
    The PFO is one member of the JFO Coordination Group. This group 
also includes either an FCO, who manages and coordinates Federal 
resource support activities related to Stafford Act disasters and 
emergencies, or a Federal Resource Coordinator, who performs similar 
functions for incidents that do not involve Stafford Act declarations. 
Depending on the incident, other agency officials are added to the 
Coordination Group, such as the Senior Federal Law Enforcement 
Official.

Mass Evacuation Incident Annex to the National Response Plan
    As part of incorporating lessons learned from Hurricane Katrina, a 
Mass Evacuation Incident Annex to the NRP is under development. The 
Mass Evacuation Incident Annex will provide an overview of evacuation 
functions and agency roles and responsibilities. It also will provide 
overall guidelines to enable evacuation of large numbers of people in 
incidents requiring a coordinated Federal response through the NRP 
ESFs. This annex will describe how Federal support resources are 
integrated into State, local, and tribal efforts. Communication linkage 
to sheltering facilities, special needs of evacuees, and addressing the 
need for evacuation of both companion and service animals are just a 
few of the issues reflected in this annex.

Improved Delivery of Disaster Assistance
    FEMA is making significant progress in improving its disaster 
assistance as well. FEMA's Disaster Assistance Directorate's planning 
and capability building initiatives include enhancing mass care 
capability by improving the National Shelter System and developing 
better tools for coordinating and tracking donations and volunteers; 
greatly increasing disaster victim registration capabilities while 
enhancing protections against waste, fraud and abuse; developing a 
national disaster housing strategy and improving operational planning 
for providing temporary housing in a catastrophic disaster; 
establishing a case management program; updating ESF 6 Mass Care, 
Housing, and Human Services standard operating procedures; developing 
debris estimation technology and monitoring methodology and enhancing 
state and local debris operations capabilities; and, improving our 
capability to conduct operations planning for long term disaster 
operations.

Emergency Evacuation, Shelter, and Housing
    FEMA's most pressing priority for planning for Recovery from a 
catastrophic disaster event has been emergency evacuation, shelter and 
housing. In 2004, FEMA completed an initial Catastrophic Disaster 
Housing Strategy, which proposed several initiatives to increase FEMA's 
capability to provide assistance to individuals and households 
following an extraordinary or catastrophic disaster. The strategy 
provided the principles and recommended strategies that establish the 
framework for the catastrophic disaster housing recovery planning being 
done today. Key needs identified at that time included: an expandable 
disaster registration intake and applicant assistance process; the 
ability to provide immediate benefits payments; a plan for assisting 
applicants to temporarily relocate to outside the disaster area; and a 
strategy and prepared public messages to provide victims with 
information about assistance.
        <bullet> Mass Evacuee Support Planning: The 2005 Gulf Coast 
        hurricanes caused several hundred thousand residents to 
        evacuate to over forty States, many for prolonged time periods. 
        Cities such as Houston, Oklahoma City, Atlanta, and Baton Rouge 
        received hundreds of thousands of evacuees requiring immediate 
        shelter, food, other basic assistance, as well as longer term 
        services. In June 2006, FEMA published Recovery Strategy RS-
        001, Mass Sheltering and Housing Assistance. This strategy 
        addresses many contingencies for providing sheltering and 
        housing assistance for declared emergencies and major 
        disasters. In addition, FEMA is undertaking more detailed mass 
        evacuee support planning. This will assist State and local 
        governments to plan and prepare for hosting large displaced 
        populations. The project includes FEMA developing an evacuee 
        registration and tracking capability, implementation plans for 
        federal evacuation support to states, emergency sheltering 
        guidance and providing direct planning assistance to potential 
        host States and communities.
        <bullet> The National Emergency Family Registry and Locator 
        System and National Emergency Child Locator Center: As defined 
        in the Post Katrina Act, these capabilities will address the 
        reunification of displaced persons and activity to locate 
        missing children during disasters. For disasters declared by 
        the President, this tracking capability will assist FEMA, 
        Department of Justice and the American Red Cross in further 
        developing and implementing methods for quickly identifying and 
        reunifying missing and separated children and family members 
        during a disaster.
        <bullet> Improving Shelter Management and Accountability: FEMA 
        and the American Red Cross, the nation's largest operator of 
        major congregate shelters during disasters. The first phase of 
        the National Shelter System (NSS) was developed through a FEMA/
        American Red Cross partnership to provide a web-based data 
        system to support shelter management, reporting, and facility 
        identification activities. The system is intended for use by 
        all agencies that provide shelter services during disasters to 
        ensure a comprehensive understanding of the shelter populations 
        and available shelter capacity. In addition, this system will 
        provide visibility on large shelter populations and position 
        FEMA to provide targeted registration assistance to disaster 
        victims. Outreach and training for Federal, State, and local 
        authorities in use of the system is being conducted.
        <bullet> Housing Options: The FEMA Housing Portal was developed 
        to consolidate available rental resources for evacuees from 
        Federal agencies, private organizations, and individuals. The 
        Joint Housing Solutions Group is a dedicated unit to research 
        and document alternatives to traditional temporary housing. 
        They are currently conducting initial baseline field tests of a 
        housing option assessment tool.
        <bullet> Expanding Home Inspections Capacity: FEMA has 
        increased the daily home inspection capacity of FEMA contracted 
        firms from 7,000 per day to 40,000 per day through a new 
        contractual agreement. This added capacity--combined with a 
        newly established third party evaluation of inspections 
        performed on victims' damaged homes--will increase the speed 
        and accuracy of home inspections that determine the FEMA repair 
        and replacement grants for which a victim may be eligible.

Applicant Registration and Management
    In 2006 and 2007 FEMA has focused its Recovery planning and 
capability building efforts on improving applicant management systems, 
expanding registration intake and processing capacity, increasing fraud 
controls, supporting displaced populations, identifying alternative 
forms of temporary housing, and debris management planning. FEMA has 
made significant progress in increasing its capability to provide 
assistance to individuals particularly in the areas of registration, 
applicant processing, and providing assistance.
        <bullet> Doubling Registration Capacity to 200,000 Per Day: 
        During the days and weeks following Hurricanes Katrina and 
        Rita, FEMA surpassed 100,000 registrations a day, shattering 
        all previous records of intake.  While call center capacity was 
        increased to its highest levels ever, FEMA is pursuing even 
        more robust contract and contingency surge capabilities that 
        will quickly allow for rapid expansion to a registration intake 
        capacity of up to 200,000 per day. FEMA's Internet-based 
        registration capability has been increased by improving 
        accessibility, allowing FEMA to handle more registrations than 
        ever before. This will help reduce registration wait times and 
        FEMA Helpline information delays following a major disaster.
        <bullet> Deployable Mobile Registration Intake Centers (MRICs) 
        Pilot: Recognizing many disaster victims may be stranded or in 
        congregate shelters with no communications, and unable to 
        register for assistance, FEMA has established a new 
        registration pilot program that pushes registration 
        capabilities directly into the field. In the 2007 hurricane 
        season FEMA will have the ability to deploy Mobile 
        Registrations Intake Centers immediately to congregate shelters 
        and provide an on-site capability to quickly register for FEMA 
        assistance.

Debris Management Planning
    Management of contaminated debris is of particular concern for 
terrorist events, but is also an issue in most large natural disasters. 
An Interagency Work Group to coordinate Federal agency management of 
contaminated debris began work in 2005 just prior to Hurricane Katrina. 
The Work Group is further developing Federal contaminated debris 
operational procedure guidance. This project is analyzing the 
implications of a catastrophic incident on contaminated debris 
management programs and policies and will assist FEMA, USACE, EPA, 
USCG, and other federal stakeholders to better define their operational 
role and inter-relationships. FEMA's Public Assistance Program is also 
undertaking two catastrophic planning initiatives focusing on 
increasing State and local debris management capabilities through 
planning and enhancing Federal capabilities to estimate debris volumes 
following a disaster to assist in operational planning and cost 
estimation.

Increasing Fraud Controls
    FEMA has also taken steps to implement new and stronger controls 
pertaining to identity and occupancy verification of applicants for 
disaster assistance. Examples of controls implemented include: 
deployment of a new Internet registration application that disallows 
any duplicate registrations; added identity proofing to the call center 
registration application so that all Individual and Households Program 
(IHP) registrations are subjected to the same stringent criteria, 
including verification of social security numbers and occupancy 
requirements; data-marking any applications in FEMA's database that 
fail identity proofing so they are flagged for manual review and denied 
automated payment; real-time interaction between the FEMA Service 
Representative and the applicant during registration to ensure the data 
entered that resulted in a failed identity check is correct before 
accepting the application; working with FEMA's data contractor to flag 
any addresses that are not residential addresses in order to prevent 
automated payments without an on-site inspection verification of 
address and residency; and flagging at-risk social security numbers to 
identify potential fraud.

Conclusion
    I believe we have made real progress at FEMA and are prepared for 
the 2007 Hurricane Season. Our efforts will bear fruit across our 
disaster operations and assistance programs. Today, I have focused on
        <bullet> 1. Establishing a heightened posture of hurricane 
        preparedness;
        <bullet> 2. Engaging our State and Federal partners in more 
        thorough and informed hurricane planning; and,
        <bullet> 3. Building FEMA's operational capabilities to provide 
        effective response and recovery.
    But, there is a lot more going on inside FEMA that will contribute 
to enhanced performance and organizational success. For example, I hope 
to announce soon the selection of our Disabilities Coordinator.
    Although all disasters are local, FEMA must play a more proactive 
role in understanding vulnerabilities so we can assist the localities 
in being better prepared to respond. And, as I hope you can see by 
today?s testimony--we are. By leaning further forward to coordinate the 
federal response, we can better serve all Americans.
    Today, FEMA:
        <bullet> Has created engaged partnerships in support of State 
        and local governments,
        <bullet> Has supported and helped to facilitate an effective 
        unified command with other Federal agencies, and State and 
        local officials,
        <bullet> Has engaged with hurricane-prone states to gain a 
        better understanding of their vulnerabilities,
        <bullet> Has improved logistics and communications capabilities 
        to improve response, and
        <bullet> Enhanced Disaster Assistance capabilities for recovery 
        efforts.
    Of course, we are not done yet.  There is still much work to do.
    But if our progress over the past year is any indication, I believe 
we are on the right track to fulfilling our vision to become the 
nation's preeminent emergency management and preparedness agency.
    I am especially proud of the men and women who work at FEMA.  They 
have put their hearts and souls into rebuilding this agency. The men 
and women of FEMA are dedicated to the mission of disaster and victim 
recovery, and staunchly committed to improving the speed, efficiency, 
and accountability with which we perform that mission. That commitment 
is not only to the victims and communities of those disasters that we 
expect to face in the future, but to those victims and communities 
still struggling with the personal, professional, and social 
consequences and challenges of past disasters.
    Thank you for your continued support and the opportunity to discuss 
how FEMA is preparing for the 2007 Hurricane Season. I look forward to 
answering any questions you may have.

    Chairman Thompson. Thank you very much, Mr. Paulison. I 
thank you for your testimony.
    I will remind each member that he or she will have 5 
minutes to question the witness.
    I will now recognize myself for questions.
    Before I do, I would like to make reference that, under the 
House rules and this committee, visitors and guests are not 
permitted to make undue noise or to applaud or in any way show 
their pleasure or displeasure as to the actions of the members 
of the House.
    Mr. Paulison, as you know, with the hurricane season coming 
on June 1, when do you think we will have the plan ready?
    Mr. Paulison. Well, the national response plan is actually 
in place now, the one we have been using. The concept of how we 
are going to operate under that plan is still in place. What we 
are doing is trying to rewrite that plan, to build it from the 
bottom up, to make it much easier for the local communities to 
understand and use and also incorporate some of those things 
that came out of the Post-Katrina Reform Act.
    We are going to try to get this thing ready before our 
first hurricane comes. I will not be ready by June 1, I want to 
tell you that right now, but it should be done shortly after 
that. I have had my staff working on it with the Department of 
Homeland Security and also a lot of our users out there are 
involved in rewriting this plan.
    So we do have a plan in place. We have a CONOPS for 
hurricane season, we are doing right now multi-state evacuation 
planning and working with all the states and their planning 
efforts to make sure that we can fill those gaps that they 
have.
    So we have a plan in place. The national response plan you 
are speaking of, as far as rewriting it, is not done yet, but 
we are working very hard to make sure we get done in a timely 
manner.
    Chairman Thompson. Can you give us an approximation of when 
you think it will be ready?
    Mr. Paulison. I would hate to give you that and have 
something happen. Invariably, if I give a date on something, 
something happens with that. I can tell you that we are working 
hard to get it done in the June timeframe and not into July.
    Chairman Thompson. Well, I think you do understand the need 
to present that document.
    Mr. Paulison. Yes, sir, absolutely.
    Chairman Thompson. Is your testimony to this committee of 
such that even though we don't have the plan before us, that it 
does not impede FEMA's ability to respond to any particular 
disaster, especially hurricanes?
    Mr. Paulison. That is correct, sir. That is my testimony. 
We are ready to respond. We are working with the states, making 
sure we are doing those gap analyses, particularly with the 
hurricane states, Puerto Rico and the Virgin Islands and 
working with them very closely. And we are ready to respond 
should a hurricane come prior to getting that revised national 
response plan out; yes, sir.
    Chairman Thompson. Another issue that came before us in 
previous testimony is that we authorize FEMA a certain number 
of slots from a personnel standpoint. Can you provide the 
committee where we are in completing the slots, as authorized 
by Congress?
    Mr. Paulison. At this point in time, we are just a little 
bit over 90 percent of our authorized strength, and I think 
that is remarkable. We will be at 95 percent before hurricane 
season, that is our goal. And don't forget we only had 1,700 
people when I took over FEMA, and we lost 500 after Katrina. So 
we made a remarkable recovery of hiring people, getting them 
aboard, and we are at 90 percent.
    If you are talking about the 254 positions converting to 
full-time, we are in the process of doing that. Of course, that 
will drop the percentage down once we get those in there, but 
we are doing a remarkable job of hiring, being able to cut 
through some of the red tape and being able to get people on 
board.
    Chairman Thompson. Can you provide the committee with what 
you identify as some of the red tape that perhaps prevented you 
from bringing people on as fast as you would like to have?
    Mr. Paulison. I think a lot of it was getting stuck in the 
mud, so to speak, with the old way of doing things. I will give 
you an example: We have a job fair right there at the Holiday 
Inn where FEMA is located, and we had almost 600 people show up 
for 42 jobs.
    So we are going to be doing more things like that, going 
out and looking at hiring veterans that have been disabled from 
the war in Iraq, going out to colleges and community colleges. 
I spoke at a commencement exercise last week and challenged 
people to come to work for FEMA. It is a good place to work. 
Targeting minority groups and women groups to get them to apply 
to come to work for FEMA.
    We are looking outside the box, trying to cut through some 
of the red tape. One of the things I learned coming from local 
government, the hiring of the federal government is much more 
difficult than at the local level.
    Chairman Thompson. Well, as you know, one of the workplace 
issues for DHS in general is the morale of its employees. Can 
you provide us those things that you think that might help 
Congress help the department improve morale of its employees?
    Mr. Paulison. I will speak to FEMA directly. The morale of 
FEMA when I took over was obviously, by anyone's perception, 
not good. They had been beat up, they were overworked, 
shorthanded, not enough people to do the job. So we are 
building the morale by doing a couple of things.
    One, the employees see that I am very serious about 
rebuilding this organization and they bought into that. Two, we 
have been hiring people. Like I said, we are at 90 percent of 
our authorized strength now. Three, and maybe as important as 
the other two, is bringing people on board who have experience 
to do the job, bringing in good leadership. We only had two of 
our 10 regional director slots filled. Now, they are all 10 
filled, and they are people with 25 and 30 years experience 
dealing with emergency management. So the employees see that we 
are serious about it.
    I think that what I would ask Congress to do is to continue 
what you have been doing, Mr. Chair. You have been supporting 
me, you have been supporting this agency, and the employees 
recognize that.
    Chairman Thompson. Thank you.
    Last question, Mr. Paulison: Are you aware of an issue with 
formaldehyde in certain trailers that FEMA bought and placed in 
the Gulf Coast region? And if you are, to what extent have you 
had it investigated, and what have you come up with your 
investigation?
    Mr. Paulison. The formaldehyde issue was brought to our 
attention, and we actually went out and investigated. We used 
EPA and some other agencies to do testing. We have been told 
that the formaldehyde does not present a health hazard; 
however, we do encourage our occupants of those trailers to air 
those out, keep them open as much as possible to let the fumes 
die out. And pretty much any mobile home you buy has that same 
issue. Actually, a lot of single family homes have that.
    But we have been very cognizant and are on top of that and 
are making sure that we are not doing anything that is going to 
harm those people that are living in those travel trailers and 
mobile homes.
    Chairman Thompson. So there is not anything out of the 
normal?
    Mr. Paulison. That is correct, sir.
    Chairman Thompson. Okay. Thank you very much.
    I now recognize the ranking member of the full committee, 
the gentleman from New York, for questions.
    Mr. King. Thank you, Mr. Chairman.
    Director Paulison, I understand that probably in the next 
several weeks the U.S. International Trade Commission may issue 
a decision in a patent dispute case that would prohibit the 
importation of broadband-capable cell phones that allow users 
to share video and exchange other data via the Internet. I 
assume you are aware of it. I know several first responder 
groups have come to me, and they are concerned about the impact 
that would have.
    What impact do you think it would have, and how would FEMA 
adapt itself to that decision, if it comes down that way?
    Mr. Paulison. We had a discussion with this yesterday, so 
your question is timely.
    I won't have a major impact on FEMA itself, because we have 
the capability of doing those things already. What it does have 
an impact on is the first responders. They need that technology 
out there to be able to do the video, the data over one 
instrument instead of having several.
    So without getting into a dispute on who is right, the fact 
is that the first responder community can use that technology 
and can use it to actually protect themselves and better 
protect the American public.
    Mr. King. On to another point, and I realize that no two 
disasters are alike and no incidents are alike, but based on 
the leadership you are bringing to FEMA and based on the 
legislation that was passed last year, what would be done 
differently if a Katrina-like event occurred this summer? How 
do you see FEMA reacting differently than it did 2 years ago?
    Mr. Paulison. Well, FEMA itself, the difference is some of 
the things we have already talked about, about having a better 
communication system, having the right type of leadership on 
the ground who know how to handle disasters, know how to manage 
these big disasters, but also having visibility of what is 
actually happening in real time as opposed to guessing what is 
happening and getting it off some of the television stations.
    Also, we have been working with each state, looking at 
evacuation plans. Are they in place, how are they going to 
transport people, where are they going to go, who is going to 
staff the shelters? We have been working very closely with the 
Red Cross on the shelter issue, putting a shelter registry in 
place. We have identified 44,000 shelters across this country 
that we didn't know that were there before.
    So we are doing a lot of things that you are not going to 
see the same type of response. You are going to see a federal 
government that is extremely proactive, moving very quickly and 
making sure that when the state asks for something it is there 
on the ground waiting for them.
    Mr. King. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    We now yield to the gentlelady from California for 5 
minutes, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, Mr. Paulison, for being before us today.
    In the next couple of weeks, I am planning to introduce 
legislation to authorize the national urban search and rescue 
system. And my question for you is, do you think that the 
national urban search and rescue system and its task forces are 
a successful part in helping FEMA respond to these disasters?
    Mr. Paulison. There is no question about it. They are an 
outstanding asset for FEMA to use. We have 28 teams out there 
right now. In 2007, they received $25 million from FEMA, and 
the president's proposed budget for 2008 is another $25 
million.
    Ms. Sanchez. In particular, the legislation I have drafted 
right now would allow the urban search and rescue system and 
task forces to activate for pre-staging and training 
activities, and do you think that this will improve the 
system's preparedness and ability to respond when they are 
needed?
    Mr. Paulison. Well, without seeing the legislation, I will 
just speak generally, that any time that the teams exercise and 
deploy in practice, it makes them sharper and more able to 
respond in a better manner, if that is answering your question. 
And that is why we have increased the amount of money they get 
to $25 million and again next year to give them the dollars to 
do some of those things.
    Ms. Sanchez. In the testimony that we received from the 
second panel, Mr. Fugate, the director of the Florida Division 
of Emergency Management, urges us to increase the funding for 
the Emergency Management Performance Grant Program. The 
National Emergency Management Association estimates that the 
current national need for that funding is at about $487 
million, and yet the president only put in $200 million for 
this 2008 budget.
    Given that this the only grant that we have of federal 
funding for the states and locals to use for planning and 
preparedness activities for all hazard disasters, do you think 
that that is enough money, the fact that the president only put 
in $200 million in his budget?
    Mr. Paulison. Well, since Mr. Fugate is sitting behind me, 
I will be careful how I answer that.
    Actually, the president and the administration does feel 
that that is sufficient. There is no amount of money that is 
ever enough for anybody to operate under. We know that our 
state emergency management systems are stretched. Florida has a 
very robust one, and Mr. Fugate is one of our better emergency 
managers around the country.
    But the president is putting into the budget what he thinks 
is sufficient to keep those systems going. It is a state 
activity, and the federal government is simply assisting in 
that area.
    Ms. Sanchez. Do you think that the Department of Homeland 
Security has a sufficient all-hazards approach to emergency 
preparedness and response?
    Mr. Paulison. I do. I am a firm believe in all-hazards 
response and all-hazards preparedness. Any type of disaster 
that we prepare for we have to prepare for all of them. We have 
to prepare for natural disasters, manmade disasters, terrorist 
disasters, any type of thing. You can see it in your home state 
what you have to deal with, from forest fire to floods, 
mudslides, earthquakes, all those types of things.
    So we have to have a general perspective of this, and I do 
feel like that I get a lot of support as the secretary for an 
all-hazards approach to how we respond and how we prepare.
    Ms. Sanchez. And, lastly, let me ask, my biggest concern 
right now, being a Californian and just going out in the 
community, is that the first line of response or successfulness 
with respect to either a terrorist attack or a hazard situation 
is how the people respond. And what I have seen is really a 
deterioration in people even being prepared on an individual, 
family or unit basis.
    What do you think that we can do to increase that knowledge 
and really get people to understand that it may be 9 days, like 
in Katrina, before the federal government or anybody else gets 
to them?
    Mr. Paulison. And I have seen the same thing, and I will 
talk about my home state of Florida after Hurricane Andrew came 
through. We saw several years where people were prepared and 
would get ready for every hurricane season. And as we got 
further and further away from that hurricane, it got worse and 
worse where people simply did not prepare.
    With Hurricane Wilma coming through last year, we ended up 
working with the state and simply could not keep up with the 
amount of supplies we had to deliver to people because they 
were not ready. They didn't have their 3 days supply of food 
and water and medicine, flashlights and batteries and all those 
things that we know you have to have.
    This country has to get back to a culture of preparedness. 
We can preach it from here, but it takes people like Mr. 
Fugate, who will testify in the next committee, and the local 
emergency managers and our congressional members and our local 
elected officials continuing to preach that we have to be ready 
for any type of disaster. Because regardless of what state you 
live in, in this free country of ours, there is some type of 
natural disaster that can be there. Plus we have the threat of 
terrorism.
    So I think we are on the same page. We have got to get that 
out there and convince our public out there, our residents, 
that they have to prepare and take care of themselves and their 
families.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. I apologize to the 
gentlelady. I looked at one red light and it was second.
    We now recognize the gentleman from Alabama, Mr. Rogers, 
for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    Those of us who were on this committee last Congress are 
all aware of the real difficulty DHS has had in trying to 
recruit and retain top management personnel, and we all are 
also aware how difficult it was for us when your position came 
open to recruit top-flight personnel to be interested in this 
job. And as I recall, you were the only top-flight candidate 
who didn't run for the hills, and our nation owes you a debt of 
gratitude for taking on this job when nobody else wanted it of 
your caliber. So I appreciate that.
    Also, I appreciate the fact that when we had a tornado in 
Alabama earlier, a few months ago, FEMA performed exceptionally 
well, which was a stark turnaround from what we saw on the Gulf 
Coast after Katrina. So I know that didn't happen by accident 
either, so I appreciate your service in Alabama.
    There are several things I want to ask about. First is, on 
the coast, in the coastal states, we have, and I know in 
Mississippi and in Alabama, primarily rural water systems that 
provide water to these small towns. It is my understanding that 
in Georgia and in Mississippi there are adequate numbers of 
mobile generators for pumping the water when the power goes 
out, but in Alabama there are a very small number of those 
generators.
    Is there anything being done by FEMA to address that 
inadequacy, at least on the southern part of Alabama, toward 
the Gulf Coast, in water generation?
    Mr. Paulison. We have quite a few generators that we call 
50-pack. We have 50 generators on a tractor trailer that we 
move in very quickly after a storm. Greensburg, Kansas, had 
their own water system and their own power system owned by the 
city, so we moved in very quickly with generators, along with 
the National Guard, to help them get those things back up and 
running again. And we would do the same thing in Alabama.
    Mr. Rogers. Can these local rural water systems apply for 
grant assistance to get mobile units that they can move among 
their own members and their associations?
    Mr. Paulison. They can after a storm. If there is a storm 
and their infrastructure is damaged--
    Mr. Rogers. I am thinking ahead of time, pre-positioning 
these things, knowing that on the Gulf Coast we are going to 
have seasonal weather problems that will take the water 
distribution down. Because Georgia has an adequate number and 
because Mississippi, because of Katrina relief, has them, I 
want to know if we can do anything in advance of a disaster to 
make sure these water systems have these mobile units they can 
share among each other?
    Mr. Paulison. I am not aware of any off the top of my head, 
Congressman, but I will tell you what I will do: I will 
research and see if we can find something.
    Mr. Rogers. If you would, I would appreciate it, sir.
    The next thing you talked about in response to Congressman 
King's question about what we would do differently. You talked 
about anticipating and working better with local governments. 
One of the things that our local officials in south Alabama 
talked about after Katrina was the debris removal, and they 
would like the latitude to go ahead and negotiate ahead of time 
with companies who are not in the immediate coastal area, to 
come in after a hurricane or tornado and remove debris, pre-
negotiated prices along pre-negotiated routes so that we don't 
get extorted when we have these disasters.
    Have you all done anything to allow these local governments 
themselves to pre-negotiate these debris removal contracts?
    Mr. Paulison. Yes, sir. In fact, we encourage them to do 
that. One thing that we have done is there used to be a 
disparity between at what percentage rate we reimburse the 
Corps, if the Corps did it, or if a local community contracted 
themselves, and we have taken that disparity away. That was not 
the right thing to do, so we have taken that disparity away.
    We encourage local communities and states to have those 
debris contracts in place. It makes it much easier. First of 
all, it puts the work back at the local community where it 
needs to be so you can put local people working. And then, 
secondly, it takes the burden off of the Corps also.
    Mr. Rogers. Excellent. My last question is to follow up on 
Congresswoman Sanchez's issue of search and rescue. Do you all 
have within your resources canine detection teams for post-
disaster search and rescue?
    Mr. Paulison. The 20 urban search and rescue teams, most of 
those do have canine dogs to search for live victims and also 
body recovery. FEMA itself does not own them, but we pay for 
them through the local communities that have urban search and 
rescue teams, or the states that have them.
    Mr. Rogers. You pay for them?
    Mr. Paulison. We support the urban search and rescue teams, 
again, $25 million this year, and part of that the teams will 
support a dog canine corps at the urban search and rescue 
level.
    Mr. Rogers. Okay. Thank you very much.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from the District of 
Columbia for 5 minutes, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    The gentleman from Alabama has raised an issue of the kind 
that about a dozen members came to testify before our 
subcommittee last week. And just for the information of 
members, we are preparing a package of legislative fixes really 
drawn from the Katrina experience. Sometimes they may apply to 
states like Alabama, which is also affected, but these would be 
one time only fixes, and we had the entire delegation from both 
states come. And we would appreciate your continuing input into 
that discussion.
    I am going to limit my question to a single one, 
particularly since my subcommittee is having a hearing that 
comes close to this one. It is going to be called, ``Assuring 
the National Guard is as Ready at Home as Abroad,'' and I 
appreciate that you are appearing at both of these hearings.
    Although I am going to suggest to both chairmen, full 
chairmen, that we perhaps have some joint hearings so as to 
keep FEMA from running between two committees, which very 
honestly do have overlapping jurisdictions. And so we have just 
got to figure that out, and the committees are trying very 
hard. They each have a deep interest in your work.
    My question really goes to preparing for the coming season 
and avoiding what I will call, for lack of a better word, false 
positives. We may have scared FEMA into overpreparedness. You 
will remember, Mr. Paulison, our hearing on the millions of 
dollars above what was needed for food, and I know you are 
fixing that now, but several million dollars was wasted, some 
was given away.
    We also have asked for an audit of your new management 
employees. I think much of that came out of both committees.
    Mr. Chairman, you will recall that in our committee on the 
Federal Management Service we discussed, as we had in the other 
committee, how the person who became head of this federal 
police service that covers the entire federal work force, 
almost 2 million people, had never run a police department. I 
understand some of these people come out of the military, but 
that raises that some questions that I think only an audit will 
tell us about.
    But you have now new people predicting hurricanes, and 
there was an internal debate in FEMA last year about this 7-day 
directive, that there will be 7 days advance warning and so 
forth, and a lot of that comes out of the science, but the 
debate had to do with keeping mobilizations and deployments 
from occurring that may not be necessary. And it appears that a 
fair number of deployments were made that were not necessary 
based on this 7-day warning when in fact most of those 
hurricanes peter out and go out to sea, thank heavens.
    I want to know if you feel that you are more actively able 
to discern which hurricanes are likely to hit land, and you 
know that in about 3 days out. In that case, wouldn't that be 
enough, given advance orders for food and so forth, if needed, 
to do the necessary deployments without trying to figure out 7 
days out and then deploying people around the country, spending 
taxpayers' money where it may not be necessary?
    Mr. Paulison. That is a very difficult issue and a very 
intriguing question you are asking.
    We work very closely with the National Hurricane Center. In 
fact, I have a FEMA employee that is stationed down there. We 
have a hurricane liaison team actually based in the National 
Hurricane Center down in Miami. And we know they are working 
very hard to give us better predictions. Three-day predictions 
are pretty accurate, the 5-day predictions are not quite as 
accurate, and if you get out any further than that, it makes it 
much harder.
    We want to be proactive. The states have to move quickly. 
If we look at an area like Louisiana or anywhere in the Gulf 
Coast where a significant number of people are going to have to 
be evacuated and going to have to be evacuated by buses, if we 
wait too long before we start moving people, then they will be 
in harm's way. Now, 7 days is too early to move people, 
obviously, but, still, 72 hours out takes almost that long 
sometimes to move people.
    I know Craig Fugate is here, and he has a lot of experience 
with that. I am sure you can ask that same question from a 
state perspective just to tell you what they think.
    We don't want to move assets needlessly, we don't want to 
waste taxpayers' dollars, but at the same time, the downside 
would not to be there if they needed us.
    So it is a tough call. We are trying to make the best 
judgment we can. I am on the phone constantly. I was with Max 
Mayfield and the new Hurricane Director Proenza. We are 
developing a good relationship, and I am on the phone with him 
constantly, ``Tell me what you really think. Where do you think 
it is going to go?'' We are just making the best call we can at 
the time.
    Ms. Norton. Yes. It would be too bad if an audit then is 
done on FEMA going more places than was necessary. There ought 
to be someway to somehow do this scientifically. I do 
understand what you are up against.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    I would like to remind the audience that cell phones should 
be in the ``off'' or ``vibrate'' mode during hearings. We 
continue to hear phones going off while questions and witnesses 
are responding.
    I now recognize the gentleman from Florida for 5 minutes, 
Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    As I am sure you are aware, Director, many experts have 
predicted that this hurricane season will be a very active one. 
Obviously, those of us who represent coastal states are very 
concerned about the potential of these dangerous forecasts.
    I believe it is incumbent upon our states and local 
governments to best prepare for major disasters. So with that, 
I will ask my questions.
    What are the most important steps that states, localities 
and even individuals can take to ensure that they are best 
prepared for the upcoming hurricane season?
    Mr. Paulison. That is a pretty broad question.
    I am from south Florida also. My family is still down 
there. Individually, I can tell you what we do. We make sure 
that our home is prepared, make sure we have hurricane 
shutters. Every beginning of hurricane season we go out and 
purchase food and water, make sure we have batteries for our 
flashlights. I happen to have a portable generator. I make sure 
I have fuel for that and we are ready to go.
    At the local level, the local community definitely has to 
be prepared, because that is where the response is going to 
come from. They have to make sure they have plans in place, 
they exercise those plans, make sure they know what their 
shelters are going to be, how they are going to evacuate 
people, when they are going to call it, how are they going to 
get there.
    And at the state level, the same type of thing. The state 
needs to make sure that they are following up on each of those 
counties and each of those communities, that they are 
evaluating those plans to make sure those are in place and make 
sure the state is ready to respond with the assets it has.
    It is a team effort. It takes the federal government, the 
state, the local community and the individuals all to take it 
very seriously to prepare themselves for these types of storms, 
particularly in the coastal areas.
    Mr. Bilirakis. Okay. I have a question. I introduced a 
piece of legislation which was to provide tax incentives for 
Americans in their property to better withstand hurricane and 
tornado-free winds.
    Do you believe that the administration would be interested 
in working with me on this proposal to help continue our 
country's commitment to disaster preparedness?
    Because I think mitigation is where it is at.
    Mr. Paulison. I can speak for FEMA, particularly. We would 
be glad to work with you on any type of legislation that would 
help people better prepare themselves and to sit down and talk 
with you and talk about what our issues are and how we think we 
can get this country all prepared for any type of disaster, 
quite frankly.
    Mr. Bilirakis. Okay. Can you specifically discuss again--I 
know it was touched upon--the adjustments that your agency made 
post-Katrina?
    Mr. Paulison. I will, and I will cover them quickly, 
because I know you have another panel behind me. We took very 
seriously those things that came out of committees like this, 
came out of the White House, came out of the IG report, the GAO 
reports, and they boiled down to just a few things that were 
overall themes.
    One, the biggest failure was communications, no 
communication between the local community and the state, 
between the state and the federal government and inside the 
federal government itself. That is why we put this unified 
command system in place. It has a better visibility of what is 
happening on the ground real time. We have put systems in place 
to be able to get live videos back where we can actually see 
that and have satellite communications.
    Having a better logistics system, better handle on how much 
stuff do we need on the ground, how do we move it, how do we 
track it, and how do we get it to the people. Having better 
leadership on the ground, people who know what they are doing--
we learned that very clearly--and then also being able to take 
better care of our victims, the people who have had to 
evacuate. Have a better registration system in place, being 
able to track people, making sure they get what they need but 
yet at the same time putting waste, abuse and fraud systems in 
place so we don't waste money like we did during Katrina.
    And that is a very quick, short answer, but I would be glad 
to sit down with your office and go over it in detail if you 
would like.
    Mr. Bilirakis. Thank you, Director.
    I yield back. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Pennsylvania, Mr. 
Carney, for 5 minutes.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Paulison, once again, I want to commend you for your 
efforts in jumping on. It is not easy, and I realize the task 
you have at hand.
    On February 15 of 2006, February 15, 2006, Secretary 
Chertoff testified, and I want to quote this so I get it right, 
that, ``It seems to me the minimum of what we need to do by 
June 1 is require that you put on the trucks the kind of 
communications that allow you to track where a truck is at any 
particular point in time.''
    Now, the secretary is talking about June 1, 2006. Does 
FEMA, in fact, have this capability in place by January 1, 
2006?
    Mr. Paulison. We do. We do for the Gulf Coast, and up the 
Atlantic Coast, anything that flows out of our office in 
Denton, Texas, or our offices out of Atlanta, which is our 
biggest supply depots. We purchased 20,000 GPS units and we can 
track our trucks real time, but it is a bigger system than 
that.
    So nationwide what we can do is our ordering system, where 
does the order come from, when is it filled, where is it going, 
and when does it get on the road. We have put a system in place 
like that.
    Mr. Carney. And that is nationwide?
    Mr. Paulison. The tracking of the individual trucks is not 
nationwide. The tracking of the individual trucks is anything 
that comes out of Texas or anything that comes out of Atlanta.
    But we are looking now at going to more of what we call a 
3PL, third-party logistics where leveraging the private sector 
out there, like the UPSs and the FedExes and tying into their 
system instead of spending the millions and millions of dollars 
to purchase our own. So that is going to be the next phase of 
this.
    Mr. Carney. In case of a true catastrophe, are you going to 
then be pulling resources from all over the country; is that 
what you are telling us?
    Mr. Paulison. Well, the bulk of our supplies are in Texas 
and Alabama, although we do have them scattered around the 
country. But what we are really doing is develop a partnership 
with the Defense Logistics Agency where they will be our main 
supplier and a backup supplier. So we will be able to rotate 
stocks, so we don't have the wasted supplies like we had 
before, but at the same time being able to track those through 
that system also. We really are developing partnerships.
    We have learned a lot of lessons over the last 3 years on 
how the logistics systems should work and also to the point of 
hiring one of the top officials. I had a DLA to come work for 
us and run our logistics, so we are excited about that.
    Mr. Carney. Thanks. In your prepared testimony, you said 
that the guiding principle of the new FEMA is that we are 
leaning further forward to deliver more effective disaster 
assistance to individuals and communities impacted by a 
disaster, and you called it, ``engaged partnership.'' I really 
commend that approach. I am very happy to hear that.
    Yet last week, when White House Spokesman Tony Snow was 
asked about Kansas Governor Sebelius concern over response 
efforts, he said, ``If you don't request it, you are not going 
to get it.''
    Is this statement consistent with FEMA's principles, or do 
you have some education to do at the White House?
    [Audience interruption.]
    Chairman Thompson. Excuse me a minute. We will save your 
time, Mr. Carney.
    Mr. Paulison. What was the question again? Sorry?
    Mr. Carney. Your leaning forward approach, you have engaged 
partnership I think is great, but Tony Snow said, ``If you 
don't request it, you are not going to get it.''
    Mr. Paulison. I think that was in context to some of the 
Guard issues, I am not sure. But I can tell you that the 
philosophy of this agency is we are going to try to anticipate 
what the needs are. We see thousands of disasters all the time, 
so we kind of know what is going to be needed. So we are going 
to be moving supplies, communications but not without talking 
to the state and telling them what we are doing. We are not 
going to come in and take over. This is a local response and it 
is a state response.
    But what we did in Greensburg, Kansas, just seeing the 
magnitude of the disaster of that, we knew that they were going 
to have a difficult time asking for things, so we started 
moving the stuff that we thought they would need right away, 
and it worked extremely well.
    Mr. Carney. Is Mr. Snow aware of this?
    Mr. Paulison. Yes, he is. He was with us when we went down 
there and saw what we were doing. I think that may have been 
taken--again, I don't know what the context of what that 
statement was said, but I know he was very supportive of what 
we were doing.
    Mr. Carney. Good. All right. That is good to hear.
    Thank you very much. No further questions.
    Chairman Thompson. Thank you very much.
    We now recognize Mr. Davis of Tennessee for 5 minutes.
    Mr. Davis of Tennessee. Thank you, Mr. Chairman.
    And thank you, Director Paulison, for being here. I 
appreciate your testimony today.
    It is my understanding that FEMA and the national response 
plan make it quite clear that FEMA's role is to coordinate 
federal resources and to assist in disasters and not actually 
take over for local and state governments. Do you agree with 
that?
    Mr. Paulison. Absolutely. All response is local; that is, 
we are not going to take over. We want to be there as a partner 
from day one, not wait for people to become overwhelmed before 
we step in.
    But I was a local first responder also. I ran the Miami-
Dade Fire Department, and I would not want somebody to come in 
and take over my disaster, but I would want somebody by my 
side, and that is the tact we are going to take. We are not 
going to take over, that disaster belongs to that state, 
belongs to that local community. We just want to make sure they 
have the tools and the supplies to do the job.
    Mr. Davis of Tennessee. You used the word, ``overwhelmed,'' 
and it appears to me that we are really in a partnership, the 
federal government and state and local governments, coming 
together, working alongside, closer to the people. Local 
government, state government really take the lead and then FEMA 
comes in and follows up.
    With that in mind, though, there are people around the 
country that watch national TV and they just feel like the 
federal government should take control and be there quicker. I 
am not sure that I agree with that, but what would you say to 
the people around the country that have that sense that we 
should react quicker at a federal level?
    Mr. Paulison. I think we should act quicker than we have in 
the past but not to take over. If the state or local community 
does need something, like communications equipment, food, 
water, blue tarps, all those types of things that FEMA 
supplies, they should be there when they need them, not have to 
wait 3 or 4 days for us to ship them across the country.
    So we are going to move faster with things that we think 
they do need, but we are not going to step on their toes, we 
are not going to take over these disaster scenes.
    Mr. Davis of Tennessee. I know that I have been a state 
legislator myself, and I understand that at the local level we 
are closer to the people, typically, than we are in the 
Washington level. Do you believe you even have the 
constitutional authority to take control or do you still 
believe that is down there at the local and state level?
    Mr. Paulison. In a catastrophic event, the president would 
have legal authority to take over, invoking Insurrection Act or 
something like that. However, in a normal disaster, we are not 
going to do that. That is not what we have the authority to do. 
That is the local response or a state's rights out there.
    Again, we want to be a partner. This is not an adversarial 
at all. We want to be there with them as soon as we can, 
standing by their side, ``What do you need, how can we help, 
what can we give you,'' and that is the way we want to operate. 
That is the philosophy this organization is going to operate 
under as long as I am in charge.
    Mr. Davis of Tennessee. Thank you for your partnership, and 
I can tell you, being from the mountains of east Tennessee, 
there are times that we have floods coming out of the mountains 
with rivers and streams and FEMA has always been very 
responsive. This is my first term but I hear very good things 
that you have been able to do in the past, and thank you for 
working with us on the local and state level.
    And with that, I yield back.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from New York, Ms. Lowey, 
for 5 minutes.
    Mrs. Lowey. And I thank you, Mr. Chairman, and what a 
delight it is for me to welcome Administrator Paulison.
    I must tell you that we had a severe nor'easter and the 
subsequent flooding devastated many communities, particularly 
in Westchester County, which is my community, and Administrator 
Paulison joined Senator Clinton and me on a tour of the flooded 
areas and FEMA quickly had preliminary damage assessment teams 
on the ground, which led to the president issuing a disaster 
declaration in a timely manner. I cannot be more effusive. You 
were extraordinary, you responded immediately, and I visited 
every disaster preparedness center, recovery center, I guess we 
call it now in the district, and the response has really been 
fantastic.
    You set up seven disaster recovery centers, nearly 6,000 
households and businesses have registered for assistance, $7.25 
million in housing assistance grants have been approved for 
over 3,000 households. The Small Business Administration has 
approved 41 loans for a total of $2.24 million, and the 
majority of those I have spoken with have really been pleased.
    So congratulations, and we thank you for your very 
efficient, effective and compassionate response.
    On another issue, I wanted to ask you about the Stafford 
Act, which limits grants for housing repair to primary 
residences, and I certainly understand the intent to not 
provide assistance for an individual to repair a second home or 
vacation house.
    This limitation, we have found, can have a negative impact 
on landlords who are trying to make repairs so their renters 
can return home, and affordable housing is very scarce in my 
district, and after the recent flooding you and I saw many 
cases in which landlords are denied assistance to repair their 
rental units, because these are not the owners' primary 
residences.
    The landlords must secure a Small Business Administration 
or private loan in order to repair their property, and in some 
cases, landlords have simply said that it isn't financially 
viable to take a loan to fix property that is rented by low or 
moderate income individuals.
    So this exacerbates the affordable housing problems and 
really has had a major effect on renters who must find a new 
place to live.
    So in order to solve this problem, which also remains in 
New Orleans after Hurricane Katrina, I am working on 
legislation to allow FEMA to provide direct assistance to 
landlords of low to moderate income housing. It would also give 
FEMA the flexibility to set appropriate conditions to ensure 
that funding is directed to areas where it will be most 
beneficial.
    I would appreciate it if you could share with me your 
thoughts and whether you could support a change to the Stafford 
Act to assist landlords who rent to low or moderate income 
tenants.
    Mr. Paulison. The issue that you saw is why we really 
encourage people to have flood insurance and insurance on their 
dwellings, because no matter where you are the potential for 
flood is always there across this country.
    We would sit down and work with you on the issues. 
Obviously, I can't commit the administration position on the 
legislation, but I would like to look at it and have an 
opportunity to comment on it.
    Mrs. Lowey. I thank you very much.
    And it is also my understanding that when seeking federal 
assistance for personal property losses, an applicant must 
first file for a Small Business Association loan and if denied, 
FEMA may offer the applicant a grant.
    Why does an individual--oh, I see my red light, I will talk 
quickly--why must an individual first apply to the SBA for a 
loan when attempting to secure a FEMA grant for personal 
property damage?
    Mr. Paulison. I am not sure that is totally accurate. When 
they apply for individual assistance, if they get turned down 
by FEMA, then they can apply for SBA loan, but I think it is 
the other way around. Let me have my staff sit down with you 
and go over that individual--that is one of the things we are 
actually going to look at this next year.
    Okay. There is one called, ``other needs assistance,'' and 
that part is correct, but we are going to look very carefully 
at the individual assistance piece this next year, because it 
doesn't move as quickly as want it to, it doesn't move as 
smoothly as we want it to, and see how we can streamline that 
and make it much more user friendly. And then next year we will 
do public assistance.
    Mrs. Lowey. Thank you very much.
    And thank you for indulging.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from Florida, Ms. Brown-
Waite, for 5 minutes.
    Ms. Brown-Waite. Thank you, Mr. Chairman.
    And I want to also thank Mr. Shays for relinquishing his 
time to me, because I have to be in the Veterans' Affairs 
Committee.
    I just wanted to thank you, Mr. Paulison, for proving that 
you are taking emergency management seriously. When we had the 
tornadoes touch down in central Florida, we got absolute great 
response from FEMA. We were able to have your people and SBA on 
the ground helping people, and that is what I think that they 
expect from government. So let me just commend you very much 
for rapid response.
    Probably coming from Florida, you have just had a lot of 
experience in the Miami-Dade area, and, certainly, in Florida, 
we have a great state system that I am proud to say I helped 
put together after Hurricane Andrew. When I was got elected it 
was right after Hurricane Andrew, and we knew that we needed 
some changes in Florida and made those necessary changes.
    One thing that has concerned local elected officials in my 
area is that FEMA will not reimburse in a gated community for--
they will not reimburse the locality for out front of the house 
pickup of debris, and why some may think that gated community 
are just for the wealthy, I can assure you that I have low and 
moderate income mobile home gate communities also.
    I would like to ask you if the agency is considering any 
changes in that prohibition?
    Mr. Paulison. I need to check with my staff, but I think we 
have corrected that where we do do some of those things and the 
reimburse the communities for that type of pickup. I live in a 
gated community too, but let me follow up and make sure. I 
think we have put stuff in place to deal with some of these 
issues. But let me find out for sure. I don't want to give you 
a bad answer here.
    Ms. Brown-Waite. I do believe that what you do is, they 
have to haul it out to the front of the gated community, and it 
will be taken away from there. But for many elderly homeowners, 
that is a problem. And if people are in a gated community, I 
just don't see why we should be discriminating against them, 
either because they are at the wealthy end of the spectrum, 
living in a gated community, or at the very poor end of the 
spectrum, living in a secure senior mobile home park. And I 
would just ask you to take a look at that policy.
    Mr. Paulison. I know we dealt with this during Katrina in 
New Orleans and some other areas, and we worked around it by 
getting a right of entry to do some of those things. But let me 
give you the right answer, and I will get back with your staff 
and brief them on what those issues are. And if it is still not 
where you need it to be, we will work on it some more.
    Ms. Brown-Waite. I appreciate that.
    Certainly, at a time of an emergency, such as we regularly 
have in Florida and other coastal states, tell me how you 
coordinate with the National Guard. I know that the issue of 
the National Guard has been brought up recently. I wrote to the 
state National Guard general asking where Florida is, because 
that is of course my concern and Mr. Bilirakis's concern.
    Tell me how you coordinate with the National Guard.
    [Audience interruption.]
    Ms. Brown-Waite. Excuse me, ma'am, I didn't ask you. I 
asked Mr. Paulison.
    Chairman Thompson. Excuse me. According to our House rules, 
you are out of order, and you are not allowed to speak. I have 
admonished the audience a couple of times about that. And we 
are trying to be tolerant, but understand we do have rules of 
the committee, and unless you follow those rules, we will have 
you removed.
    Continue, Ms. Brown-Waite.
    Mr. Paulison. The National Guards are a state asset, and we 
work very closely with them when we get on the scene. In 
Greensburg, the adjunct general of the National Guard was the 
incident commander and we immediately made contact with him to 
make sure that we were coordinating the response.
    I know the issue is, as we heard just behind me, about the 
National Guard's asset being overseas, but we do have a system 
in this country called, EMAC, the Emergency Management 
Assistance Compact, where we move assets from one state to 
another to assist a particular state that is going through a 
disaster, and we do that with the National Guard asset also.
    But we work very closely with the Guard. They are a key 
player in our response system, and we have a very good 
partnership with them.
    Ms. Brown-Waite. One other question: When localities 
contract with various clean-up companies, they very often will 
contract with two or three in case one is not available, which 
I think is a very wise thing to do. But during the tornado that 
struck down, it really was a feeding frenzy of, ``Well, I have 
got the contract, no I have got the contract,'' and I am not 
certain I want the federal government to enter in there but 
perhaps to advise the localities of one has to be the primary, 
one has to be the secondary. Because in this instance, both of 
these companies thought that they were the primary. And I am 
sure you have found this in other locations.
    After you respond to that, I will yield back the balance of 
my time, but please do respond.
    Mr. Paulison. Yes, I actually have seen that on occasion 
when there are several contractors, but that really is a local 
issue, and I think you are right, you don't want the federal 
government stepping into that. We do encourage the communities 
to have those debris contracts in place. We have the Army Corps 
of Engineers that can sometimes come in and referee those types 
of things, but that is up to the local community to say, 
``Okay, you are the prime, you are the backup.'' We can advise 
them to do that, but it is really their contract, not ours.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from the Virgin Islands for 
5 minutes, Ms. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And, Mr. Paulison, thank you for your testimony. I am 
encouraged by the progress you are reporting.
    I have a question about mass care, because, as I understand 
it, the ESF-6, the housing, feeding and providing first aid now 
comes under FEMA, but I would like you to explain to me what 
the role of the Red Cross is then in mass care and how that is 
being coordinated.
    Mr. Paulison. The Red Cross is one of our major players in 
that ESF-6 system. We ended up taking it over, because they 
don't have the authority to mission assign other federal 
governments and we do. But they are partners in that, along 
with several other groups, like HHS and others, that fit into 
that ESF-6 position of mass care. And we take the lead in it, 
but they are right there with us as partners.
    And, by the way, I just met with your adjunct general and 
your state emergency manager recently, a few days ago, exactly 
and talked about some of these same issues. And they are doing 
a great job for you down there; they really are.
    Mrs. Christensen. Yes, they are. We are very proud of them 
and looking forward to have the change of command very soon.
    I am also concerned about mitigation, because in my 
experience with FEMA, mitigation played a big role for us in 
the Virgin Islands in being able to prevent the damage with 
recurrent hurricanes. And if I remember correctly, we could 
request about 20 percent additional funding for mitigation. And 
I am hearing that that is no longer the case.
    Could you tell me if there is still a provision for 
mitigation as you repair and recover or is that done?
    Mr. Paulison. No. If a disaster is declared, there is a 
certain portion of the disaster dollars that can be used by the 
state or the local community for mitigation efforts. There is 
also Hazard Mitigation Grant Program out there that can be used 
for public assistance, and I think it is 15 percent of whatever 
the disaster cost is. And that can be used to raise homes or do 
other things to mitigate future damage. But the money is still 
there. It is 15 percent.
    Mrs. Christensen. Okay. I still have a little more time.
    The PFO and FCOs--
    Mr. Paulison. Yes?
    Mrs. Christensen. --do they both report to the secretary?
    Mr. Paulison. No. The FCO reports to me. That is our 
employee. What we are doing with the PFO, the PFO is the 
secretary's representative out there to do the high-level 
coordination with federal agencies. The FCO is the primary 
federal person to manage disasters.
    Mrs. Christensen. But the FCO is the person that I, as the 
health person in the Virgin Islands, would go to to ask for 
whatever assets I needed from the federal government.
    Mr. Paulison. That is correct. You should.
    Mrs. Christensen. I am surprised the question didn't come 
up before, but it just seems to me that we have too many there, 
and when that happens, things fall between the cracks. Has that 
been exercised to see how it works and whether we really need 
those two officials?
    Mr. Paulison. It has. We just had a major exercise just 
this last week, actually, 2 weeks ago, not only to a hurricane 
but tied into a terrorist event where the PFO and the FCO 
worked together. The FCO, which you normally deal with, is the 
person that handles anything to do with the Stafford Act in 
that disaster. That will continue on.
    The PFO is the secretary's representative out there. 
Doesn't have operational control; the FCO has that. The PFO is 
going to help mitigate issues between different federal 
agencies, may feed the information back to the secretary. 
Again, it is his eyes and ears out there on the ground.
    But the FCO is going to be the primary person managing the 
federal assets on the ground, not running the disaster. That is 
either, in your case, the territorial or a state responsibility 
to manage that disaster.
    Mrs. Christensen. Thank you, Mr. Chairman. I yield back.
    Chairman Thompson. Thank you very much.
    We now yield 5 minutes to the gentleman from Connecticut, 
Mr. Shays.
    Mr. Shays. Thank you, Mr. Paulison, for being here. I think 
you have got a very difficult job, and I know you are working 
very hard at it.
    I don't have the same reaction Ms. Lowey has about the 
gratitude from FEMA. You left Connecticut out of the businesses 
and personal assistance, and we could give you literally 
hundreds of examples of damage, 2,400 residential units and so 
on.
    What I am puzzled by is, wouldn't you group the area 
together and--I mean, what does it matter if Greenwich in New 
York are divided if it is the same storm in the region? Isn't 
the whole point of natural disaster to look at the impact on 
the region? Why would you do it next door to the same storm and 
not Connecticut?
    Mr. Paulison. I have my staff looking at Connecticut right 
now, actually. The president did sign off on two counties for 
public assistance. I have not turned down individual assistance 
yet. I have asked the state for more information about 
individual damage.
    We are bringing on a small state and rural advocate into 
FEMA to report directly to me also. The public assistance and 
individual assistance piece for some of the smaller states like 
yours, it doesn't work as smoothly as I want it to. I am just 
trying to be very candid here. Fifty homes in Connecticut is 
much different than 100 or 200 homes in New York or Texas or 
California. And what it does is, the whole idea of the Stafford 
Act is to cover when the state is overwhelmed and can't deal 
with a disaster.
    So it has been very difficult with Connecticut. Your county 
system is not like the other states.
    Mr. Shays. No, we don't have a county system.
    Mr. Paulison. And you don't have a county system.
    Mr. Shays. We have counties only in name, and that is the 
only thing that they represent.
    Mr. Paulison. That is what is making it difficult for us, 
so I sat my staff down just before I came to this area, 
actually not even knowing you would be here, but I want them to 
look at this very carefully as we look at the individual 
assistance piece and the amount of damage. We have an area in 
there that was very low income that has--
    Mr. Shays. Right. I was going to read you some of the 
folks, renters, who didn't have flood insurance--these were 
rivers that hadn't flooded as long as anyone can remember.
    But the same storm that impacted Ms. Lowey's district 
impacted ours, and there is this artificial boundary in New 
York and Connecticut. I would think we would look at the region 
and treat the region, and if that is not possible, and it seems 
to me it is a defect in the law, we should look at us as a 
region. And I appreciate you checking that out, and I look 
forward to having more dialogue with you about that.
    Mr. Paulison. Yes, sir. I will be glad to do that.
    Mr. Shays. Thank you. I know you received correspondence 
from all five congressmen, two senators and the governor as 
well.
    I would like to ask, in regards to Katrina, we all weep for 
different reasons. Everything about it, it was a huge storm, 10 
miles inland, 20 feet of water, and Mississippi. It was a 
biblical storm.
    But there were things that were very troubling to me. One--
I want no comment about this, I will just say it--that the head 
of Homeland Security chose to only go there by Wednesday with 
the president. I would have thought he would have been there 
Monday, Tuesday, whatever. I think his reasoning was he wanted 
to let FEMA be FEMA and stay out of the way.
    But when I helped write the Department of Homeland Security 
legislation with others, we wanted the Department of Homeland 
Security to be added value to FEMA, not to just like say, 
``Here you go, you are the experts, do it.'' We wanted 
everything to be added value.
    Can you tell me what added value you have by having the 
Department of Homeland Security and how the department may 
respond more effectively than it did, not FEMA, per se?
    Mr. Paulison. There is a significant amount of added value 
by us being inside Homeland Security, from my perspective. I 
have assets at my fingertips that we would not have had before. 
I meet every week with the seven operational components of 
Homeland Security, from the Coast Guard, the Border Patrol, 
ICE, all of those, TSA. And those are people that can give me 
assistance when we have a disaster or even in the meantime.
    I don't have to do a mission assignment. All I have to do 
is pick up the phone and call all these people that I know on a 
first name basis and say, ``I need some help or I need this or 
I need that.'' Tremendous assistance.
    Secretary Chertoff has been personally, I mean personally 
involved in helping me rebuild this organization. Tremendous 
amount of support, making sure that I get the assets that I 
need, making sure that I get the support that I need from all 
the other agencies inside the organization. So I feel like that 
there is a significant amount of value added.
    Mr. Shays. Thank you very much.
    Do I have time to make a unanimous consent request now, or 
do you want me to do that later?
    Chairman Thompson. We will take it right now.
    Mr. Shays. Thank you. I would ask unanimous consent to 
include, ``The Mega-Catastrophe: A Call to Action,'' in the 
record. And this is a report produced by the financial services 
roundtable and provides 25 recommendations to the public and 
private sectors for reducing the economic and human impact, as 
well as reducing the cost of rebuilding after mega-catastrophes 
of not only hurricanes, the subject of today's hearings, but 
the earthquakes, floods, pandemics and terrorist attacks. And I 
could do that--*
---------------------------------------------------------------------------
    * See The Financial Services Roundtable, Blue Ribbon commission on 
Mega-Catastophes: A Call to Action, Edward B. Rust, Jr. and Kerry 
Killenger in the Committee's file.
---------------------------------------------------------------------------
    Chairman Thompson. Without objection.
    Mr. Shays. Thank you very much.
    And thank you very much, Mr. Paulison.
    Chairman Thompson. We now recognize the gentleman from 
North Carolina for 5 minutes, Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Administrator, thank you for being here today, and I 
appreciate your comments thus far.
    Let me go back to a situation, you know, hurricane season 
is almost on us, and North Carolina pays a lot of attention to 
hurricanes, as you know. Florida does as well.
    You partially answered this when you spoke to Ms. Lowey 
earlier. We are going to see some major changes to the national 
response plan, as you well know, but as you also know, the NPR 
is meant to provide standardization for incident managers so 
that the federal, state and locals can work effectively 
together. And, certainly, we know that in response to Katrina 
that did not happen. And even though this plan is not ready, it 
also impacts NGOs as well, because when you have a major 
catastrophe, that is an important part of this whole process.
    My question to you, you partially answered but would you go 
into a little bit more detail, in the absence of that being 
completed, number one, when will it be completed, but, number 
two, in the absence of that, do you feel comfortable that we 
are going to be ready, having these pieces in this hurricane 
season, be it natural or manmade?
    Mr. Paulison. Yes, sir. I am comfortable that we have a 
good plan in place. In fact, we are doing gap analysis now in 
North Carolina and other states up and down the Atlantic Coast 
to find out what those issues are that we have to help the 
states fill. And they can recognize themselves sometimes that 
there is a gap that they can fill themselves.
    We have good solid disaster plans in place. The national 
response plan is still there. The new that we are revising is 
not out yet, and I want to get that out in June. But before we 
really get deep into hurricane season?of course, we have had a 
storm already this year, so they are unpredictable when they 
are going to come usually--but I am comfortable that we are 
ready to respond. We are working with the NGOs, the Red Cross 
is going to testify at the next panel, and I am sure they will 
tell you some of the significant things that--
    Mr. Etheridge. Do you think we will have it by June of this 
year?
    Mr. Paulison. It won't be by June 1. I want it out before 
July 1, though, and we are going to work very hard on that. We 
have a good draft outline now, and we are populating that to 
get it filled in. I at least have that base plan done; yes, 
sir.
    Mr. Etheridge. Thank you.
    Let me ask one question on the National Guard, because we 
heard from the Guard in the last meeting this committee held, 
and, as you well know, when Floyd struck North Carolina in 
1999, it was a massive storm. They classified it as a 500-year 
flood plain. I don't know how you do that when no one was here 
to measure it, but be that as it may, we used 6,500 guardsmen 
with equipment, Fort Bragg, Lejeune, our active military were 
there with helicopters and others. We lost a lot of lives, but 
we saved a lot.
    Just recently, our governor, Mike Easley said that we only 
have enough equipment now to handle a category three. You 
alluded to this earlier. Our Guard only has 55 percent of the 
dual use.
    In addition to drawing from other states, here is my 
question, because I think that is critical: How much does FEMA 
have the ability to reach out and get equipment if you really 
need it when it becomes catastrophic like the one we had? And, 
secondly, given the state of the equipment, can you pull that 
resource in in advance and have it ready and staged to work?
    Mr. Paulison. Yes, sir. We do have the ability to pull 
equipment in, not only from other states, but private 
contractors and also the Corps of Engineers who has a 
tremendous amount of equipment.
    Mr. Etheridge. Have you pre-entered into those contracts?
    Mr. Paulison. Yes, sir. We have a lot of contracts in 
place, hundreds of contracts in place and literally hundreds of 
pre-scripted mission assignments with different agencies around 
the country. And we can move some of those things quickly.
    Also, if there is a major storm coming in, and there are 
certain guidelines to follow, but we can do a pre-landfall 
declaration, the president can do that--
    Mr. Etheridge. And get it ready.
    Mr. Paulison. --that would allow us to move. So if we had a 
category four or five storm coming into North Carolina and we 
knew it was going to hit and you had to do evacuations, we can 
help you with all of that, with those dollars, asking the 
president to do a pre-landfall declaration.
    Mr. Etheridge. Good.
    Mr. Paulison. Yes.
    Mr. Etheridge. Good. Thank you, sir.
    In the time I have left--this may be above your pay grade. 
If it is, let me know. I am sure it happened prior to your 
arrival. And if not, I would like to have it in writing.
    I have it from pretty good sources that within the last 
several--well, in the last bit, previously, when hurricanes hit 
Florida, we had to contract out for pre-setting, when people 
were injured, were moved, put in mobile homes, to do the pads 
of water, electrical at a certain price. That was rewritten so 
that less than a handful of contractors in America were 
eligible to bid, which meant that the cost of those pads more 
than doubled.
    If that was not written by FEMA--I want to know if it was 
written by Homeland Security. I would like to have that in 
writing when that was rewritten, who wrote it, and I would like 
to see the documentation on that, if I may. And if that is not 
in your jurisdiction, just let me know where it is and I will 
keep moving up the chain.
    Mr. Paulison. That does belong in FEMA, and the fact is we 
rebid all of those contracts. I don't know about the early 
ones, but a lot of those contracts were done in the aftermath 
of Katrina, and the contracts were not what we wanted them to 
be. We have rebid all of those contracts, and we have a lot 
more contractors because they have to use local contractors to 
do a lot of the work.
    But I will tell you what, I will break that whole thing 
down.
    Mr. Etheridge. Please do.
    Mr. Paulison. Yes, sir.
    Mr. Etheridge. Because my understanding was it was 
rewritten to the point where you had to have so many engineers 
on staff, which meant that you only had one or two big 
contractors take it, then they sub'ed it out to everyone else, 
which drove the cost through the roof for the taxpayers of this 
country.
    Thank you, sir.
    Chairman Thompson. Thank you very much.
    Following along that, can you provide the committee with 
whether or not any no-bid contracts have been awarded for this 
hurricane season in anticipation or have all of them gone 
through the procurement procedure?
    Mr. Paulison. Yes, sir. I will research and give you a 
definitive answer, but I can tell you that there were no no-bid 
contracts that I am aware of. There may be an occasion to do 
those in the middle of a disaster if there is something you 
hadn't thought of, but what we don't want to do is we don't 
want to do no-bid contracts and we don't want to do contracts 
after a disaster happens.
    That is why we are putting these contracts now. In fact, we 
already have them on the shelf. You negotiate much better when 
you have the upper hand as opposed to after a disaster strikes.
    Chairman Thompson. Absolutely. Thank you very much.
    We now yield 5 minutes to the gentleman from Rhode Island, 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And, Director, welcome. Thank you for your testimony today. 
I appreciated having the opportunity to meet with you 
personally a few months back, and I appreciate what you have 
had to say today.
    Let me just turn to my attention to a couple of issues. 
Last year, Congress passed the Katrina Emergency Reform Act, 
which I believe, as do others, will enhance FEMA's ability to 
effectively respond to disasters in a timely manner.
    Now, as part of this comprehensive legislation, I fought to 
create a new and, I believe, much needed position at FEMA, 
which is a disability coordinator. We all know that people with 
disabilities face unique challenges in their everyday lives, 
and they range from ability impairment to communications 
barriers, and they can certainly become substantial obstacles 
in an emergency. We saw this as a result of the attacks on 9-
11, we saw that in Katrina.
    And so I believe it is, therefore, critical that the 
national disability coordinator position be filled immediately, 
and I am extremely concerned that our 2007 hurricane season 
starts less than a month from now from today, and yet this 
crucial position remains vacant still.
    So my question is here: How close are you to filling this 
position? Will the job be filled by June 1? And, finally, how 
will this individual be able to effectively implement a 
national plan for persons with disabilities when the position 
has remained vacant for so long?
    My next question is, earlier this month, FEMA's region one 
held a mock hurricane preparedness exercise in my home state in 
Rhode Island--this may be the one that you were just referring 
to in a previous question and answer with other members. But in 
carrying out this event, FEMA effectively partnered with other 
federal, state and local entities, such as around emergency 
management agency and first responders to test preparedness and 
response to our hurricane.
    The event was highly successful from everything that I 
could see, and I think it is critical that each state, city or 
town have a pre-approved plan that has been thoroughly examined 
before a catastrophic event occurs. Each plan, obviously, has 
to take into account a region's unique assets and 
vulnerabilities and must be properly tested to give the 
government, first responders and citizens an idea of existing 
weaknesses.
    So my question in this area are: Are other FEMA regions 
embarking on similar tests, do you believe these simulations 
should become annual preparedness exercises, and, finally, what 
other initiatives are you undertaking to test preparedness and 
response for the upcoming hurricane season in regions 
throughout the country?
    You can start with the issue of the disability coordinator 
first. Thank you.
    Mr. Paulison. We have interviewed for the disability 
coordinator. I have made a selection. She is ready to come on 
board. She is going through background checks. I suspect that 
we will have her on board within a couple of weeks. And I think 
we made an excellent, excellent selection. She will report 
directly to me, so she will have access to my office to make 
sure that we can get things get done. Actually, we are excited 
about having her on board.
    We learned a lot of lessons during Katrina of things that 
we didn't do right that we should have done with some of our 
people who had had difficulty with access, and she will be a 
tremendous asset to us to help us do a better job.
    Mr. Langevin. Well, I look forward to that announcement and 
hopefully a meeting with this individual.
    Mr. Paulison. As soon as she gets through the process of 
the background checks, we should have her on board. She is 
ready to come, and we are ready to bring her here. We 
interviewed a lot of people and picked out who we think is an 
excellent person.
    The second piece, yes, it was an excellent exercise, and, 
yes, we are doing them with all of our regions, and, yes, I do 
think it should be an annual type of thing to do those 
exercises, test our system and to find out where our gaps are, 
because they are going to be different every year. I am very 
supportive of those types, of having plans in place and 
exercising them.
    Mr. Langevin. What other initiatives do you have coming up?
    Mr. Paulison. We are doing catastrophic planning also. We 
are picking four areas right now. One is the southeast 
Louisiana for catastrophic planning, two in Florida, one around 
Lake Okeechobee, the Herbert Hoover Dike, working with the 
state to do evacuation planning around there, south Florida, 
category five coming into there. And then the new Madrid fault, 
doing catastrophic planning for that and then also for 
California. We are picking those because they represent pretty 
much everything we are going to have to deal with in putting 
our catastrophic plans in place.
    Mr. Langevin. Well, thank you, Director. I appreciate your 
answers to that and look forward to continuing to work 
together. Thank you for the job you do.
    Mr. Paulison. And I appreciate your support too, by the 
way. Thank you.
    Mr. Langevin. Thank you, Director.
    I yield back the balance of my time.
    Chairman Thompson. Thank you very much.
    We now recognize the gentlelady from Texas, Ms. Jackson 
Lee, for 5 minutes.
    Ms. Jackson Lee. Let me thank the chairman and the ranking 
member.
    Mr. Paulison, thank you for your presence here today.
    I think we can look back over the last couple of years, I 
think we can say a couple of years, and applaud the fact that a 
first responder, firsthand, is in the position that you happen 
to be in, which is the director of FEMA. It makes a difference. 
It is an important first step, I believe, as we have tried to 
rebuild the building blocks.
    And as we have hindsight, we understand that the whole 
challenge of FEMA was vertical. It was a combination of many 
issues, and it really didn't fall to personalities as much as 
it fell a lot to process, particularly, obviously, the angst 
with the secretary of the Homeland Security Department, who 
recognized the enormous frustration but really loss of life.
    And I think that is something that should always be in 
front of us, the fact that the debacle of Katrina really 
focused around the enormity of the loss of life and how we 
could have been better custodians, if you will, better 
protectors of the American people. We must always be protectors 
of the American people.
    My questions will focus in that direction.
    I know you were not here for 9/11, but I simply want, to 
your recollection, a yes or no answer. Your recollection is 
that after 9/11 was FEMA on the ground in New York?

       Prpeared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress from the State of Texas

    Thank you, Mr. Chairman, for convening this extremely important 
hearing. As we near the two year anniversary of one of the most 
devastating hurricanes in our nation's history, I think it is a very 
appropriate time to examine how we have (or have not) adequately 
prepared for further disasters. I would also like to thank the 
committee's Ranking Member, and to welcome our witnesses, the Honorable 
R. David Paulison, Administrator of the Federal Emergency Management 
Agency; William Jenkins, Director of the Homeland Security and Justice 
Issues Division of the U.S. Government Accountability Office; Craig 
Fugate, Director of the Florida Division of Emergency Management; and 
Joe Becker, Senior Vice President of Preparedness and Response, from 
the American Red Cross.
    Hurricane Katrina was among the worst storms in American history. 
Its magnitude was rivaled only by the catastrophic failure of the 
federal government to adequately respond to the resulting suffering in 
a manner befitting our great nation. This year's hurricane season 
officially begins on June 1st, and scientific predictions do not bode 
well. Forecasters anticipate a ``very active'' year for storms along 
the Atlantic coastline, with researchers at Colorado State University 
anticipating 17 named storms, including 9 hurricanes. According to 
these predictions, there is a 74% chance that at least one major 
hurricane will strike the U.S. coastline. Similarly, Accuweather 
forecasts 13--17 total storms in the Atlantic Basin. Of those, 3--5 are 
likely to be major hurricanes of Category 3 of Category 3 or greater.
    Mr. Chairman, this time we have fair warning. We know how 
devastating a hurricane can be, and we know we are likely to see 
another storm of this magnitude. We know that our disaster prevention, 
preparedness, and relief mechanisms and agencies are woefully 
inadequate. Problems involved lack of staff, the inability to track 
assets en route to destinations, lack of sufficient supplies, 
inefficient delivery processes, processes, poor communication amongst 
agencies, ineffective computer systems for processing requests, lack of 
credentialing and more.
    We can no longer use ignorance as an excuse, and we cannot allow 
ourselves to be caught unprepared once again.
    Hurricane Katrina struck some of America's most vulnerable and 
disadvantaged communities, communities which are just now beginning to 
find their feet again after those two devastating storms. Here in 
Congress, we must candidly admit that as a nation, we were derelict in 
our duty to deliver the lifesaving and life-altering assistance to many 
of the Hurricane Katrina victims who literally begged for us to throw 
them a lifeline. We have a responsibility to work to ensure that they 
are not, once again, left to face nature's wrath alone.
    Hurricane Katrina was responsible for $81.2 billion in damage, as 
well as for the deaths of 1,836 people. Criticism of the federal, 
state, and local governments' reaction to the storm was widespread and 
resulted in an investigation by the United States Congress and the 
resignation of FEMA Director Michael Brown. We now have an opportunity 
to do our utmost to ensure that when this year's hurricane season 
arrives, and when the next big storm lands on America's coastline, we 
have done our utmost to ensure adequate protection and response.
    Last month, FEMA and the Department of Homeland Security informed 
us that they required additional time to revise the National Response 
Plan, which is designed to integrate federal domestic prevention, 
preparedness, response, and recovery plans. Due to the complexity of 
the issues involved, they will not meet the June 1st deadline, and the 
plan will not be available for the start of hurricane season. We in 
Congress have not yet seen a revised timetable for when this plan will 
be ready, and I am concerned about FEMA's ability to respond to any 
disasters that may occur in the meantime.
    Mr. Chairman, the Federal Government's response to Hurricane 
Katrina was a disaster. This absolutely must not be allowed to happen 
again. FEMA's logistical systems, charged with providing food, water, 
and other absolutely crucial supplies, were completely overwhelmed. 
Long term rebuilding efforts have been plagued with additional 
weaknesses, with residents still, nearly two years later, facing an 
acute shortage of affordable housing. FEMA has decided to implement a 
policy that transfers its housing program to the Department of Housing 
and Urban Development (HUD). I look forward to learning more about this 
new program in this hearing.
    Disaster response preparedness also means ensuring that the 
citizens of this country can rely on the emergency assistance of the 
National Guard. As we saw just recently in the aftermath of the Kansas 
tornado, the citizens of this country were deprived of much needed 
emergency assistance because much of the Guard's pertinent personnel 
and emergency equipment was not readily available, but was in Iraq and 
Afghanistan. According to Lt. Gen. Steven Blum, Chief of the National 
Guard Bureau, deployments in Iraq and Afghanistan have left state 
governors with roughly half of the equipment needed to respond to 
disasters within the United States.
    Mr. Chairman, as Members of Congress we have an obligation to 
inquire how the wars in Iraq and Afghanistan may impact the nation's 
ability to respond to a major hurricane or terrorist attack. That is 
why I have proposed an amendment to the Defense Authorization Bill that 
requires the Secretary of Defense to study and report back to Congress 
the impact that the deployment of more than 40% of a state's National 
Guard personnel for overseas duties has on that state's readiness and 
responsiveness to a natural disaster, or civil disturbance.
    We also have an obligation to provide the American people with a 
disaster response system that works. I have been a strong advocate of 
creating a contracting system that awards contracts to local companies 
when possible and always to those who can get the job done. By 
involving members of the community in the rebuilding process, we would 
substantially increase the prospects for long-term sustainability of 
any reconstruction effort.
    Mr. Chairman, now is the time that we must act. With the onset of 
hurricane season only a few short weeks away, we must ensure that, 
should another storm of Katrina's magnitude make landfall on America's 
coastline, we will not have to witness the atrocious suffering that we 
saw in the summer of 2005. I look forward to hearing the insights 
offered by today's panel of witnesses, and to engaging in constructive 
debate with my colleagues about how best we can secure our nation 
against the 2007 hurricane season.
    Thank you, Mr. Chairman, and I yield back the balance of my time.

    Mr. Paulison. Yes.
    Ms. Jackson Lee. And the reason why I wanted that as a 
backdrop is because it is important to note that FEMA is an 
agency that deals with natural disasters and, tragically, 
manmade disasters. You have to be holistically prepared.
    And so I really want you to--Major General Blum mentioned 
the lack of equipment in states, and you had this line of 
questions. And we are looking at this threshold of 40 percent 
of the National Guard not being available or not being in-
state.
    Would that not have an impact--if 40 percent or more of the 
National Guard were away, would that not have an impact on 
response coordination with FEMA?
    Mr. Paulison. I don't think it would have an impact on the 
coordination with FEMA. I guess, depending on the size of the 
disaster, it may or may not have an impact on the response.
    In Greensburg, Kansas, the lack of resources they said they 
had did not have an impact on that particular response. What 
the adjunct general said, if they had another disaster of that 
same size, they would have trouble responding. And what I 
committed to him was that if they did have another one, that I 
would make sure that we have resources from other states, bring 
the Corps of Engineers in with equipment they needed and also 
access our contracts out there to bring equipment in.
    Ms. Jackson Lee. I think your answer is very accommodating. 
I am not suggesting that you are being forthright, but, 
frankly, I think that we would have problems. And one of the 
issues that I think is important is coordinating with FEMA and 
other emergency entities pre-deployment of National Guard out 
of different states. I don't know if we thought about that.
    So that means that, one, you have an inventory of who has 
gone and what states are gone, because I think my colleagues 
have asked the question, how quickly can you get them there. So 
if the next-door neighbor state or the next-door neighbor to 
the right or the left are down to zero, you have a similar 
problem.
    Let me move forward and comment. I think you made the point 
about lack of equipment and a lot of states have a lack of 
equipment. That has an impact, does it not, yes or no?
    Mr. Paulison. Again, I think that would depend on the size 
of the disaster. Something as catastrophic as Katrina I think 
you have to say it would have an impact if they are not at the 
full speed. We are at war, there is no question about it.
    Ms. Jackson Lee. Clearly, but it has a negative impact if 
you don't have equipment to meet that disaster.
    Let me move on to the question, a particular question that 
you always hear about Houston, Texas. One, this is a solution, 
I guess, that they attempted, but I do want to put on the 
record, out of the $400 million that came through CDBG monies, 
Houston got $60 million in Houston and Harris County. And I 
want to put on the record that obviously that is an outrage.
    I want to move to interoperability. There is $1 billion. We 
understand that this money is going through the states on the 
interoperability.
    My question to you is, how in the world can the average 
cities, major urban cities at risk--and I know this is a 
process--function with dollars going through the states, 
percentages taken off and the question as to whether or not 
cities who need this interoperability, the top 50 cities, can 
get the appropriate amount of dollars through this process?
    Have you all consulted about using a different formula for 
getting dollars to the at-risk cities, like directly to the 
cities?
    Mr. Paulison. I am sorry, I didn't understand the question.
    Ms. Jackson Lee. There is $1 billion in interoperability 
money, which falls under different aspects of the homeland 
security but, clearly, it responds to FEMA's needs. You need 
cities to be able to speak to each other or speak inside the 
city when there is a disaster.
    The formula that is being used is a formula that sends the 
monies to the states. Is it better to send the money directly 
to the at-risk cities? And this is from your professional 
opinion, not from the idea of jurisdiction inside the 
department. Cities are crying out for the at-risk cities to get 
the monies directly.
    Mr. Paulison. And my staff is telling me that by law the 
funding has to go through the states. We want that money to 
flow down where it needs to go, but most of our 
interoperability issues in this country are not equipment per 
se, it is a governance issue of how you act interoperably with 
other units. It can be as simple as exchanging hand-held radios 
with another city alongside of you. We have equipment that we 
can bring in to help with interoperability.
    But the money going through the states, the states 
understand the entirety of the whole state to help with the 
interoperable issue, and we feel that is the right way to go 
right now.
    Ms. Jackson Lee. If I may finish, Mr. Chairman, I just want 
to finish this sentence.
    Director Paulison, the question was really from your 
professional perspective. I do know that the utilization of 
this equipment is how you use it within an area, but the point 
is if a state has the money and it doesn't get directly, fully 
to the impacted area, I can assure you that your job as a first 
responder is going to be that much tougher, and so the local 
jurisdiction should be the first in line. And I do know it is 
law. I am just trying to get your professional position on the 
record.
    I yield back.
    Ms. Sanchez. [Presiding.] The gentlelady's time has 
expired.
    Mr. Perlmutter from Arizona--Colorado, I am sorry, 
Colorado, from the great West.
    Mr. Perlmutter. Director, and I appreciate your answers, do 
you know how many states deployed National Guard units to the 
Gulf Coast during Katrina?
    Mr. Paulison. No, sir, I do not. We could probably track 
that down, but I don't have any off the top of my head how many 
actually responded.
    Mr. Perlmutter. I was just looking at reports that was 
issued today, and there are a couple of things that concern me. 
Looking at page four, it says, ``For us, it is difficult to 
assess the probable results of these initiatives in improving 
response to a major or catastrophic disaster, such as a 
category four or five hurricane.''
    And it goes on and says, ``The National Guard has 
traditionally been an important component of response to major 
disasters. States and governors rely on their National Guard 
personnel and equipment for disaster response. However, as we 
reported in January 2007, the types and quantities of equipment 
the National Guard needs to respond to large-scale disasters 
have not been fully identified because the multiple federal and 
states agencies that would have roles in responding to such 
events have not completed and integrated their plans.''
    So along with what Representative Jackson Lee was saying 
and the woman who stood up in the audience and from comments 
that various adjutant generals have made, I mean, has your 
office, your division looked at the fact that we have a number 
of our National Guards deployed in Iraq and what effect it has 
on being able to respond to a category four or five hurricane 
in the Gulf Coast?
    Mr. Paulison. I don't know that we have looked at that 
particular issue. I would like to find out what report that is 
to know who it came from. But we depend heavily, the states 
depend heavily on our EMAC system, Emergency Management 
Assistance Compact.
    No, I believe you, I just didn't know what the name of the 
report was. I wasn't questioning your word at all, sir.
    Mr. Perlmutter. It is a GAO report.
    Mr. Paulison. Okay. Because I wanted to get it and read it 
myself too.
    But we depend heavily on the Emergency Management 
Assistance Compact between states to share equipment back and 
forth. We have done that for years. The system has worked well. 
It is more robust now than it ever has been. And that is how we 
would respond to these disasters. And we know there is a lot of 
equipment gone, there is no question about it, nobody can argue 
that, but there are still resources in this country to deal 
with disasters.
    Mr. Perlmutter. And I appreciate that. And, clearly, a 
national disaster is going to require a national response. And 
I appreciate the effort that all of you have gone to so that we 
respond to something like Katrina in a much more thoughtful, 
methodical manner, but there is only so many people and 
contractors and national guardsmen and women to go around.
    And this is a debate for probably with the president and 
not you, but if in fact we have something like we had with 
Katrina or Rita or the one that Mr. Etheridge was talking about 
that hit North Carolina, I mean, the bottom line is you don't 
know what the real impact of our deploying National Guard 
troops and the numbers we have to Iraq will be on responding to 
a Katrina.
    Yes or no, or answer it however you like.
    Mr. Paulison. Well, first of all, I am going to work with 
General Blum on the issue and talk about some of those issues 
you just raised and raised in this committee and raised behind 
me.
    But to say what kind of impact any particular thing is 
going to have on a disaster, that would be impossible to 
answer. I can tell you that we do have the ability to move 
equipment around, we do have the ability to move National Guard 
around, and we are going to prepare for whatever storm comes 
our way or whatever it is with what we have, and we are going 
to make the best we can with it.
    Mr. Perlmutter. I guess, a couple just factual questions. I 
would like to know how many National Guard units from across 
the country were deployed to the Gulf Coast for Katrina and how 
long they stayed. And if in fact, as you are doing this process 
and you are preparing for a mega-storm or a mega-emergency, 
what kind of National Guard effort you see as part of your 
plan. Those would be my questions, and if you could help me 
with those later on, I would appreciate it.
    Thanks, Madam Chair.
    Mr. Paulison. I would be happy to do that.
    Mr. Perlmutter. I return the balance of my time.
    Ms. Sanchez. Submit that for the record. That would be 
great.
    We have some votes on the floor, so what I would like to do 
is to try to get Mr. Green and Ms. Clarke in for their 
questions, and then we could dismiss the director. And then we 
will come back from votes and have the second panel.
    So with your concurrence, Mr. Green and Ms. Clarke, instead 
of giving each of you 4 minutes, try to keep it closer to maybe 
3.5, because by the time we finish we still need to get running 
across to take the vote.
    So the next one in line would be Mr. Green of Texas.
    Mr. Green. Thank you, Madam Chair.
    And thank you, Mr. Director, for appearing today.
    The title of this hearing is ``2007 Hurricane Season: Are 
We Prepared?'' So why don't we visit for just a moment with 
reference to this topic, are we prepared.
    With reference to the ability to determine who is in 
charge, are we prepared, and I ask this given the circumstance 
that developed with Katrina and some consternation as to 
whether the federal government was to make the first move or 
whether the state government was to. Are we prepared to deal 
with that?
    Mr. Paulison. Yes, sir. We have a very clear system in 
place. The response is local. The local community and the state 
are in charge. We are not in charge of a natural disaster. Our 
role is to come into a system as best we can to give them the 
tools and supplies they need to do their job.
    We are going to move early, I made that very clear. We may 
move even before the state asks for assistance, but I move with 
what I think they are going to use--
    Mr. Green. Permit me to intercede quickly. Are we 
indicating that the same system that we utilized previously is 
the one that we would have in place now for making this 
determination as to which entity is going to make the call?
    Mr. Paulison. As far as what?
    Mr. Green. The debate last time was whether the governor of 
Louisiana or the president of the United States should have 
done something immediately, if not sooner. Is that same system 
still in place?
    Mr. Paulison. Yes, sir.
    Mr. Green. Okay. If that same system is still in place, how 
will we avoid seeing what we saw on television, persons begging 
for help and nobody showing up? No disrespect to you but that 
is what the country saw, in fact that is what the world saw. 
How do we avoid that is the same system is in place?
    Mr. Paulison. And I meant by the same system is the fact 
that the state is in charge, the local government is in charge 
to respond to disasters. The federal government there is to 
assist them, and that is what we are going to do.
    However, there are several things that we can do that we 
have in place now that we did not have before. One, we can do a 
pre-landfall declaration if there is a major storm coming into 
a vulnerable community where we move assets in before the storm 
comes in. And we are going to do that anyway.
    Mr. Green. Is it your belief that we will not see what we 
saw previously?
    Mr. Paulison. There is no question in my mind whatsoever 
that you are not going to see another Katrina in this country.
    Mr. Green. Next question, quickly, please, if I may. With 
reference to pre-hurricane or pre-disaster relief, do we have 
the vehicles, do we have the gas stations, can we move scores 
of thousands of people along the highways and byways, out of 
harm's way immediately?
    Mr. Paulison. That is why we are working with the states to 
make sure that there are good solid evacuation plans--
    Mr. Green. Can I assume that your answer is, yes? Because 
the reason I say this, sir, is because sometimes when people 
finish I don't know whether they said yes or no. So I have to 
ask.
    Mr. Paulison. Well, I didn't want to say yes or no, because 
I wanted to tell you what we are doing.
    Mr. Green. Well, unfortunately, I have to deal in a world 
of yes or noes right now. Will we move scores of thousands of 
people over the highways and byways to get them out of harm's 
way?
    Mr. Paulison. Yes.
    Mr. Green. Next question: Housing post-disaster, can we 
house scores of thousands of people such that we will not find 
ourselves with people in the streets of life after the 
hurricane has hit? Can we do this?
    Mr. Paulison. Do you mean will there be homeless, will they 
not have a place to stay?
    Mr. Green. Will we have the same circumstances we had in 
Houston, Texas where we had people who were brought in and we 
had to have NGOs trying to find places for people to stay. 
People were sheltered in various and sundry places, but we 
didn't seem to have a plan to accommodate people, and thank God 
Houston was accommodating to the extent that it was. So will we 
avoid that circumstance?
    Mr. Paulison. Yes, sir.
    Mr. Green. And final question is this--this goes beyond 
probably your pay grade, but it does say, are we ready, and I 
consider myself a part of the ``we``--how are we going to?and 
this is rhetorical--going to deal with displaced voters?
    We still have a political question that has not been 
resolved with reference to people who were forced away from 
their homes who could not vote and participate in the political 
process.
    Thank you, Madam Chair. You were gracious with the time.
    Ms. Sanchez. Ms. Clarke?
    Ms. Clarke. Thank you very much, Madam Chair.
    And good afternoon to you, Director Paulison. You know me 
from Brooklyn, New York. I just wanted to ask three questions 
very quickly.
    In 2005, some of the greatest in FEMA involved reaching the 
many individuals who lived in the inner city, in particular in 
the poorer areas. How will your national response plan address 
this issue, one?
    And, two, were a catastrophic disaster to occur in New 
York, it could easily displace many hundreds of thousands, even 
millions, of people, potentially far more than New Orleans.
    Do you feel FEMA is prepared to successfully reach everyone 
necessary in such a larger, more densely populated city? And I 
am not thinking just FEMA unto itself but, of course, an 
incident command structure and everything else that may have 
been put in place.
    And then, finally, among my concerns is the ability of FEMA 
to effectively communicate with victims of a disaster. Not only 
do you need to urgently explain to them what they need to do 
during an emergency, but afterward FEMA must register everyone 
and ensure that they understand where to go and what to do in 
order to navigate a sometimes complicated bureaucracy and 
receive assistance. Nowhere else in the world are there more 
languages spoken than in New York City and in Brooklyn, and 
many residents are not highly proficient in English.
    Have you done anything to ensure that FEMA officials would 
be able to communicate with people from such a broad range of 
dialects, particularly during an emergency when family and 
friends may be separated?
    Mr. Paulison. Okay. If I remember, the first question was 
about being able to reach some of the inner city with 
directions and how. We have contracted with some of the 
predominant black colleges to come up with how do we 
effectively communicate with lower income, sometimes minority 
populations better about personal preparedness, what to do when 
things happen.
    So we are working on that issue, to how do we do that and 
how do we better reach people, how do we get to them and tell 
them what they are supposed to do, where they are supposed to 
go and those types of things.
    Ms. Clarke. Excuse me, Mr. Director. Is that part of your 
national response plan? Like in New York City, there isn't a 
historically black college.
    Mr. Paulison. But the philosophy is going to be the same 
regardless of who does it. I think Texas A&M is one of the 
colleges that is working on some of those issues to come up 
with--and we had a grant actually from Congress to do that.
    The second was that you talked about what happens if we are 
going to have a catastrophic event in New York. Joe Bruno, the 
state emergency manager for New York, has just probably one of 
the most comprehensive disaster plans that I have ever seen. It 
is about 300-and-some-odd pages. In fact, we are using that, 
and he is working with us, to use that for other states around, 
but right now we are doing the hurricane coast.
    They have a great plan in place on how to deal with a 
disaster, and they have looked at a category four or five 
hurricane coming right into Brooklyn. So I am very comfortable 
with what they are going to do and how they are going to move 
people and how they are going to house them. It is, again, very 
comprehensive.
    And the last piece is the communication really has to come 
through the state and local government on where people are 
supposed to go and what they are supposed to do. That should 
come before a disaster happens and also during a disaster. The 
people need to listen very carefully to what their local 
emergency manager is saying. If they are asked to evacuate, 
they should do so quickly. And the individual should have a 
personal plan in place too. If I am in an evacuation air zone, 
where am I going to go if I am told to evacuate, and how am I 
going to get there and where am I going to go.
    Ms. Sanchez. I thank the director.
    I thank you, Ms. Clarke. Your time is expired.
    And if there are any other questions from the members for 
you, we will get it to you in writing. We hope you get us back 
an answer fairly quickly.
    And we stand in recess with votes on the floor to come back 
after votes for the second panel.
    Mr. Paulison. Thank you, Madam Chair.
    [Recess.]
    Chairman Thompson. [Presiding.] If we could, we would like 
to get our panel of witnesses before us. My colleagues will be 
coming there shortly. I appreciate your indulgence for allowing 
us to interrupt so we could take those five votes.
    We would like to reconvene the recessed panel. On our 
second panel, we have three witnesses.
    First witness is Mr. William Jenkins, who is director 
within GAO's Security and Justice Issues Division. And Mr. 
Jenkins has served as a director for 4 years, and has worked on 
a wide variety of issues in his 28 years at GAO.
    Second witness is Mr. Craig Fugate, who is director of the 
Florida Division of Emergency Management. Mr. Fugate has been 
serving as the director for 7 years.
    Our third panelist is Mr. Joe Becker. Mr. Becker is here to 
represent the American Red Cross, and serves as the senior vice 
president of the Preparedness and Response Division.
    Without objection, the witnesses' full statement will be 
inserted in the record. I now ask each witness to summarize his 
statement for 5 minutes, beginning with Mr. Jenkins.

 STATEMENT OF WILLIAM JENKINS, DIRECTOR, HOMELAND SECURITY AND 
   JUSTICE ISSUES DIVISION, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Jenkins. Chairman Thompson and members of the 
committee, I appreciate the opportunity to be here today to 
discuss the important topic of our nation's emergency 
preparedness and response system as we approach the 2007 
hurricane season.
    Well-planned, well-coordinated, and effective disaster 
preparation and response can save lives and mitigate damage 
while helping set the stage for recovery. Preparing for and 
responding effectively to a major disaster, and particularly a 
catastrophic disaster, is a difficult task.
    There is no magic bullet or easy solution for success. It 
takes hard work, attention to details, and effective pre-and 
post-disaster cooperation and coordinated actions among all 
levels of government, nongovernmental organizations, and the 
private sector.
    Individuals can also contribute to success through knowing 
evacuation routes, complying with evacuation orders, and having 
a disaster preparedness plan and supplies.
    FEMA provides assistance in major disasters principally by 
coordinating and deploying a range of resources from a variety 
of government and nongovernmental sources. This requires it to 
develop effective partnerships with a wide range of 
organizations.
    The Post-Katrina Reform Act includes provisions designed to 
strengthen FEMA's organizational capacity to coordinate the 
preparedness for and response to major and catastrophic 
disasters, regardless of cause. Effectively implementing the 
Act's provisions should address many of the recommendations and 
concerns we have had as a result of our work on Katrina.
    Although FEMA has formally completed its reorganization 
under the Act, it enters the 2007 hurricane season as an 
organization in transition, one that is working simultaneously 
to implement the Reform Act's provisions while addressing 
immediate preparedness needs and capabilities.
    FEMA faces a formidable challenge as it works to implement 
the Reform Act's provisions, change its culture from one of 
mostly reactive to more proactive, and quickly build its 
capacity to effectively respond to a major disaster that could 
occur at any time.
    It is important that FEMA's approach, preparedness, and 
response for major disasters is a national system with linked 
capabilities and responsibilities among all levels of 
government and nongovernmental organizations.
    Developing these capabilities must be a cooperative effort 
that integrates and defines for all major participants what 
needs to be done, how it should be done, and how well it should 
be done.
    On the basis of our post-Katrina work, we identified three 
basic areas of focus. One, having clear and clearly understood 
roles and responsibilities. Two, identifying, developing, and 
maintaining needed capabilites. And three, balancing the need 
for quick, flexible action with accountability for the use of 
resources.
    We noted that improvements were particularly needed in the 
areas of situational awareness, emergency communications, 
evacuation, search and rescue, logistics, and mass care and 
shelter. In each of these areas, the lack of clear and clearly 
understood roles and responsibilities contributed to the 
problems that were experienced in the Katrina response.
    FEMA has initiated reviews and actions in these and other 
areas, but their effectiveness has not yet been tested in a 
major disaster. Some targeted improvements, such as a 
completely revamped logistics system, are multiyear efforts. 
Others, such as building mobile communications and registration 
assistance vehicles, have been used already in recent tornado 
and flood events.
    As the principal federal agency now responsible for 
preparedness and response, FEMA has a unique opportunity to 
evaluate how it can most effectively target the grants it will 
now administer to enhance the nation's disaster preparedness 
and response system. This can best be done by viewing the 
grants collectively rather than individually.
    As FEMA and the nation move forward, there are several 
areas that we believe deserve congressional oversight. Each of 
these areas is part of a considerable ongoing effort and 
resource investment by both federal and nonfederal agencies.
    These areas include: One, the development and 
implementation of the National Preparedness System, including 
preparedness for all types of major disasters, natural or man-
made. Two, needed state and local capabilities and the use of 
federal grants in building and sustaining those capabilities.
    Three, regional and multistate planning and preparation. 
Four, the role of preparedness exercises in building and 
maintaining preparedness and response capabilities. And five, 
the transparency of DHS policies and the basis for those 
policies.
    It is important that those affected by DHS and FEMA 
policies have sufficient information to enable them to 
understand the basis for those policies, and for Congress to 
assess how well DHS and FEMA are using the billions of dollars 
of resources that have been entrusted to it.
    We look forward to working constructively with this 
committee, the Congress, FEMA, and DHS in the weeks and months 
to come as efforts continue to build the National Emergency 
Preparedness System that we all want and our nation deserves.
    That concludes my statement, Mr. Chairman. I would be 
pleased to respond to any questions you or other members of the 
subcommittee may have.
    [The statement of Mr. Jenkins follows:]

                Prepared Statement of William O. Jenkins

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to discuss issues associated with the 
Federal Emergency Management Agency's (FEMA) efforts to address the 
shortcomings of the preparation and response to Hurricane Katrina and 
enhance its capabilities for responding to major disasters, including 
hurricanes. The 2007 hurricane season begins in just a few weeks. 
Hurricane Katrina severely tested disaster management at the federal, 
state, and local levels and revealed weaknesses in the basic elements 
of preparing for, responding, to and recovering from any catastrophic 
disaster. The goal of disaster preparedness and response is easy to 
state but difficult to achieve and can be stated as follows:
        To prevent where possible, prepare for, mitigate, and respond 
        to disasters of any size or cause with well-planned, well-
        coordinated, and effective actions that minimize the loss of 
        life and property and set the stage for a quick recovery.
    Achieving this goal for major disasters, and catastrophic disasters 
in particular, is difficult because success requires effective pre- and 
post-disaster coordination and cooperation among different levels of 
government, nongovernmental organizations, and the private sector. 
Individuals can also contribute to success through such things as 
knowing evacuation routes, complying with evacuation orders, and having 
a family and individual disaster preparation plan and supplies.
    As the Comptroller General testified in February 2007 on DHS's 
high-risk status and specifically disaster preparedness and response, 
DHS must overcome continuing challenges, including those related to 
clearly defining leadership roles and responsibilities, developing 
necessary disaster response capabilities, and establishing 
accountability systems to provide effective services while protecting 
against waste, fraud, and abuse.\1\ These issues are enormously complex 
and challenging for all levels of government. It is important to view 
preparedness for and response to major disasters as a national system 
with linked responsibilities and capabilities. This is because 
effective preparedness for and response to major disasters requires the 
coordinated planning and actions of multiple actors from multiple first 
responder disciplines, jurisdictions, and levels of government as well 
as nongovernmental entities. Parochialism must be put aside and 
cooperation must prevail before and after an emergency event. The 
experience of Hurricane Katrina illustrated why it is important to 
tackle these difficult issues.
---------------------------------------------------------------------------
    \1\ GAO, Homeland Security: Management and Programmatic Challenges 
Facing the Department of Homeland Security, GAO-07-452T (Washington, 
D.C.: Feb. 7, 2007).
---------------------------------------------------------------------------
    My testimony today (1) summarizes our key findings on leadership, 
response capabilities, and accountability controls and the efforts made 
by DHS and FEMA in their implementation of the Post-Katrina Reform Act 
\2\ and other recommendations made in the aftermath of Hurricane 
Katrina, and (2) highlights several disaster management issues for 
continued congressional attention. My comments today are based on our 
body of work on disaster and emergency management including more than 
30 reports on the aftermath of Hurricane Katrina, our review of recent 
emergency management reform legislative changes, and materials and 
statements provided by FEMA. We conducted our audit work in accordance 
with generally accepted government auditing standards.
---------------------------------------------------------------------------
    \2\ The Post-Katrina Emergency Management Reform Act of 2006 was 
enacted as Title VI of the Department of Homeland Security 
Appropriations Act, 2007, Pub. L. No. 109-295, 120 Stat. 1355, 1394 
(2006).

Summary
    Our analysis of the preparation for and response to Hurricane 
Katrina showed the need for (1) clearly defined and understood 
leadership roles and responsibilities; (2) development of the necessary 
disaster capabilities; and (3) accountability systems that effectively 
balance the need for fast and flexible response against the need to 
prevent waste, fraud, and abuse.
    A key issue in the response to Hurricane Katrina was the lack of 
clearly understood roles and responsibilities. One aspect of this issue 
that continues to be a subject of discussion is the roles and 
responsibilities of the Federal Coordinating Officer (FCO), who has the 
authority to make mission assignments to federal agencies for response 
and recovery, and the Principal Federal Official (PFO), whose role was 
to provide situational awareness to the Secretary of Homeland Security. 
DHS has designated a FCO for each region that includes states at risks 
of hurricanes and a supporting FCO for each of these states. It has 
also designated a PFO for each of three regions--the Gulf Coast, the 
Northeast Region, and the Mid-Atlantic Region--plus a separate PFO for 
the state of Florida and Texas.
    It is critically important that the authorities, roles, and 
responsibilities of these designated FCOs and PFOs be clear and clearly 
understood by all. There is still some question among state and local 
first responders about the need for both positions and how they will 
work together in disaster response. One potential benefit of naming the 
FCOs and PFOs in advance is that they have an opportunity meet and 
discuss expectations, roles and responsibilities with state, local, and 
nongovernmental officials before an actual disaster, possibly setting 
the groundwork for improved coordination and communication in an actual 
disaster.
    As we have previously reported, developing the ability to prepare 
for, respond to, and recover from major and catastrophic disasters 
requires an overall national preparedness effort that is designed to 
integrate and define what needs to be done, where, and by whom (roles 
and responsibilities); how it should be done; and how well it should be 
done--that is, according to what standards. The principal national 
documents designed to address each of these are, respectively, the 
National Response Plan (NRP), the National Incident Management System 
(NIMS), and the National Preparedness Goal (NPG). The NRP, NIMS and the 
NPG are undergoing extensive review and revision by federal, state, and 
local government officials, tribal authorities, non-governmental and 
private sector officials. This effort is intended to assess the 
effectiveness of the doctrine embodied in these documents, identify 
modifications and improvements, and reissue the documents. The results 
of the review for the NRP, for example, was initially scheduled for 
release in June 2007. However, in April 2007 DHS officials notified 
stakeholders that some important issues were more complex and require 
national-level policy decisions, and stated that additional time than 
was expected was needed to complete a comprehensive draft. DHS noted 
that the underlying operational principles of the NRP remain intact and 
that the current document, as revised in May 2006, still applies. FEMA 
officials have told us that the final version of the NPG and its 
corresponding documents are currently receiving final reviews by the 
White House and will be due out shortly. We are concerned, however, 
that if the revisions are not completed prior to the beginning of the 
2007 hurricane season, it is unlikely that the changes resulting from 
these revisions could be effectively implemented for the 2007 hurricane 
season.
    In addition to roles and responsibilities, the nation's experience 
with hurricanes Katrina and Rita reinforced some questions about the 
adequacy of the nation's disaster response capabilities in the context 
of a catastrophic disaster--particularly in the areas of (1) 
situational assessment and awareness, (2) emergency communications, (3) 
evacuations, (4) search and rescue, (5) logistics, and (6) mass care 
and sheltering. Overall, capabilities are built upon the appropriate 
combination of people, skills, processes, and assets. Ensuring that 
needed capabilities are available requires effective planning and 
coordination in conjunction with training and exercises in which the 
capabilities are realistically tested and problems identified and 
subsequently addressed in partnership with other federal, state, and 
local stakeholders. In various meetings with GAO, in congressional 
testimonies, and in some documents FEMA has described a number of 
initiatives to address identified deficiencies in each of these areas 
and progress is being made on these multiyear efforts. However, a 
number of FEMA programs are ongoing and it is too early to evaluate 
their effectiveness. In addition, none of these initiatives appear to 
have been tested on a scale that reasonably simulates the conditions 
and demand they would face following a major or catastrophic disaster. 
Thus, it is difficult to assess the probable results of these 
initiatives in improving response to a major or catastrophic disaster, 
such as a category 4 or 5 hurricane.\3\ Additional information on 
FEMA's efforts can be found in Appendix I.
---------------------------------------------------------------------------
    \3\ Section 602 of the Post-Katrina Reform Act defines 
``catastrophic incident'' as any natural disaster, act of terrorism, or 
other man-made disaster that results in extraordinary levels of 
casualties or damage or disruption severely affecting the population 
(including mass evacuations), infrastructure, environment, economy, 
national morale, or government functions in an area.
---------------------------------------------------------------------------
    The National Guard has traditionally been an important component of 
response to major disasters. States and governors rely on their 
National Guard personnel and equipment for disaster response, and 
National Guard personnel are frequently deployed to disaster areas, 
including those outside their home states. However, as we reported in 
January 2007, the types and quantities of equipment the National Guard 
needs to respond to large-scale disasters have not been fully 
identified because the multiple federal and state agencies that would 
have roles in responding to such events have not completed and 
integrated their plans.
    With regard to balancing speed and flexibility with accountability, 
FEMA has stated it can register up to 200,000 applicants per day for 
individual assistance while including safeguards for preventing 
fraudulent and duplicate applications. The inability to reliably and 
efficiently identify fraudulent and duplicate applications was a major 
problem following Katrina that resulted in millions of dollars in 
improper payments. FEMA has also taken actions to revise its debris 
removal and contracting policies and to increase the use of advanced 
contracting for goods and services. Again, we have no basis to 
determine the effectiveness of these systems as they have yet to be 
tested on a large scale basis.
    As FEMA enters the 2007 hurricane season, it is an organization in 
transition that is working to implement the reorganization mandated by 
the Post-Katrina Reform Act as it moves forward on initiatives to 
implement a comprehensive, risk-based national emergency management 
system as required by the act. In November 2006, the Comptroller 
General wrote to the congressional leadership suggesting that one area 
needing fundamental reform and oversight was preparing for, responding 
to, and rebuilding after catastrophic disasters. Among the topics that 
Congress might consider for oversight are:
        <bullet> the development and implementation of the National 
        Preparedness System, including preparedness for natural 
        disasters, terrorist incidents, and an influenza pandemic;
        <bullet> the assessment of state and local capabilities and the 
        use of federal grants in building and sustaining those 
        capabilities;
        <bullet> regional and multistate planning and preparedness;
        <bullet> the status and use of preparedness exercises; and
        <bullet> DHS policies that affect the transparency of its 
        efforts to improve the nation's preparedness for and response 
        to major and catastrophic disasters.

Background
    Several federal legislative and executive provisions support 
preparation for and response to emergency situations. The Robert T. 
Stafford Disaster Relief and Emergency Assistance Act (the Stafford 
Act) \4\ primarily establishes the programs and processes for the 
federal government to provide major disaster and emergency assistance 
to state, local, and tribal governments, individuals, and qualified 
private nonprofit organizations. FEMA, within DHS, has responsibility 
for administering the provisions of the Stafford Act.
---------------------------------------------------------------------------
    \4\ The Stafford Act is codified as amended at 42 U.S.C. Sec. 5121 
et seq.
---------------------------------------------------------------------------
    Besides using these federal resources, states affected by a 
catastrophic disaster can also turn to other states for assistance in 
obtaining surge capacity--the ability to draw on additional resources, 
such as personnel and equipment, needed to respond to and recover from 
the incident. One way of sharing personnel and equipment across state 
lines is through the use of the Emergency Management Assistance 
Compact, an interstate compact that provides a legal and administrative 
framework for managing such emergency requests. The compact includes 49 
states, the District of Columbia, Puerto Rico, and the U.S. Virgin 
Islands.\5\ We have ongoing work examining how the Emergency Management 
Assistance Compact has been used in disasters and how its effectiveness 
could be enhanced and expect to report by this summer.
---------------------------------------------------------------------------
    \5\ California is currently not a member of EMAC as the state's 
legislation approving its membership in the compact had expired.
---------------------------------------------------------------------------
    As the committee is aware, a number of specific recommendations 
have been made to improve the nation's ability to effectively prepare 
for and respond to catastrophic disasters following the aftermath of 
Hurricane Katrina. Beginning in February 2006, reports by the House 
Select Bipartisan Committee to Investigate the Preparation for and 
Response to Hurricane Katrina,\6\ the Senate Homeland Security and 
Governmental Affairs Committee,\7\ the White House Homeland Security 
Council,\8\ the DHS Inspector General,\9\ and DHS and FEMA \10\ all 
identified a variety of failures and some strengths in the preparations 
for, response to, and initial recovery from Hurricane Katrina. In 
addition to these reviews, a report from the American National 
Standards Institute Homeland Security Standards Panel (ANSI-HSSP) 
contains recommendations aimed at bolstering national preparedness, 
response, and recovery efforts in the event of a natural disaster. A 
key resource identified in the document is the American National 
Standard for Disaster/Emergency Management and Business Continuity 
Programs (ANSI/NFPA 1600), which was developed by the National Fire 
Protection Association (NFPA). The standard defines a common set of 
criteria for preparedness, disaster management, emergency management, 
and business continuity programs.
---------------------------------------------------------------------------
    \6\ House of Representatives, House Select Bipartisan Committee to 
Investigate the Preparation for and Response to Hurricane Katrina. A 
Failure of Initiative: Final Report of the House Select Bipartisan 
Committee to Investigate the Preparation for And Response to Hurricane 
Katrina (Washington, D.C.: Feb. 15, 2006).
    \7\ U.S. Senate Committee on Homeland Security and Governmental 
Affairs. Hurricane Katrina: A Nation Still Unprepared (Washington, 
D.C.: May 2006).
    \8\ White House Homeland Security Council. The Federal Response to 
Hurricane Katrina: Lessons Learned (Washington, D.C.: Feb. 23, 2006).
    \9\ Department of Homeland Security's Office of Inspector General. 
A Performance Review of FEMA's Disaster Management Activities in 
Response to Hurricane Katrina, OIG-06-32 (Washington, D.C.: Mar. 31, 
2006).
    \10\ Federal Emergency Management Agency. DHS/FEMA Initial Response 
Hotwash: Hurricane Katrina in Louisiana, DR-1603-LA (Baton Rouge, 
Louisiana. Feb. 13, 2006).
---------------------------------------------------------------------------
    Hurricane Katrina severely tested disaster management at the 
federal, state, and local levels and revealed weaknesses in the basic 
elements of preparing for, responding to, and recovering from any 
catastrophic disaster. Based on our work done during the aftermath of 
Hurricane Katrina, we previously reported that DHS needs to more 
effectively coordinate disaster preparedness, response, and recovery 
efforts, particularly for catastrophic disasters in which the response 
capabilities of state and local governments are almost immediately 
overwhelmed.\11\ Our analysis showed the need for (1) clearly defined 
and understood leadership roles and responsibilities; (2) the 
development of the necessary disaster capabilities; and (3) 
accountability systems that effectively balance the need for fast and 
flexible response against the need to prevent waste, fraud, and abuse. 
In line with a recommendation we made following Hurricane Andrew, the 
nation's most destructive hurricane until Katrina, we recommended that 
Congress give federal agencies explicit authority to take actions to 
prepare for all types of catastrophic disasters when there is warning. 
We also recommended that DHS
---------------------------------------------------------------------------
    \11\ GAO, Catastrophic Disasters: Enhanced Leadership, 
Capabilities, and Accountability Controls Will Improve the 
Effectiveness of the Nation's Preparedness, Response, and Recovery 
System, GAO-06-618 (Washington, D.C.: Sept. 6, 2006).
---------------------------------------------------------------------------
        1. rigorously retest, train, and exercise its recent 
        clarification of the roles, responsibilities, and lines of 
        authority for all levels of leadership, implementing changes 
        needed to remedy identified coordination problems;
        2. direct that the NRP base plan and its supporting 
        Catastrophic Incident Annex be supported by more robust and 
        detailed operational implementation plans;
        3. provide guidance and direction for federal, state, and local 
        planning, training, and exercises to ensure such activities 
        fully support preparedness, response, and recovery 
        responsibilities at a jurisdictional and regional basis;
        4. take a lead in monitoring federal agencies' efforts to 
        prepare to meet their responsibilities under the NRP and the 
        interim National Preparedness Goal; and
        5. use a risk management approach in deciding whether and how 
        to invest finite resources in specific capabilities for a 
        catastrophic disaster.
    The Post-Katrina Reform Act responded to the findings and 
recommendations in the various reports examining the preparation for 
and response to Hurricane Katrina. While keeping FEMA within DHS, the 
act enhances FEMA's responsibilities and its autonomy within DHS. FEMA 
is to lead and support the nation in a risk-based, comprehensive 
emergency management system of preparedness, protection, response, 
recovery, and mitigation. Under the Act, the FEMA Administrator reports 
directly to the Secretary of DHS; FEMA is now a distinct entity within 
DHS; and the Secretary of DHS can no longer substantially or 
significantly reduce the authorities, responsibilities, or functions of 
FEMA or the capability to perform them unless authorized by subsequent 
legislation. FEMA has absorbed many of the functions of DHS's 
Preparedness Directorate (with some exceptions). The statute 
establishes 10 regional offices with specified responsibilities. The 
statute also establishes a National Integration Center responsible for 
the ongoing management and maintenance of the NIMS and NRP.
    The Post-Katrina Reform Act also included provisions for other 
areas, such as evacuation plans and exercises and addressing the needs 
of individuals with disabilities, In addition, the act includes several 
provisions to strengthen the management and capability of FEMA's 
workforce. For example, the statute called for a strategic human 
capital plan to shape and improve FEMA's workforce, authorized 
recruitment and retention bonuses, and established a Surge Capacity 
Force. Most of the organizational changes became effective as of March 
31, 2007. Others, such as the increase in organizational autonomy for 
FEMA and establishment of the National Integration Center, became 
effective upon enactment of the Post-Katrina Reform Act on October 4, 
2006.

FEMA Reviewing Its Responsibilities, Capabilities as It Implements 
Recommendations and Post-Katrina Reform Act
    After FEMA became part of DHS in March 2003, its responsibilities 
were over time dispersed and redefined. FEMA continues to evolve within 
DHS as it implements the changes required by the Post-Katrina Reform 
Act, whose details are discussed later. Hurricane Katrina severely 
tested disaster management at the federal, state, and local levels and 
revealed weaknesses in the basic elements of preparing for, responding 
to, and recovering from any catastrophic disaster. According to DHS, 
the department completed a thorough assessment of FEMA's internal 
structure to incorporate lessons learned from Hurricane Katrina and 
integrate systematically new and existing assets and responsibilities 
within FEMA.
    As I stated in March 2007 testimony, the effective implementation 
of recent recommendations and the Post-Katrina Reform Act's 
organizational changes and related roles and responsibilities should 
address many of our emergency management observations and 
recommendations. In addition, we previously reported that DHS needs to 
more effectively coordinate disaster preparedness, response, and 
recovery efforts, particularly for catastrophic disasters in which the 
response capabilities of state and local governments are almost 
immediately overwhelmed. Our analysis showed the need for (1) clearly 
defined and understood leadership roles and responsibilities; (2) the 
development of the necessary disaster capabilities; and (3) 
accountability systems that effectively balance the need for fast and 
flexible response against the need to prevent waste, fraud, and abuse.

Leadership Is Critical to Prepare for, Respond to, and Recover from 
Catastrophic Disasters
    In preparing for, responding to, and recovering from any 
catastrophic disaster, the legal authorities, roles and 
responsibilities, and lines of authority at all levels of government 
must be clearly defined, effectively communicated, and well understood 
to facilitate rapid and effective decision making. Hurricane Katrina 
showed the need to improve leadership at all levels of government to 
better respond to a catastrophic disaster. As we have previously 
reported, developing the capabilities needed for catastrophic disasters 
requires an overall national preparedness effort that is designed to 
integrate and define what needs to be done, where, and by whom (roles 
and responsibilities), how it should be done, and how well it should be 
done--that is, according to what standards. The principal national 
documents designed to address each of these are, respectively, the NRP, 
NIMS, and the NPG.
    All three documents are undergoing extensive review and revision by 
federal, state, and local government officials, tribal authorities, 
non-governmental and private sector officials.\12\ For example, the 
review of the NRP is intended to assess the effectiveness of the NRP, 
identify modifications and improvements and reissue the document. This 
review includes all major components of the NRP including the base 
plan, Emergency Support Functions (ESF), annexes such as the 
Catastrophic Incident Annex and Supplement; as well as the role of the 
PFO, FCO, and the Joint Field Office structure. Also during the current 
NRP review period, FEMA has revised the organizational structure of 
Emergency Support Function 6 (ESF-6), Mass Care, Housing, and Human 
Services, and places FEMA as the lead agency for this emergency support 
function. The Red Cross will remain as a supporting agency in the 
responsibilities and activities of ESF-6. According to a February 2007 
letter by the Red Cross, this change will not take place until the NRP 
review process is complete and all changes are approved.
---------------------------------------------------------------------------
    \12\ On May 25, 2006, DHS released changes to the NRP regarding 
leadership issues, such as which situations require secretarial 
leadership; the process for declaring incidents of national 
significance; and the scope of the NRP and its Catastrophic Incident 
Annex. The revised NRP clearly states that the Secretary of Homeland 
Security, who reports directly to the President, is responsible for 
declaring and managing incidents of national significance, including 
catastrophic ones. At the time of Hurricane Katrina, the supplement to 
the catastrophic incident annex, which provides more detail on 
implementing the annex, was still in draft. Subsequent to Hurricane 
Katrina, DHS published the final supplement to the Catastrophic 
Incident Annex, dated August 2006.
---------------------------------------------------------------------------
    The revised NRP and NIMS were originally scheduled for release in 
June 2007. In April 2007, however, DHS officials notified stakeholders 
that some important issues were more complex and require national-level 
policy decisions, and additional time was needed to complete a 
comprehensive draft. DHS noted that the underlying operational 
principles of the NRP remain intact and the current document, as 
revised in May 2006, still applies. FEMA officials have told us that 
the final version of the National Preparedness Goal and its 
corresponding documents like the Target Capabilities List, are 
currently receiving final reviews by the White House and are expected 
to be out shortly.
    A key issue in the response to Hurricane Katrina was the lack of 
clearly understood roles and responsibilities. One that continues to be 
a subject of discussion is the roles and responsibilities of the FCO, 
who has the authority to make mission assignments to federal agencies 
for response and recovery under the Stafford Act, and the PFO, whose 
role was to provide situational awareness to the Secretary of Homeland 
Security. The May 2006 revisions to the NRP made changes designed to 
address this issue. However, as we noted in March 2007, the changes may 
not have fully resolved the leadership issues regarding the roles of 
the PFO and the FCO. While the Secretary of Homeland Security may avoid 
conflicts by appointing a single individual to serve in both positions 
in non-terrorist incidents, confusion may persist if the Secretary of 
Homeland Security does not exercise this discretion to do so. 
Furthermore, this discretion does not exist for terrorist incidents, 
and the revised NRP does not specifically provide a rationale for this 
limitation.
    FEMA has pre-designated five teams of FCOs and PFOs in the Gulf 
Coast and eastern seaboard states at risk of hurricanes. This includes 
FCOs and PFOs for the Gulf Coast Region,\13\ Northeast Region,\14\ and 
the Mid-Atlantic Region,\15\ and separate FCOs and PFOs for the states 
of Florida and Texas. It is critically important that the authorities, 
roles, and responsibilities of these pre-designated FCOs and PFOs be 
clear and clearly understood by all. There is still some question among 
state and local first responders about the need for both positions and 
how they will work together in disaster response. One potential benefit 
of naming the FCOs and PFOs in advance is that they have an opportunity 
meet and discuss expectations, roles and responsibilities with state, 
local, and nongovernmental officials before an actual disaster, 
possibly setting the groundwork for improved coordination and 
communication in an actual disaster.
---------------------------------------------------------------------------
    \13\ Includes Alabama, Mississippi, and Louisiana.
    \14\ Includes New York, New Jersey, New England, Puerto Rico, and 
the U.S. Virgin Islands.
    \15\ Includes Georgia, South Carolina, North Carolina, Virginia, 
District of Columbia, Maryland, Delaware, Pennsylvania, and Rhode 
Island.

Enhanced Capabilities Are Needed to Adequately Prepare for and Respond 
to Major Disasters
    Numerous reports, including those by the House, Senate, and the 
White House, and our own work suggest that the substantial resources 
and capabilities marshaled by state, local, and federal governments and 
nongovernmental organizations were insufficient to meet the immediate 
challenges posed by the unprecedented degree of damage and the number 
of victims caused by Hurricanes Katrina and Rita. Developing the 
ability to prepare for, respond to, and recover from major and 
catastrophic disasters requires an overall national preparedness effort 
that is designed to integrate and define what needs to be done and 
where, how it should be done, and how well it should be done?that is, 
according to what standards. As previously discussed, the principal 
national documents designed to address each of these are, respectively, 
the NRP, NIMS, and the NPG, and each document is undergoing revision.
    Overall, capabilities are built upon the appropriate combination of 
people, skills, processes, and assets. Ensuring that needed 
capabilities are available requires effective planning and coordination 
in conjunction with training and exercises in which the capabilities 
are realistically tested and problems identified and subsequently 
addressed in partnership with other federal, state, and local 
stakeholders. In recent work on FEMA management of day-to-day 
operations, we found that although shifting resources caused by its 
transition to DHS created challenges for FEMA, the agency's management 
of existing resources compounded these problems.\16\ FEMA lacks some of 
the basic management tools that help an agency respond to changing 
circumstances. Most notably, our January 2007 report found that FEMA 
lacks a strategic workforce plan and related human capital strategies--
such as succession planning or a coordinated training effort. Such 
tools are integral to managing resources, as they enable an agency to 
define staffing levels, identify the critical skills needed to achieve 
its mission, and eliminate or mitigate gaps between current and future 
skills and competencies. FEMA officials have said they are beginning to 
address these and other basic organizational management issues. To this 
end, FEMA has commissioned studies of 18 areas, whose final reports and 
recommendations are due later this spring.\17\
---------------------------------------------------------------------------
    \16\ GAO, Budget Issues: FEMA Needs Adequate Data, Plans, and 
Systems to Effectively Manage Resources for Day-to-Day Operations, GAO-
07-139 (Washington, D.C.: Jan. 19, 2007).
    \17\ The areas are (1) individual assistance technical assistance 
contract, (2) contractor management program, (3) facilities; (4) 
payment process for contractors, (5) finance center operations, (6) 
capital planning and investment control, (7) security, (8) human 
resources, (9) logistics, (10) acquisition, (11) disaster emergency 
communications, (12) decision support systems (data resource 
management), (13) disaster workforce, (14) information technology, (15) 
federal coordinating officer cadre, (16) financial systems, (17) budget 
process, and (18) disaster relief fund.
---------------------------------------------------------------------------
    An important element of effective emergency response is the ability 
to identify and deploy where needed a variety of resources from a 
variety of sources--federal, state, local or tribal governments; 
military assets of the National Guard or active military; 
nongovernmental entities; and the private sector. One key method of 
tapping resources in areas not affected by the disaster is the 
Emergency Management Assistance Compact (EMAC). Through EMAC about 
46,000 National Guard and 19,000 civilian responders were deployed to 
areas directly affected by the 2005 Gulf Coast hurricanes. We have 
ongoing work examining how EMAC has been used in disasters and how its 
effectiveness could be enhanced and expect to report by this summer.
    One of the resources accessed through EMAC is the National Guard. 
States and governors rely on their National Guard personnel and 
equipment for disaster response, and National Guard personnel are 
frequently deployed to disaster areas outside their home states. 
However, as we reported in January 2007, the types and quantities of 
equipment the National Guard needs to respond to large-scale disasters 
have not been fully identified because the multiple federal and state 
agencies that would have roles in responding to such events have not 
completed and integrated their plans.\18\ As a liaison between the 
Army, the Air Force, and the states, the National Guard Bureau is well 
positioned to facilitate state planning for National Guard forces. 
However, until the bureau's charter and its civil support regulation 
are revised to define its role in facilitating state planning for 
multistate events, such planning may remain incomplete, and the 
National Guard may not be prepared to respond as effectively and 
efficiently as possible. In addition, questions have arisen about the 
level of resources the National Guard has available for domestic 
emergency response. DOD does not routinely measure the equipment 
readiness of nondeployed National Guard forces for domestic civil 
support missions or report this information to Congress. Thus, although 
the deployment of National Guard units overseas has decreased the 
supply of equipment available to nondeployed National Guard units in 
the U.S., there has been no established, formal method of assessing the 
impact on the Guard's ability to perform its domestic missions. 
Although DOD has begun to collect data on units' preparedness, these 
efforts are not yet fully mature.
---------------------------------------------------------------------------
    \18\ GAO, Reserve Forces: Actions Needed to Identify National Guard 
Domestic Equipment Requirements and Readiness, GAO-07-60 (Washington, 
D.C.: Jan. 26, 2007).
---------------------------------------------------------------------------
    The nation's experience with hurricanes Katrina and Rita reinforces 
some of the questions surrounding the adequacy of capabilities in the 
context of a catastrophic disaster--particularly in the areas of (1) 
situational assessment and awareness, (2) emergency communications, (3) 
evacuations, (4) search and rescue, (5) logistics, and (6) mass care 
and sheltering. According to FEMA, the agency has described a number of 
actions it has taken or has underway to address identified deficiencies 
in each of these areas. Examples include designating national and 
regional situational awareness teams; acquiring and deploying mobile 
satellite communications trucks; developing an electronic system for 
receiving and tracking the status of requests for assistance and 
supplies; acquiring GPS equipment for tracking the location of supplies 
on route to areas of need; and working with the Red Cross and others to 
clarify roles and responsibilities for mass care, housing, and human 
services. However, a number of FEMA programs are ongoing and it is too 
early to evaluate their effectiveness. In addition, none of these 
initiatives appear to have been tested on a scale that reasonably 
simulates the conditions and demand they would face following a major 
or catastrophic disaster. Thus, it is difficult to assess the probable 
results of these initiatives in improving response to a major or 
catastrophic disaster, such as a category 4 or 5 hurricane. The section 
below briefly discusses actions taken or underway to make improvements 
in each of these areas. Additional details can be found in appendix I.
    Situational Awareness. FEMA is developing a concept for rapidly 
deployable interagency incident management teams, at this time called 
National Incident Management Team, to provide a forward federal 
presence on site within 12 hours of notification to facilitate managing 
the national response for catastrophic incidents. These teams will 
support efforts to meet the emergent needs during disasters such as the 
capability to provide initial situational awareness for decision-makers 
and support the initial establishment of a unified command.
    Emergency Communications. Agencies' communications systems during a 
catastrophic disaster must first be operable, with sufficient 
communications to meet everyday internal and emergency communication 
requirements. Once operable, systems should have communications 
interoperability whereby public safety agencies (e.g., police, fire, 
emergency medical services, etc.) and service agencies (e.g., public 
works, transportation, and hospitals) can communicate within and across 
agencies and jurisdictions in real time as needed. DHS officials have 
identified a number of programs and activities they have implemented to 
improve interoperable communications nationally, and FEMA has taken 
action to design, staff, and maintain a rapidly deployable, responsive, 
interoperable, and reliable emergency communications capability, which 
we discuss further in appendix I.
    Logistics. FEMA's inability to effectively manage and track 
requests for and the distribution of water, ice, food, and other 
supplies came under harsh criticism in the wake of Hurricane Katrina. 
Within days, FEMA became overwhelmed and essentially asked the military 
to take over much of the logistics mission.\19\ In the Post-Katrina 
Reform Act, Congress required FEMA to make its logistics system more 
flexible and responsive. FEMA's ongoing improvements to its logistics 
strategy and efforts are designed to initially lean forward and provide 
immediate support to a disaster site mainly through FEMA-owned goods 
and assets, and later on to establish sustained supply chains with the 
private vendors whose resources are needed for ongoing response and 
recovery activities, according to FEMA officials. In addition, we 
recently examined FEMA logistics issues, taking a broad approach, 
identifying five areas necessary for an effective logistics system, 
which are discussed in appendix I. In short, FEMA is taking action to 
transition its logistics program to be more proactive, flexible, and 
responsive. While these and other initiatives hold promise for 
improving FEMA's logistics capabilities, it will be several years 
before they are fully implemented and operational.
---------------------------------------------------------------------------
    \19\ GAO, Hurricane Katrina: Better Plans and Exercises Needed to 
Guide the Military's Response to Catastrophic Natural Disasters. GAO-
06-643 (Washington, D.C.: May 15, 2006).
---------------------------------------------------------------------------
    Mass Care and Shelter. In GAO's work examining the nation's ability 
to evacuate, care for, and shelter disaster victims, we found that FEMA 
needs to identify and assess the capabilities that exist across the 
federal government and outside the federal government. In an April 
testimony, FEMA's Deputy Administrator for Operations said that 
emergency evacuation, shelter and housing is FEMA's most pressing 
priority for planning for recovery from a catastrophic disaster. He 
said that FEMA is undertaking more detailed mass evacuee support 
planning; the Department of Justice and Red Cross are developing 
methods for more quickly identifying and uniting missing family 
members; and FEMA and the Red Cross have developed a web-based data 
system to support shelter management, reporting, and facility 
identification activities.

    Balance Needed between Quick Provision of Assistance and Ensuring 
Accountability to Protect against Waste, Fraud, and Abuse
    Controls and accountability mechanisms help to ensure that 
resources are used appropriately. Nevertheless, during a catastrophic 
disaster, decision makers struggle with the tension between 
implementing controls and accountability mechanisms and the demand for 
rapid response and recovery assistance. On one hand, our work uncovered 
many examples where quick action could not occur due to procedures that 
required extensive, time-consuming processes, delaying the delivery of 
vital supplies and other assistance. On the other hand, we also found 
examples where FEMA's processes assisting disaster victims left the 
federal government vulnerable to fraud and the abuse of expedited 
assistance payments.
    We estimated that through February 2006, FEMA made about $600 
million to $1.4 billion in improper and potentially fraudulent payments 
to applicants who used invalid information to apply for expedited cash 
assistance. DHS and FEMA have reported a number of actions that are to 
be in effect for the 2007 hurricane season so that federal recovery 
programs will have more capacity to rapidly handle a catastrophic 
incident but also provide accountability. Examples include 
significantly increasing the quantity of prepositioned supplies, such 
as food, ice, and water; placing global positioning systems on supply 
trucks to track their location and better manage the delivery of 
supplies; creating an enhanced phone system for victim assistance 
applications that can handle up to 200,000 calls per day; and improving 
computer systems and processes for verifying the eligibility of those 
applying for assistance. Effective implementation of these and other 
planned improvements will be critical to achieving their intended 
outcomes.\20\
---------------------------------------------------------------------------
    \20\ GAO, Hurricanes Katrina and Rita Disaster Relief: Prevention 
Is the Key to Minimizing Fraud, Waste, and Abuse in Recovery Efforts. 
GAO-07-418T. Washington, D.C.: January 29, 2007.
---------------------------------------------------------------------------
    Finally, catastrophic disasters not only require a different 
magnitude of capabilities and resources for effective response, they 
may also require more flexible policies and operating procedures. In a 
catastrophe, streamlining, simplifying, and expediting decision making 
should quickly replace ``business as usual'' and unquestioned adherence 
to long-standing policies and operating procedures used in normal 
situations for providing relief to disaster victims. At the same time, 
controls and accountability mechanisms must be sufficient to provide 
the documentation needed for expense reimbursement and reasonable 
assurance that resources have been used legally and for the purposes 
intended.
    We have recommended that DHS create accountability systems that 
effectively balance the need for fast and flexible response against the 
need to prevent waste, fraud, and abuse. Doing so would enable DHS to 
provide assistance quickly following a catastrophe and keep up with the 
magnitude of needs to confirm the eligibility of victims for disaster 
assistance, or assure that there were provisions in contracts for 
response and recovery services to ensure fair and reasonable prices in 
all cases. We also recommended that DHS provide guidance on advance 
procurement practices and procedures (precontracting) for those federal 
agencies with roles and responsibilities under the NRP. These federal 
agencies could then better manage disaster-related procurement and 
establish an assessment process to monitor agencies' continuous 
planning efforts for their disaster-related procurement needs and the 
maintenance of capabilities. For example, we identified a number of 
emergency response practices in the public and private sectors that 
provide insight into how the federal government can better manage its 
disaster-related procurements. These practices include developing 
knowledge of contractor capabilities and prices, and establishing 
vendor relationships prior to the disaster and establishing a scalable 
operations plan to adjust the level of capacity to match the response 
with the need.\21\
---------------------------------------------------------------------------
    \21\ GAO, Homeland Security: Management and Programmatic Challenges 
Facing the Department of Homeland Security, GAO-07-452T (Washington, 
D.C.: Feb. 7, 2007).
---------------------------------------------------------------------------
    In my March 2007 testimony I noted that recent statutory changes 
have established more controls and accountability mechanisms. For 
example, The Secretary of DHS is required to promulgate regulations 
designed to limit the excessive use of subcontractors and 
subcontracting tiers. The Secretary of DHS is also required to 
promulgate regulations that limit certain noncompetitive contracts to 
150 days, unless exceptional circumstances apply. Oversight funding is 
specified. FEMA may dedicate up to one percent of funding for agency 
mission assignments as oversight funds. The FEMA Administrator must 
develop and maintain internal management controls of FEMA disaster 
assistance programs and develop and implement a training program to 
prevent fraud, waste, and abuse of federal funds in response to or 
recovery from a disaster. Verification measures must be developed to 
identify eligible recipients of disaster relief assistance.

    Several Disaster Management Issues Should Have Continued 
Congressional Attention
    In November 2006, the Comptroller General wrote to the 
congressional leadership suggesting areas for congressional 
oversight.\22\ He suggested that one area needing fundamental reform 
and oversight was preparing for, responding to, recovering from, and 
rebuilding after catastrophic events. Recent events--notably Hurricane 
Katrina and the threat of an influenza pandemic--have illustrated the 
importance of ensuring a strategic and integrated approach to 
catastrophic disaster management. Disaster preparation and response 
that is well planned and coordinated can save lives and mitigate 
damage, and an effectively functioning insurance market can 
substantially reduce the government's exposure to post-catastrophe 
payouts.
---------------------------------------------------------------------------
    \22\ GAO, Suggested Areas for Oversight for the 110th Congress. 
GAO-07-235R (Washington, D.C.: Nov. 17, 2006).
---------------------------------------------------------------------------
    Lessons learned from past national emergencies provide an 
opportunity for Congress to look at actions that could mitigate the 
effects of potential catastrophic events. On January 18, 2007, DHS 
provided Congress a notice of implementation of the Post-Katrina Reform 
Act reorganization requirements and additional organizational changes 
made under the Homeland Security Act of 2002. All of the changes, 
according to DHS, were to become effective on March 31, 2007. As stated 
in our March 2007 testimony, the effective implementation of the Post-
Katrina Reform Act's organizational changes and related roles and 
responsibilities--in addition to those changes already undertaken by 
DHS--should address many of our emergency management observations and 
recommendations.
    The Comptroller General also suggested in November 2006 that 
Congress could also consider how the federal government can work with 
other nations, other levels of government, and nonprofit and private 
sector organizations, such as the Red Cross and private insurers, to 
help ensure the nation is well prepared and recovers effectively. Given 
the billions of dollars dedicated to preparing for, responding to, 
recovering from, and rebuilding after catastrophic disasters, 
congressional oversight is critical.
    A comprehensive and in-depth oversight agenda would require long-
term efforts. Congress might consider starting with several specific 
areas for immediate oversight, such as (1) evaluating development and 
implementation of the National Preparedness System, including 
preparedness for an influenza pandemic, (2) assessing state and local 
capabilities and the use of federal grants in building and sustaining 
those capabilities, (3) examining regional and multistate planning and 
preparation, (4) determining the status of preparedness exercises, and
    (5) examining DHS policies regarding oversight assistance.

    DHS Has Reorganized Pursuant to the Post-Katrina Reform Act
    On January 18, 2007, DHS provided Congress a notice of 
implementation of the Post-Katrina Reform Act reorganization 
requirements and additional organizational changes made under the 
Homeland Security Act of 2002. All of the changes, according to DHS, 
were to become effective on March 31, 2007. According to DHS, the 
department completed a thorough assessment of FEMA's internal structure 
to incorporate lessons learned from Hurricane Katrina and integrate 
systematically new and existing assets and responsibilities within 
FEMA. DHS transferred the following DHS offices and divisions to FEMA:
                <bullet> United States Fire Administration,
                <bullet> Office of Grants and Training,
                <bullet> Chemical Stockpile Emergency Preparedness 
                Division,
                <bullet> Radiological Emergency Preparedness Program,
                <bullet> Office of National Capital Region 
                Coordination, and,
                <bullet> Office of State and Local Government 
                Coordination.
    DHS officials stated that they have established several 
organizational elements, such as a logistics management division, a 
disaster assistance division, and a disaster operations division. In 
addition, FEMA expanded its regional office structure with each region 
in part by establishing a Regional Advisory Council and at least one 
Regional Strike Team. With the recent appointment of the director for 
region III, FEMA officials noted that for the first time in recent 
memory there will be no acting regional directors and all 10 FEMA 
regional offices will be headed by experienced professionals.
    Further, FEMA will include a new national preparedness directorate 
intended to consolidate FEMA's strategic preparedness assets from 
existing FEMA programs and certain legacy Preparedness Directorate 
programs. The National Preparedness Directorate will contain functions 
related to preparedness doctrine, policy, and contingency planning. It 
also will include the National Integration Center that will maintain 
the NRP and NIMS and ensure that training and exercise activities 
reflect these documents.

    Effective Implementation of the Post-Katrina Reform Act's 
Provisions Should Respond to Many Concerns
    As I have previously stated in my March 2007 testimony, the 
effective implementation of the Post-Katrina Reform Act's 
organizational changes and related roles and responsibilities--in 
addition to those changes already undertaken by DHS--should address 
many of our emergency management observations and recommendations.
    As noted earlier, our analysis in the aftermath of Hurricane 
Katrina showed the need for (1) clearly defined and understood 
leadership roles and responsibilities; (2) the development of the 
necessary disaster capabilities; and (3) accountability systems that 
effectively balance the need for fast and flexible response against the 
need to prevent waste, fraud, and abuse. The statute appears to 
strengthen leadership roles and responsibilities. For example, the 
statute clarifies that the FEMA Administrator is to act as the 
principal emergency management adviser to the President, the Homeland 
Security Council, and the Secretary of DHS and to provide 
recommendations directly to Congress after informing the Secretary of 
DHS. The incident management responsibilities and roles of the National 
Integration Center are now clear. The Secretary of DHS must ensure that 
the NRP provides for a clear chain of command to lead and coordinate 
the federal response to any natural disaster, act of terrorism, or 
other man-made disaster. The law also establishes qualifications that 
appointees must meet. For example, the FEMA Administrator must have a 
demonstrated ability in and knowledge of emergency management and 
homeland security and 5 years of executive leadership and management 
experience.
    Many provisions are designed to enhance preparedness and response. 
For example, the statute requires the President to establish a national 
preparedness goal and national preparedness system. The national 
preparedness system includes a broad range of preparedness activities, 
including utilizing target capabilities and preparedness priorities, 
training and exercises, comprehensive assessment systems, and reporting 
requirements. To illustrate, the FEMA Administrator is to carry out a 
national training program to implement, and a national exercise program 
to test and evaluate the NPG, NIMS, NRP, and other related plans and 
strategies.
    In addition, FEMA is to partner with nonfederal entities to build a 
national emergency management system. States must develop plans that 
include catastrophic incident annexes modeled after the NRP annex in 
order to be eligible for FEMA emergency preparedness grants. The state 
annexes must be developed in consultation with local officials, 
including regional commissions. FEMA regional administrators are to 
foster the development of mutual aid agreements between states. FEMA 
must enter into a memorandum of understanding with certain non-federal 
entities to collaborate on developing standards for deployment 
capabilities, including credentialing of personnel and typing of 
resources. In addition, FEMA must implement several other capabilities, 
such as (1) developing a logistics system providing real-time 
visibility of items at each point throughout the logistics system, (2) 
establishing a prepositioned equipment program, and (3) establishing 
emergency support and response teams.

    The National Preparedness System Is Key to Developing Disaster 
Capabilities
    More immediate congressional attention might focus on evaluating 
the construction and effectiveness of the National Preparedness System, 
which is mandated under the Post-Katrina Reform Act. Under Homeland 
Security Presidential Directive-8, issued in December 2003, DHS was to 
coordinate the development of a national domestic all-hazards 
preparedness goal ``to establish measurable readiness priorities and 
targets that appropriately balance the potential threat and magnitude 
of terrorist attacks and large scale natural or accidental disasters 
with the resources required to prevent, respond to, and recover from 
them.'' The goal was also to include readiness metrics and standards 
for preparedness assessments and strategies and a system for assessing 
the nation's overall preparedness to respond to major events.
    To implement the directive, DHS developed the National Preparedness 
Goal using 15 emergency event scenarios, 12 of which were terrorist 
related, with the remaining 3 addressing a major hurricane, major 
earthquake, and an influenza pandemic. According to DHS's National 
Preparedness Guidance, the planning scenarios are intended to 
illustrate the scope and magnitude of large-scale, catastrophic 
emergency events for which the nation needs to be prepared and to form 
the basis for identifying the capabilities needed to respond to a wide 
range of large scale emergency events. The scenarios focused on the 
consequences that first responders would have to address. Some state 
and local officials and experts have questioned whether the scenarios 
were appropriate inputs for preparedness planning, particularly in 
terms of their plausibility and the emphasis on terrorist scenarios.
    Using the scenarios, and in consultation with federal, state, and 
local emergency response stakeholders, DHS developed a list of over 
1,600 discrete tasks, of which 300 were identified as critical. DHS 
then identified 36 target capabilities to provide guidance to federal, 
state, and local first responders on the capabilities they need to 
develop and maintain. That list has since been refined, and DHS 
released a revised draft list of 37 capabilities in December 2005. 
Because no single jurisdiction or agency would be expected to perform 
every task, possession of a target capability could involve enhancing 
and maintaining local resources, ensuring access to regional and 
federal resources, or some combination of the two. However, DHS is 
still in the process of developing goals, requirements, and metrics for 
these capabilities and the National Preparedness Goal in light of the 
Hurricane Katrina experience.
    Several key components of the National Preparedness System defined 
in the Post-Katrina Reform Act--the NPG, target capabilities and 
preparedness priorities, and comprehensive assessment systems--should 
be closely examined. Prior to Hurricane Katrina, DHS had established 
seven priorities for enhancing national first responder preparedness, 
including, for example, implementing the NRP and NIMS; strengthening 
capabilities in information sharing and collaboration; and 
strengthening capabilities in medical surge and mass prophylaxis. Those 
seven priorities were incorporated into DHS's fiscal year 2006 homeland 
security grant program (HSGP) guidance, which added an eighth priority 
that emphasized emergency operations and catastrophic planning.
    In the fiscal year 2007 HSGP program guidance, DHS set two 
overarching priorities. DHS has focused the bulk of its available grant 
dollars on risk-based investment. In addition, the department has 
prioritized regional coordination and investment strategies that 
institutionalize regional security strategy integration. In addition to 
the two overarching priorities, the guidance also identified several 
others. These include (1) measuring progress in achieving the NPG, (2) 
integrating and synchronizing preparedness programs and activities, (3) 
developing and sustaining a statewide critical infrastructure/key 
resource protection program, (4) enabling information/intelligence 
fusion, (5) enhancing statewide communications interoperability, (6) 
strengthening preventative radiological/nuclear detection capabilities, 
and (7) enhancing catastrophic planning to address nationwide plan 
review results. Under the guidance, all fiscal year 2007 HSGP 
applicants will be required to submit an investment justification that 
provides background information, strategic objectives and priorities 
addressed, their funding/implementation plan, and the impact that each 
proposed investment (project) is anticipated to have.

The Particular Challenge of Preparing for an Influenza Pandemic
    The possibility of an influenza pandemic is a real and significant 
threat to the nation. There is widespread agreement that it is not a 
question of if but when such a pandemic will occur. The issues 
associated with the preparation for and response to a pandemic flu are 
similar to those for any other type of disaster: clear leadership roles 
and responsibilities, authority, and coordination; risk management; 
realistic planning, training, and exercises; assessing and building the 
capacity needed to effectively respond and recover; effective 
information sharing and communication; and accountability for the 
effective use of resources.
    However, a pandemic poses some unique challenges. Hurricanes, 
earthquakes, explosions, or bioterrorist incidents occur within a short 
period of time, perhaps a period of minutes, although such events can 
have long-term effects, as we have seen in the Gulf region following 
Hurricane Katrina. The immediate effects of such disasters are likely 
to affect specific locations or areas within the nation; the immediate 
damage is not nationwide. In contrast, an influenza pandemic is likely 
to continue in waves of 6 to 8 weeks for a number of weeks or months 
and affect wide areas of the nation, perhaps the entire nation. 
Depending upon the severity of the pandemic, the number of deaths could 
be from 200,000 to 2 million. Seasonal influenza in the United States 
results in about 36,000 deaths annually. Successfully addressing the 
pandemic is also likely to require international coordination of 
detection and response.
    The Department of Health and Human Services estimates that during a 
severe pandemic, absenteeism may reach as much as 40 percent in an 
affected community because individuals are ill, caring for family 
members, or fear infection. Such absenteeism could affect our nation's 
economy, as businesses and governments face the challenge of continuing 
to provide essential services with reduced numbers of healthy workers. 
In addition, our nation's ability to respond effectively to hurricanes 
or other major disasters during a pandemic may also be diminished as 
first responders, health care workers, and others are infected or 
otherwise unable to perform their normal duties. Thus, the consequences 
of a pandemic are potentially widespread and effective planning and 
response for such a disaster will require particularly close 
cooperation among all levels of government, the private sector, 
individuals within the United States, as well as international 
cooperation.
    We have engagements under way examining such issues as barriers to 
implementing the Department of Health and Human Services? National 
Pandemic Influenza Plan, the national strategy and framework for 
pandemic influenza, the Department of Defense and Department of 
Agriculture's preparedness efforts and plans, public health and 
hospital preparedness, and U.S. efforts to improve global disease 
surveillance. We expect most of these reports to be issued by late 
summer 2007.
    Knowledge of the Effects of State and Local Efforts to Improve 
Their Capabilities Is Limited
    Possible congressional oversight in the short term also might focus 
on state and local capabilities. As I testified in February on applying 
risk management principles to guide federal investments, over the past 
4 years DHS has provided about $14 billion in federal funding to 
states, localities, and territories through its HSGP grants. 
Remarkably, however, we know little about how states and localities 
finance their efforts in this area, have used their federal funds, and 
are assessing the effectiveness with which they spend those funds.
    Essentially, all levels of government are still struggling to 
define and act on the answers to basic, but hardly simple, questions 
about emergency preparedness and response: What is important (that is, 
what are our priorities)? How do we know what is important (e.g., risk 
assessments, performance standards)? How do we measure, attain, and 
sustain success? On what basis do we make necessary trade-offs, given 
finite resources?
    There are no simple, easy answers to these questions. The data 
available for answering them are incomplete and imperfect. We have 
better information and a better sense of what needs to be done for some 
types of major emergency events than for others. For some natural 
disasters, such as regional wildfires and flooding, there is more 
experience and therefore a better basis on which to assess preparation 
and response efforts and identify gaps that need to be addressed. 
California has experience with earthquakes; Florida, with hurricanes. 
However, no one in the nation has experience with such potential 
catastrophes as a dirty bomb detonated in a major city. Although both 
the AIDS epidemic and SARS provide some related experience, there have 
been no recent pandemics that rapidly spread to thousands of people 
across the nation.
    A new feature in the fiscal year 2006 DHS homeland security grant 
guidance for the Urban Area Security Initiative (UASI) grants was that 
eligible recipients must provide an ?investment justification? with 
their grant application. States were to use this justification to 
outline the implementation approaches for specific investments that 
will be used to achieve the initiatives outlined in their state Program 
and Capability Enhancement Plan. These plans were multiyear global 
program management plans for the entire state homeland security program 
that look beyond federal homeland security grant programs and funding. 
The justifications must justify all funding requested through the DHS 
homeland security grant program. In the guidance DHS noted that it 
would use a peer review process to evaluate grant applications on the 
basis of the effectiveness of a state's plan to address the priorities 
it has outlined and thereby reduce its overall risk.
    For fiscal year 2006, DHS implemented a competitive process to 
evaluate the anticipated effectiveness of proposed homeland security 
investments. For fiscal year 2007, DHS will continue to use the risk 
and effectiveness assessments to inform final funding decisions, 
although changes have been made to make the grant allocation process 
more transparent and more easily understood. DHS officials have said 
that they cannot yet assess how effective the actual investments from 
grant funds are in enhancing preparedness and mitigating risk because 
they do not yet have the metrics to do so.

Regional and Multistate Planning and Preparation Should Be Robust
    Through its grant guidance, DHS has encouraged regional and 
multistate planning and preparation. Planning and assistance have 
largely been focused on single jurisdictions and their immediately 
adjacent neighbors. However, well-documented problems with the 
abilities of first responders from multiple jurisdictions to 
communicate at the site of an incident and the potential for large-
scale natural and terrorist disasters have generated a debate on the 
extent to which first responders should be focusing their planning and 
preparation on a regional and multigovernmental basis.
    As I mentioned earlier, an overarching national priority for the 
National Preparedness Goal is embracing regional approaches to 
building, sustaining, and sharing capabilities at all levels of 
government. All HSGP applications are to reflect regional coordination 
and show an investment strategy that institutionalizes regional 
security strategy integration. However, it is not known to what extent 
regional and multistate planning has progressed and is effective.
    Our limited regional work indicated there are challenges in 
planning. Our early work addressing the Office of National Capital 
Region Coordination (ONCRC) and National Capital Region (NCR) strategic 
planning reported that the ONCRC and the NCR faced interrelated 
challenges in managing federal funds in a way that maximizes the 
increase in first responder capacities and preparedness while 
minimizing inefficiency and unnecessary duplication of 
expenditures.\23\ One of these challenges included a coordinated 
regionwide plan for establishing first responder performance goals, 
needs, and priorities, and assessing the benefits of expenditures in 
enhancing first responder capabilities. In subsequent work on National 
Capital Region strategic planning, we highlighted areas that needed 
strengthening in the Region's planning, specifically improving the 
substance of the strategic plan to guide decision makers.\24\ For 
example, additional information could have been provided regarding the 
type, nature, scope, or timing of planned goals, objectives, and 
initiatives; performance expectations and measures; designation of 
priority initiatives to meet regional risk and needed capabilities; 
lead organizations for initiative implementation; resources and 
investments; and operational commitment.
---------------------------------------------------------------------------
    \23\ GAO, Homeland Security: Management of First Responder Grants 
in the National Capital Region Reflects the Need for Coordinated 
Planning and Performance Goals, GAO-04-433 (Washington, D.C.: May 28, 
2004); Homeland Security: Coordinated Planning and Standards Needed to 
Better Manage First Responder Grants in the National Capital Region, 
GAO-04-904T (Washington, D.C.: June 24, 2004); Homeland Security: 
Effective Regional Coordination Can Enhance Emergency Preparedness, 
GAO-04-1009 (Washington, D.C.: Sept. 15, 2004); Homeland Security: 
Managing First Responder Grants to Enhance Emergency Preparedness in 
the National Capital Region, GAO-05-889T (Washington, D.C.: July 14, 
2005); and Homeland Security: The Status of Strategic Planning in the 
National Capital Region, GAO-06-559T (Washington, D.C.: Mar. 29, 2006).
    \24\ GAO, Homeland Security: Assessment of the National Capital 
Region Strategic Plan, GAO-06-1096T (Washington, D.C.: Sept. 28, 2006).

Exercises Must Be Carefully Planned and Deployed and Capture Lessons 
Learned
    Our work examining the preparation for and response to Hurricane 
Katrina highlighted the importance of realistic exercises to test and 
refine assumptions, capabilities, and operational procedures; build on 
the strengths; and shore up the limitations revealed by objective 
assessments of the exercises. The Post-Katrina Reform Act mandates a 
national exercise program, and training and exercises are also included 
as a component of the National Preparedness System. With almost any 
skill and capability, experience and practice enhance proficiency. For 
first responders, exercises-especially of the type or magnitude of 
events for which there is little actual experience?are essential for 
developing skills and identifying what works well and what needs 
further improvement. Major emergency incidents, particularly 
catastrophic ones, by definition require the coordinated actions of 
personnel from many first responder disciplines and all levels of 
government, nonprofit organizations, and the private sector. It is 
difficult to overemphasize the importance of effective 
interdisciplinary, intergovernmental planning, training, and exercises 
in developing the coordination and skills needed for effective 
response.
    For exercises to be effective in identifying both strengths and 
areas needing attention, it is important that they be realistic, 
designed to test and stress the system, involve all key persons who 
would be involved in responding to an actual event, and be followed by 
honest and realistic assessments that result in action plans that are 
implemented. In addition to relevant first responders, exercise 
participants should include, depending upon the scope and nature of the 
exercise, mayors, governors, and state and local emergency managers who 
would be responsible for such things as determining if and when to 
declare a mandatory evacuation or ask for federal assistance.

DHS Has Provided Limited Transparency for Its Management or Operational 
Decisions
    Congressional oversight in the short term might include DHS's 
policies regarding oversight assistance. The Comptroller General has 
testified that DHS has not been transparent in its efforts to 
strengthen its management areas and mission functions. While much of 
its sensitive work needs to be guarded from improper disclosure, DHS 
has not been receptive toward oversight. Delays in providing Congress 
and us with access to various documents and officials have impeded our 
work.
    We need to be able to independently assure ourselves and Congress 
that DHS has implemented many of our past recommendations or has taken 
other corrective actions to address the challenges we identified. 
However, DHS has not made its management or operational decisions 
transparent enough so that Congress can be sure it is effectively, 
efficiently, and economically using the billions of dollars in funding 
it receives annually, and is providing the levels of security called 
for in numerous legislative requirements and presidential directives.

Concluding Observations
    Since September 11, 2001, the federal government has awarded 
billions of dollars in grants and assistance to state and local 
governments to assist in strengthening emergency management 
capabilities. DHS has developed several key national policy documents, 
including the NRP, NIMS, and the NPG to guide federal, state, and local 
efforts. The aftermath of the 2005 hurricane season resulted in a 
reassessment of the federal role in preparing for and responding to 
catastrophic events. The studies and reports of the past year--by 
Congress, the White House Homeland Security Council, the DHS IG, DHS 
and FEMA, GAO, and others--have provided a number of insights into the 
strengths and limitations of the nation's capacity to respond to 
catastrophic disasters and resulted in a number of recommendations for 
strengthening that capacity. Collectively, these studies and reports 
paint a complex mosaic of the challenges that the nation--federal, 
state, local, and tribal governments; nongovernmental entities; the 
private sector; and individual citizens--faces in preparing for, 
responding to, and recovering from catastrophic disasters. The Post-
Katrina Reform Act directs many organizational, mission, and policy 
changes to respond to these findings and challenges.
    Assessing, developing, attaining, and sustaining needed emergency 
preparedness, response, and recovery capabilities is a difficult task 
that requires sustained leadership, the coordinated efforts of many 
stakeholders from a variety of first responder disciplines, levels of 
government, and nongovernmental entities. There is a no ``silver 
bullet,'' no easy formula. It is also a task that is never done, but 
requires continuing commitment and leadership and trade-offs because 
circumstances change and we will never have the funds to do everything 
we might like to do.
    That concludes my statement, and I would be pleased to respond to 
any questions you and subcommittee members may have.

    Chairman Thompson. Thank you very much.
    We now recognize Mr. Fugate to summarize his statement for 
5 minutes.

   STATEMENT OF CRAIG FUGATE, DIRECTOR, FLORIDA DIVISION OF 
                      EMERGENCY MANAGEMENT

    Mr. Fugate. Thank you, Chairman Thompson, ranking members, 
and distinguished members of the committee for the opportunity 
to testify.
    My name is Craig Fugate, and I serve Governor Crist as his 
director of emergency management, a position I have served for 
two governors, Governor Bush and Governor Crist.
    My experiences go back 25 years, and I have been involved 
in numerous disasters, both as a first responder, as a 
paramedic and firefighter, later as an emergency manager for 
Alachua County, which is home to the University of Florida in 
Gainesville, as well as serving the state as state coordinating 
officer and the governor's authorized representative for the 
2004 hurricane season, 2005, and currently serving Governor 
Crist as the state coordinating officer during the wildfire 
emergency that is occurring in Florida.
    There are several key areas that we would like to present 
for consideration as we talk about getting ready for the 2007 
hurricane season. And the first one is all-hazard. When we talk 
about hurricanes, or we talk about specific disasters, many 
people, in trying to describe all-hazards, look for the common 
elements within the disaster itself.
    I will tell you, Mr. Chairman, there is nothing in common 
with a hurricane and the wildfires. They are entirely different 
creatures. What is all-hazards is the fact that the governor of 
the state of Florida will be the governor in all of those 
disasters.
    It is the team that you build to deal with a variety of 
threats to community space, those known and both unknown, that 
is truly all-hazard. And when you try to define all-hazard by 
talking about disasters, you miss the point. So while we are 
oftentimes concerned about hurricane season, understand what we 
do in Florida isn't just about hurricanes.
    As we are talking about right now, we still have major 
fires going in Florida. We have over five fire management 
grants issued by FEMA. We have emergency management assistance 
compact from other states, from Georgia and South Carolina. 
Blackhawks are flying in support of our Division of Forestry 
and our National Guard fighting these fires.
    And this is not a hurricane, but this is how we do business 
in Florida. It is the all-hazard approach. And that is why we 
have been so insistent that it needs to be the basis as we look 
at the variety of disasters we face in the nation.
    The second one, which is really a concern for my peers in 
other states and local government, is the Emergency Management 
Performance Grant. This is a 50-50 funding program that has 
been authorized by Congress for numerous years, starting back 
with the era of civil defense, that builds capability and 
capacity in our communities to share resources, respond 
effectively, and manage many of those local disasters without 
state or federal assistance, or, in many disasters, only 
require federal reimbursement assistance, because we built 
capacity.
    Again, to look at that is a wise investment for our 
country, to continue building that capacity. Because when you 
look around the nation, I don't know how many fire trucks the 
federal government has, but I can tell you the state of Florida 
doesn't have that many.
    They are at local government. And if we don't build the 
capability to share the unimpacted resources of the nation, we 
leave too many resources off the table when the victims are in 
their time of need, and we need to support that capability-
building.
    But you also have to be able to move those resources from 
state to state, and that brings us to the Emergency Management 
Assistance Compact. It was something the late Governor Chiles 
realized after Hurricane Andrew, that we needed to have a 
better way of bringing assistance from other states, and 
through the Southern governors, developed the Southern 
Governors' Compact.
    Congress thought that was a great idea, endorsed it, issued 
a public law to allow states to enter into that compact, and 
moved it beyond just the Southern states. And now we have the 
Emergency Management Assistance Compact, which all 50 states 
are a member of, as well as several of our territories and 
commonwealths.
    This allowed us in the state of Florida to send over 7,000 
responders to Mississippi in their time of need during 
Hurricane Katrina. Not only was it sending resources or sending 
people, we were actually sending resources--food, water, and 
ice--that we did through our own contracts. As we were prepared 
to serve our citizens in their time of need, we were able to 
provide that assistance to our neighbors in their time of need.
    And finally, the last one I want to get to is one that 
hasn't been discussed very much, and that is the Temporary 
Disaster Housing Program.
    Mr. Chairman, you know as well as I do that housing is an 
issue before a disaster strikes, and oftentimes it exasperates 
the program. The Stafford Act was never designed to heal the 
ills a community has in housing needs before a disaster, and 
yet we try to make that disaster program fit the needs.
    There has been a lot of talk about moving the Temporary 
Housing Program to HUD. I would suggest it again. We need swift 
and effective means to house people in the immediate aftermath 
of a disaster, or we are going to depopulate regions of this 
country, as we saw in Katrina.
    But I think we need to have a better understanding that 
FEMA's role is the emergency, and many of these issues are 
longer-term, far beyond ever anticipated under the Stafford 
Act. There should be a better system that we can use the FEMA 
program to do the immediate housing needs, then realize many of 
these folks will have long-term housing issues.
    And perhaps the more appropriate will be a hybrid between 
FEMA and HUD, where at the end of the emergency, many of these 
people that still have long-term housing issues are then 
transitioned into HUD programs, versus creating a new program 
from scratch in the midst of another hurricane season.
    Thank you, Mr. Chairman.
    [The statement of Mr. Fugate follows:]

             Prepared Statement of William ``Craig'' Fugate

Introduction
    Thank you Chairman Thompson, Ranking Member King, and distinguished 
members of the Committee for allowing me the opportunity testify before 
you on preparedness efforts for the 2007 Hurricane Season. I am Craig 
Fugate, the Director of the Florida Division of Emergency Management. I 
have over 25 years of experience in state and local emergency 
management, serving in various positions including ten years as the 
Emergency Management Director for Alachua County, Florida, Chief of the 
Bureau of Preparedness for the State of Florida, and the appointment to 
my current position in 2001. I continue to serve and have been 
reappointed to my position by Governor Charlie Crist. In my time with 
the State of Florida, I have served as the Governor's authorized 
representative for major disasters such as the 2004 Hurricane season 
including Hurricanes Charlie, Frances, Ivan, and Jeanne and coordinated 
the State Emergency Response Team (SERT)'s response for all Florida 
disasters and for state-to-state mutual aid for Hurricanes Katrina and 
Rita.
    Emergency management is built upon three very basic concepts: 1) 
All-hazards preparedness is the foundation in which readiness is built 
for all disasters regardless of the cause or size; 2) The emergency 
management cycle includes preparedness, response, recovery, and 
mitigation; and 3) All disasters are local. There are several key areas 
that I wish to discuss with you today that need to be addressed in 
order to secure our preparedness for all disasters:
        1. We must maintain an all-hazards approach to emergency 
        management;
        2. Funding for the Emergency Management Performance Grant 
        (EMPG) program should be increased, at least restored to FY 
        2005 levels;
        3. We need federal support of the Emergency Management 
        Assistance Compact (EMAC); and
        4. The FEMA Temporary Disaster Housing Program can be more 
        effective with a transition plan that includes HUD resources.
MAINTAINING THE ALL-HAZARDS APPROACH TO EMERGENCY MANAGEMENT
    All-hazards emergency preparedness is the key building block and 
foundation for emergency management. Natural hazards continue to be the 
pervasive disaster that occurs regularly. In the past several years, 
major disaster declarations were for events including severe storms and 
tornadoes, typhoons, tropical storms, multiple hurricanes, flooding, 
ice storms, snowstorms, and wildfires. Natural disaster preparedness 
must not suffer as a result of homeland security efforts, but rather 
should be viewed as the most frequent opportunity to validate domestic 
preparedness efforts and to also build best practices. We need to start 
looking at the system in terms of hazards preparedness. Furthermore, 
our emergency response system must be built for all-hazards and 
terrorism should be a component of the system. We cannot afford to 
build duplicate systems by hazard or to eliminate programs to support 
the homeland security effort. An all-hazards approach should be viewed 
as building a single team to deal with a large variety of hazards.
    Since I have been with the State of Florida, we have had had 22 
major disaster declarations, five emergency declarations, and 45 fire 
management assistance declarations. While hurricanes are the most 
urgent and prevailing threat we have faced, we do not prepare for 
hurricanes alone. Florida was the first state with anthrax cases in 
2001, the terrorists for 9/11 trained in Florida, we have three 
commercial nuclear power plant sites, host major sporting events 
including Superbowls, and boast three national championships in the 
past two years in college football (2006) and basketball (2006 and 
2007). We have extensive threats for tornadoes, flooding, fires, and 
severe freezing. You will recall the February 2, 2007 tornado that left 
21 people dead and destroyed hundreds of homes with more than $17 
million in federal assistance for victims. Additionally, we have done 
significant influenza pandemic planning for our large special needs 
populations and planning for mass migration incidents from the 
Caribbean.
    While every state may not experience a disaster every single year, 
preparedness is essential. Florida took the lead in ensuring that 
localities were prepared for any disaster when our state legislature 
made changes after Hurricane Andrew that a surcharge is set aside for 
emergency preparedness from every insurance policy written in the 
state. This fund called the Emergency Management Preparedness and 
Assistance Trust Fund, which exists only in Florida, helps us to ensure 
that localities have the necessary means to prepare for disasters and 
citizens do their part too. In addition, we utilize the only all-
hazards funding source, the Emergency Management Performance Grants to 
supplement these funds to build our key preparedness programs.
    Hazards need to be explored in the context of disasters too. A 
disaster is really caused by humans as a result of getting in Mother 
Nature's way. Humans build in harms way, we traditionally build at the 
cheapest costs, and we build power grids that are subject to wind 
damage. When we prepare for terrorism, we harden critical 
infrastructure and look for ways to prevent events. We develop strong 
public health systems and plans to address pandemics. However, 
addressing hazards before a natural disaster means stronger building 
codes, enforcing those codes, heeding warnings ahead of disasters and 
having business and family plans in place when disaster does occur. We 
have to begin looking at the complexities and scale of the consequences 
of hazards.
    The federal government must continue its commitment to ensuring 
national security through all-hazard preparedness. Without adequate 
numbers of state and local personnel to operate the all-hazards 
emergency management system, the infrastructure used to prevent, 
prepare for, respond to, and recover from all disasters will collapse. 
Unfortunately, Hurricanes Katrina and Rita illustrated the need for 
adequate emergency management systems from the ground up. Instead of 
making unbalanced investments towards terrorism preparedness, we must 
maintain an all-hazards approach and shore up the foundation of our 
response system for all disasters regardless of cause.

EMERGENCY MANAGEMENT INFRASTRUCTURE FUNDING
EMPG is the only program for All-Hazards Preparedness
    Natural disasters are certain and often anticipated. Every state 
must be able to plan for disasters as well as build and sustain the 
capability to respond. EMPG is the only source of funding to assist 
state and local governments with planning and preparedness/readiness 
activities associated with natural disasters. At a time when our 
country is continuing long term recovery efforts from one of the 
largest natural disasters in history and making strides to improve the 
nation's emergency preparedness/readiness, we cannot afford to have 
this vital program be just maintained. EMPG is the backbone of the 
nation's all-hazards emergency management system and the only source of 
direct federal funding to state and local governments for emergency 
management capacity building. EMPG is used for personnel, planning, 
training, and exercises at both the state and local levels. EMPG is 
primarily used to support state and local emergency management 
personnel who are responsible for writing plans; conducting training, 
exercises and corrective action; educating the public on disaster 
readiness; and maintaining the nation's emergency response system. EMPG 
is being used to help states create and update plans for receiving and 
distribution plans for emergency supplies such as water, ice, and food 
after a disaster; debris removal plans; and plans for receiving or 
evacuating people--all of these critical issues identified in the 
aftermath of Hurricane Katrina and the following investigations and 
reports.

State and Local Match
    EMPG is the only all-hazards preparedness program within the 
Department of Homeland Security that requires a match at the state and 
local level. The match is evidence of the commitment by state and local 
governments to address the urgent need for all-hazards emergency 
planning to include terrorism. EMPG requires a match of 50 percent from 
state or local governments. According to the National Emergency 
Management Association's (NEMA) 2006 Biennial Report, states were 
continuing to over match the federal government's commitment to 
national security protection through EMPG by $96 million in FY05, which 
is an 80 percent state and 20 percent federal contribution. To bring 
all state and local jurisdictions up to the fifty percent level, $135 
million is needed. This would allow as many as 3,030 additional local 
jurisdictions to become part of the program. To bring non-participating 
jurisdictions into the program at the 50 percent level requires an 
additional $152 million.

EMPG Helps Ensure Personnel for Mutual Aid
    During the 2004 and 2005 hurricane seasons, the interdependencies 
of the nation's emergency management system were demonstrated and one 
of the success stories was the Emergency Management Assistance Compact 
(EMAC). EMAC enabled 48 states, the District of Columbia, the Virgin 
Islands, and Puerto Rico to provide assistance in the form of more than 
2,100 missions of human, military and equipment assets and over 65,000 
civilian and military personnel and equipment assets to support the 
impacted states. The estimated costs of these missions will exceed $829 
million. Of the personnel providing assistance through EMAC, 46,503 
were National Guard personnel and 19,426 were civilians. Many of the 
civilians sent to provide assistance are supported by the EMPG program 
in their state. The nature of the nation's mutual aid system vividly 
shows the need for all states to have appropriate capabilities to 
respond to disasters of all types and sizes. In Florida we used EMPG to 
build self-sustained response teams that are able to respond to 
disasters in our state and in neighboring states when called upon to 
provide assistance. The increased reliance on mutual aid for 
catastrophic disasters means additional resources are needed to 
continue to build and enhance the nation's mutual aid system through 
EMAC.

Appropriate Support Needed to Strengthen Program
    While EMPG received modest increases in 2003 and 2004 after ten 
years of straight-lined funding, the program needs to be adequately 
resourced based on building capacity. The increased flexibility of EMPG 
is offset by funding shortfalls estimated in the NEMA Biennial Report 
in 2006 to be over $287 million for all 50 states. The current total 
need is $487 million. The Post-Katrina FEMA Reform Act authorized EMPG 
at $375 million for FY 2008.
    Clearly, Congress wants to understand what is being built with 
these investments, especially in tight fiscal conditions. The 2006 
Quick Response Survey found that if states were to each receive an 
additional $1 million in EMPG funding for FY 2007, states would use the 
following percentages for each of the following activities: 88 percent 
of states responding would use the funding to support the update plans 
including evacuation, sheltering, emergency operations, catastrophic 
disasters and others; 83 percent would provide more training 
opportunities for state and local emergency preparedness and response; 
88 percent would provide additional preparedness grants to local 
jurisdictions; 69 percent would conduct more state and local exercises; 
and 61 percent would use funding for state and local NIMS compliance. 
(States were able to respond to multiple activities, as each state has 
multiple emergency preparedness priorities.)
    Last year's Nationwide Plan Review Phase 2 Report completed by the 
Department of Homeland Security found that current catastrophic 
planning is unsystematic and not linked within a national planning 
system. The report cites that, ``This is incompatible with 21st century 
homeland security challenges, and reflects a systematic problem: 
outmoded planning processes, products, and tools are primary 
contributors to the inadequacy of catastrophic planning. The results of 
the Review support the need for a fundamental modernization of our 
Nation's planning process. The report goes on to explain that all 
states do not adequately address special needs populations, continuity 
of operations, continuity of government, evacuation plans, and resource 
management. EMPG is the ONLY source of funding that can address these 
significant and immediate needs. The current EMPG shortfall does not 
take into account these findings.

BUILDING OUR NATION'S MUTUAL AID SYSTEM THROUGH EMAC
    The response to Hurricanes Katrina and Rita resulted in the largest 
deployment of interstate mutual aid in the nation's history through the 
Emergency Management Assistance Compact (EMAC). As mentioned 
previously, EMAC deployed personnel comprised of multiple disciplines 
from all member states to respond to Louisiana, Mississippi, Alabama, 
Florida, and Texas. The process enabled National Guard, search and 
rescue teams, incident management teams, emergency operations center 
support, building inspectors, law enforcement personnel, and other 
disciplines to immediately assist the requesting states in need of 
support. The National Guard even chose to continue under EMAC when 
deployed under Title 32 because of the organization, liability 
protections, accountability, and tracking abilities EMAC provides.
    EMAC was created after Hurricane Andrew by then-Florida Governor 
Lawton Chiles. The system was developed through the member states of 
the Southern Governors' Association to establish mechanisms to enable 
mutual aid among member states in emergency situations. The Southern 
Regional Emergency Management Assistance Compact (SREMAC) was signed by 
participating Governors in 1993. Following recognition of SREMACs 
nationwide applicability by the National Governors' Association and 
FEMA, Congress enacted EMAC in 1996 (P.L. 104-321). Currently all 50 
states, the U.S. Virgin Islands, Puerto Rico, and the District of 
Columbia are members of EMAC. EMAC requires member states to have an 
implementation plan and to follow procedures outlined in the EMAC 
Operations Manual. EMAC takes care of issues such as reimbursement, 
liability protections, and workers' compensation issues.
    The following is a synopsis of the historical support that the 
state of Florida provided to Mississippi in the aftermath of Hurricane 
Katrina, the largest support mission in the history of EMAC. The State 
of Florida, acting under provisions of the Emergency Management 
Assistance Compact and a direct request from the Governor of 
Mississippi, deployed a self-contained response team on the day of 
landfall to the impacted coastal area of Mississippi (3 coastal 
counties of Hancock, Harrison, and Jackson; 3 contiguous inland 
counties to the north consisting of Pearl River, Stone, and George). By 
the evening of landfall on August 29, 2005 assets of law enforcement, 
firefighting, search and rescue, medical, Incident Management Teams, 
and others were in the area of operations in coastal Mississippi 
performing lifesaving, safety, and security missions. Major logistical 
assets were sent to the area, as well, to include ice, water, food, 
fuel, and other commodities to support initial response operations. Due 
to the dire situation caused by Hurricane Katrina on the Mississippi 
coast, the mission of the Florida Task Force grew significantly and 
commodities and personnel continued to flow from the State of Florida 
continuously until the end of October 2005 (note: some smaller level 
missions continued with Florida support up until November 2006). The 
Florida Task Force set-up a major command and logistical staging area 
at Stennis Space Base which became the hub of the operation. This 
command communicated with and supported Incident Management Teams from 
Florida which were located in the 6 assigned counties to support the 
local Mississippi Emergency Management Directors. In relation to this 
effort, it must be noted that the State of Florida had itself been 
impacted by Hurricane Katrina (a weaker storm at that time) prior to 
its passage into the Gulf of Mexico. It is a tribute to the entire 
Florida State Emergency Response Team (state and local government, 
private entities, faith based organizations, etc. . .) that they were 
able to effectively rise to the challenge of responding to the South 
Florida impact of Hurricane Katrina while providing significant and 
necessary assistance to our neighbors on the Gulf Coast.

Overview of EMAC Support to the State of Mississippi
<bullet> COMMODITIES: (Purchased and provided by the State of Florida)
        <bullet> Water--768 truckloads--3,648,000 gals.
        <bullet> Ice--457 truckloads--19,194,000 lbs.
        <bullet> Juice--16 trucks--16,000 cases
        <bullet> Shelf Stable Meals--138,000 meals
        <bullet> USDA commodities--6,000 cases
        <bullet> Baby food, formula, etc.--20,892 cases
        <bullet> Baby supplies (nipples, diapers, wipes)--4,962 cases
        <bullet> Adult diapers, wipes--376 cases
        <bullet> Children Liquid Supplement--10,200 cases
        <bullet> Adult Liquid Supplement--5,100 cases
                        <bullet> 1,304 State Trucks of Commodities
                        <bullet> 2,057 Trucks Total of Commodities

<bullet> PERSONNEL and TEAMS:
                6,404 Personnel Total
        <bullet> Three Area Command Teams with 115 personnel to manage 
        entire area of responsibility of six counties
        <bullet> Six Incident Management Teams sent to County Emergency 
        Operation Center's
        <bullet> Three Logistics Management Teams
        <bullet> Urban Search and Rescue Teams
                <bullet> Three Type I Teams
                <bullet> Four Type II Teams
                <bullet> Two Water Rescue Teams
        <bullet> One Law Enforcement Mutual Aid Coordination Team
        <bullet> 767 Law Enforcement Personnel with vehicles and 
        equipment
        <bullet> 207 Fire Fighting Personnel
        <bullet> 70 ALS Ambulances and EMS personnel
        <bullet> 710 Medical Personnel in various disciplines
        <bullet> 30 Elder Care Specialists
        <bullet> 1 School Recovery Team
        <bullet> 1 FDOT Advance Recon Team (10 personnel)
        <bullet> 1 FDOT Bridge Recovery Team (7 personnel)
        <bullet> 14 Public Information Officers
        <bullet> 497 National Guard Personnel (also sent aircraft and 
        equipment)
                <bullet> 3 zodiac boats w/trailers
                <bullet> 3 High Mobility Multipurpose Wheeled Vehicles 
                (HMMWV's)
                <bullet> 2 GSA vans
                <bullet> 2 UH-60 ``Black Hawk'' helicopters
                <bullet> 1CH-47 ``Chinook''
        <bullet> 4 Hazmat Teams (8 personnel)
        <bullet> 14 Volunteer, Donations and Reception Center Personnel
        <bullet> 13 Animal Control Teams (60 personnel)
        <bullet> 1 State Animal Response Team (5 personnel)
        <bullet> 16 Water/Wastewater Facility Teams (101 personnel)
        <bullet> 4 Communications Personnel
        <bullet> 38 Recovery Personnel
    Continued support of EMAC will allow Florida to focus on the 
implementation of lessons learned from Hurricanes Katrina and Rita, 
such as training and education for all mutual aid stakeholders, 
resource typing and credentialing, and information and resource 
management.

ADDRESSING TEMPORARY DISASTER HOUSING PROGRAM CHALLENGES
    Housing is often seriously impacted following natural disasters, 
leaving many families in the impacted areas with no place to call home. 
Disaster housing consists of three phases:
        1. The initial phase focuses on retaining citizens in the 
        affected area and providing interim housing solutions for them.
        2. The next phase focuses on rebuilding local housing 
        resources.
        3. The final phase deals directly with developing long-term 
        redevelopment strategies.
    Providing housing assistance following a disaster can not just be 
based on expiration dates and eviction dates; the focus must be on long 
term housing solutions for the affected area. Disaster case management 
of survivors that deals with the entire scope of housing and human 
needs is necessary throughout all the phase to transition those 
affected from interim situations into longer term solutions. Typically 
in a community where the ability to transition disaster survivors into 
permanent housing is problematic, there is usually an existing housing 
problem before the disaster struck the community.
    A disaster housing partnership between the Federal Emergency 
Management Agency (FEMA) and Housing and Urban Development (HUD) would 
provide a disaster housing solution that is more responsive, flexible 
and would provide a more cost effective long term disaster housing 
solutions. Bringing HUD's financial resources and their subject matter 
expertise regarding building loans, subsidies and land management into 
the fold early on in the disaster housing process, would greatly 
improve an impacted community's ability to recover and develop long-
term housing solutions and strategies. Additionally, HUD is capable of 
providing case management experience for permanent solutions for 
affected citizens that will provide permanent solutions to local 
situations. Case management will result in accountability on all levels 
of disaster housing.

CONCLUSION
    The first goal the State of Florida looks at when preparing for any 
sort of disaster is how we can best serve our citizens. This goes back 
to my previous statement regarding the fact that all disasters are 
local and that all groups involved in responding to disasters must use 
a team approach, regardless of the type of disaster, to prepare for and 
respond to these events. This team approach is imperative when 
addressing the federal role in responding to disasters, it is important 
that the response from the federal level is one of a supporting role 
for state and local emergency management, it cannot supplant these 
efforts.
    Florida is successful and is looked to as a leader due to the fact 
that our leadership has invested in emergency management through the 
creation of the Florida Hurricane Catastrophe Fund and Emergency 
Management Preparedness and Assistance Trust Fund. Additionally, the 
state has worked to develop strong partnerships that will ultimately 
insure the state's success in affecting positive outcomes for those 
impacted when a disaster occurs in our state. This type of investment 
was on display recently when the Florida Legislature, based on Governor 
Crist's budget recommendations, approved an appropriation of $895,000 
in the state's FY 07-08 budget to upgrade Florida's State Warning 
Point. The Florida State Warning Point is a function of the Division of 
Emergency Management and is housed in the Emergency Operations Center. 
The Florida State Warning Point is responsible, through Florida 
Statutes and federal regulations, to be the central clearing house for 
all emergencies occurring in the State that require response by or 
resources from multi-county incidents, multi-State agency incidents or 
any incident requiring County/State/Federal communications and/or 
coordination.
    With the passage of the Post-Katrina FEMA Reform Act, Congress has 
affirmed their support for ensuring preparedness for our nation's 
continuous vulnerability against all-hazards. We must continue to build 
national preparedness efforts with a multi-hazard approach. We 
appreciate Congress' increased attention and focus on disaster 
preparedness, response, recovery, and mitigation efforts. We ask that 
Congress look at ways to immediately influx the system with resources, 
encourage and reward innovation in order to face the challenges of the 
day. We cannot afford to continue to repeat history as we did with 
Hurricane Andrew and Hurricane Katrina. We must, once and for all, 
learn the lessons of the past and resolve ourselves to ensure that 
Federal, State and local governments have adequate funding for baseline 
emergency preparedness so exercises and training can ensure that plans 
and systems are effective before a disaster.
    Again, I appreciate the opportunity to testify before your 
committee today and want to affirm Governor Crist's dedication to 
continually working with our federal partners to improve the nation's 
capabilities to respond to all types of hazards that our communities 
may face on a daily basis.William ``Craig'' Fugate, Director, Florida 
Division of Emergency Management

    Chairman Thompson. Thank you very much.
    We now will recognize Mr. Becker to summarize his statement 
for 5 minutes.

 STATEMENT OF JOE BECKER, SENIOR VICE PRESIDENT, PREPAREDNESS 
     AND RESPONSE, AMERICAN RED CROSS NATIONAL HEADQUARTERS

    Mr. Becker. Good afternoon, Mr. Chairman and members of the 
committee. My name is Joe Becker, and I lead the American Red 
Cross's national disaster relief efforts. Thank you for your 
invitation to speak today.
    I was asked to cover three topics: to review what the Red 
Cross does for victims of disasters and what we don't do, to 
share the steps that we have taken since Katrina, and to 
discuss our changed role in the National Response Plan.
    What we do in times of disaster for people? We shelter, we 
feed, we distribute items that people need, the supplies that 
they would need to get through the immediate next few days. We 
have learned over the years that there are some supplies where 
it is difficult to give the actual item?gas for a car or shoes 
where sizes matter--and we give some financial assistance so 
people can obtain those when their economy recovers.
    We provide mental-health counseling. We provide health 
services with our nurses and shelters. We provide information 
to connect families with lost loved ones, and we work in the 
longer-term recovery to help families plan and find resources--
our resources and others--on their longer-term recovery.
    What we don't do: We don't evacuate cities. That is a state 
and local, particularly local, operation. We don't rescue 
people. That belongs in the first-response community.
    We don't give everybody money who had a loss. We are not a 
bank. We are not an insurance company. And we don't build 
houses. There are others that do that very well.
    You hear of the Red Cross charter to provide a national 
system of disaster relief. That means we don't pick and choose 
which disasters we respond to. We don't think about if it is a 
big enough one, that we will come, or if our people are 
available, or if we have money in the bank. We respond 
regardless, to about 200 events a day, around the country.
    If the event is larger than the very small event, such as a 
multifamily fire, we will be joined by our usual key partners, 
mainly faith-based groups. The Southern Baptists will be there 
to help feed, Catholic Charities will often serve, Salvation 
Army would be there to help feed.
    If an event is much larger, or if there is an event that is 
very visible in the news, we will be joined by many from the 
community, and others who arrive to do good work, mostly faith-
based groups, some businesses and civic groups.
    The challenge is for the local quarterback, the local 
emergency manager, and whatever structure the community has, to 
incorporate their good works into a coordinated response. And 
how that is done varies community by community.
    What did the Red Cross learn from Katrina? I will give you 
a list of key learnings. Briefly, we learned instead of moving 
our supplies in ahead of a storm, it is better for us to expand 
our stockpile and permanently keep them in risk areas. We 
learned where our systems need to be bigger, especially our 
systems to use untrained spontaneous volunteers, and to move 
large numbers of people around the country to help.
    A key learning, we learned where our relationships with 
community groups, particularly faith-based groups, were not as 
strong as needed. These are nondisaster organizations who step 
forward in a very large disaster and don't know how to plug 
into the system and help. We learned which of these community 
groups, such as churches, would step forward and didn't know 
how to get support, and we learned how we can do that better.
    We learned that we needed year-round staff to work with 
state government in risk areas, and where we needed a larger 
team to work with our federal partners. We learned where our 
infrastructure, particularly our IT infrastructure, was 
completely overwhelmed and had to be rebuilt post-Katrina. We 
learned where our satellite communications system wasn't big 
enough, and where we needed more redundancy.
    In short, we learned about our capacity, and we learned 
about our relationships, and we learned that we needed to grow 
both. We had a large number of projects post-Katrina that just 
had to be done by last hurricane season last year.
    We gave ourselves 4 months to acquire 1.5 million square 
feet of warehouse space, to put in those warehouses additional 
supplies to shelter 500,000 people for a 6-day period of time, 
buying a half million cots, a half million blankets, and those 
related supplies. We now have 6 million prepackaged meals ready 
to go.
    We now have 21 cities in risk areas with permanent triple-
redundant communications equipment along the coast, and we are 
adding more cities. We have hired full-time staff for 14 state 
emergency management offices, such as Mr. Fugate's, and staff 
to work with partner groups to help national partners, national 
organizations, become part of the disaster response. We redid 
our IT systems, and we did a lot of work on our supply chain.
    Locally, our chapters have created new partnerships, 
especially with faith-based groups, to enable the work, and we 
even worked with about 100 national partners. A good example 
would be the NAACP, where we trained over 1,000 of their 
members, and they helped respond to the tornadoes in Florida 
and to Alabama and Georgia.
    You might also remember that our role in the National 
Response Plan has changed recently. We have a separate team 
that supports the federal structure in disaster. They help 
receive requests from states for support items for mass care, 
and help the federal agencies fill those requests.
    This team is very different from our operating team. It 
does not direct our operating team. It takes information from 
the operating team, and gives it to federal partners.
    In the new construct, in the new National Response Plan, in 
a key learning from Katrina, if you are going to be a primary 
agency in the National Response Plan, you need to be able to 
help make quick and decisive commitments of federal assets.
    It is clear that the Red Cross can't commit federal 
resources. I can't sign a contract on behalf of government for 
water or fuel to appear. And now that ESF6 is growing to 
include evacuation planning and pet planning, it is appropriate 
that a federal agency take that role, and FEMA has agreed to do 
so.
    The key point here is that there will be no change in our 
service delivery on the ground. This is a separate team from 
the people who feed and shelter and do those seven things that 
I described.
    Are we ready? We are never ready enough. We have made big 
strides with our people, in our supplies, in our plans, in our 
systems, but we work every day and we see the problems at 
county level, we see the problems at state level, we see the 
problems in our federal family. And we know there is much more 
to be done.
    The Red Cross has learned a lot. We have done a lot, but we 
have a lot more to do. Thank you very much.
    [The statement of Mr. Becker follows:]

                 Prepared Statement of Joseph C. Becker

    Chairman Thompson, Congressman King, and Members of the Committee 
on Homeland Security, thank you for providing me the opportunity to 
testify before you today on this important topic: Hurricane Season 
2007. I am pleased to inform the Committee that we have made 
substantial improvements in our capacity to respond to the challenges 
that may come our way.
    I would like to start by recognizing the selection of Mark W. 
Everson as the next president and chief executive officer of the 
American Red Cross. Many of you know Mr. Everson, who has led the 
Internal Revenue Service for the past four years. We at the American 
Red Cross are excited and encouraged about his selection and look 
forward to him officially joining the organization on May 29.
    I also want to take this opportunity to thank each of you for your 
support of H.R. 1681, the American National Red Cross Governance 
Modernization Act of 2007, which was signed into law by President Bush 
on May 11. This legislation modernizes the governance structure of the 
American Red Cross and enhances the Red Cross Board of Governors' 
ability to support the critical mission of the Red Cross in the 21st 
century.
    In today's testimony, I will focus on the significant improvements 
made by the American Red Cross since Hurricanes Katrina, Rita and Wilma 
devastated the Gulf Coast during the 2005 hurricane season. I will also 
address recent changes to the National Response Plan (NRP), in which 
the American Red Cross plays a significant role.

About the American Red Cross
    For more than 125 years, the American Red Cross has been our 
nation's partner in preventing, preparing for, and responding to 
disasters. Our past and present Congressional Charter mandates that the 
Red Cross ``maintain a domestic and international system of disaster 
relief.'' In fact, the Red Cross responds to more than 70,000 disasters 
each year, ranging from single family home fires to large scale 
hurricanes and tornadoes. In addition to family home fires and small 
scale events, today the Red Cross has 39 large scale disaster 
operations in 26 states and the Northern Mariana Islands, including the 
tornado that struck Kansas earlier this month and our continuing work 
to support the tragedy at Virginia Tech.
    The Red Cross must function at many levels and across multiple 
jurisdictions. It is simultaneously a local responder, a state partner 
and a national organization. At the local level, we provide immediate 
services: food, shelter, immediate and longer-term assistance, for 
people in all disasters ranging from home fires to large scale 
disasters.
    While the American Red Cross is the nation's largest mass care 
provider, we are not the only mass care provider. As an independent, 
nonprofit organization, we rely on the generosity of the American 
people to provide services to victims of disasters. We also rely on our 
partners, such as the Southern Baptists, the Salvation Army, Catholic 
Charities, and the United Way, to provide their services in larger 
events. Since Hurricane Katrina, the Red Cross has reached out to 
hundreds of organizations across the nation to ensure our partnerships 
are solid, to find mutual ways of providing services during times of 
disasters, and to ensure that the gaps that existed in our response to 
Katrina are filled.

Hurricane Katrina
    In August 2005, our nation awoke to the inconceivable wrath that 
was Hurricane Katrina. Millions of people were immediately displaced. 
The sheer magnitude of Katrina's impact was unprecedented, and the 
American Red Cross, along with all other response and human services 
organizations, was not prepared for the magnitude of the response 
required by such a disaster. In our planning, we failed to ``think 
big'' enough.
    Prior to Hurricane Katrina, the largest domestic events the Red 
Cross ever responded to were the 2004 hurricanes--Charley, Frances, 
Ivan, and Jeanne--which crisscrossed their way across the southeast. 
Our response to these storms easily surpassed anything done in prior 
disasters, such as Hurricane Andrew in 1992. After those storms, we 
made significant strides to increase our feeding, sheltering, and 
emergency assistance capacity.
    Before Katrina made landfall, we enhanced local Red Cross chapter 
capacity with supplies, emergency response vehicles (ERVs), kitchens, 
communications equipment, and a first wave of almost two thousand 
additional volunteers--a force that would ultimately grow to 240,000 
workers. But, for Hurricanes Katrina, Rita, and Wilma, this was not 
enough. The 2005 Gulf Coast hurricanes were 20 times larger than our 
previous largest disaster.
    To say that the organization was stretched beyond capacity is an 
understatement. Some shelters became exceptionally crowded, we were 
slow to reach some rural areas, and when we gave emergency financial 
assistance our systems became overwhelmed. We responded by creating new 
systems utilizing our relationships with some of the best and brightest 
in corporate America to give aid to people in need. We also ramped up 
our workforce and trained tens of thousands of spontaneous volunteers 
who stepped up to help their neighbors.
    It was not perfect--it was far from perfect--but we were 
successful, with the help of our partners, in getting the critical 
emergency aid to those who had nothing else on a scale that was 
unprecedented.
    Hurricane Katrina exposed systemic vulnerabilities for the Red 
Cross and governmental agencies that respond to disasters. Yet, by 
bringing them to light, we were given the opportunity to identify them, 
fix them, and ensure that we are prepared for future disasters that may 
lie ahead.

Lessons Learned and Improvements, 2005-2007
    Mr. Chairman, I shared lessons learned from Hurricane Katrina in 
preparation for the 2006 hurricane season with this Committee last 
June. While we were fortunate as a nation to have a relatively quiet 
hurricane season last year, that did not give the Red Cross reason to 
delay our progress, it simply gave us time to do more--time to ensure 
that we rebuilt our systems right, and to create the necessary 
capacity.
    Today, I welcome the opportunity to address two specific issues 
that might have characterized the Red Cross in years past. The first is 
a cultural issue, the second is capacity.
    First our culture. The Red Cross had a history of acting as an 
insular organization too many times and in too many places. As the 
nation's largest mass care provider, we have been successful in 
responding to disasters for more than a century. On larger relief 
efforts, we have worked with key partners over the years, typically 
faith based groups like the Southern Baptists and the Salvation Army. 
In very large events, like Katrina, many new groups step forward, 
especially the faith community. Our ability to work with these non-
traditional disaster response organizations was limited. While 
overwhelmed providing service, we had difficulty helping them become 
part of the community response. This was a hard, but valuable lesson 
for the Red Cross to learn. In very, very large events, non disaster 
groups and new partners come forward to serve--and the Red Cross can 
take a lead role in helping them become part of the response.
    Katrina also was a wake up call for the Red Cross that partnering 
in fact is important in all disasters--small and medium ones, not just 
the catastrophes. Since Katrina, the Red Cross at the national level 
and our more than 700 chapters nationwide have worked diligently to 
create and foster strong partnerships with many new organizations that 
would typically not be in the disaster response business. From faith 
groups and businesses to local civic organizations, our chapters have 
been working with local community organizations to ensure that 
partnerships are in place so that organizations--that selflessly step 
up to help their neighbors--know in advance how to access supplies, 
resources, and expertise. Through partnerships, Red Cross chapters are 
providing training and supplies to community-based organizations to 
strengthen response efforts across the nation. If and when a disaster 
strikes, these community-based organizations will be better prepared to 
assist in their response efforts, and the Red Cross will be better 
prepared to identify and reach out to people are that may need 
assistance. We have seen the benefit of working with these new partners 
in many significant responses over the last year. The Red Cross does 
not think or act alone. . .our commitment to partnerships is here to 
stay.
    The second area is capacity. The Red Cross has significantly 
increased the investment in our capacity to respond. Today, we have six 
million pre-packaged meals are at the ready, and sheltering supplies, 
like blankets, cots, toiletry kits, and clean up kits for up to a half 
million people are stored in warehouses spread along the coasts and in 
other high risk areas.
    For many years we had mobile communications vehicles, complete with 
interoperable satellite and redundant communications that we would roll 
in ahead of a storm. Today we have 21 cities stocked with permanent 
satellite equipment along the Gulf Coast, and are working to add more.
    We have worked even more effectively with the state and federal 
governments as well, hiring full-time Red Cross employees for 14 state 
emergency management offices, and for each of the FEMA regions. This is 
in addition to the employees we have added to work with NGO partner 
groups to help coordinate relief efforts. We have trained more than 165 
government relations volunteers and have worked hard to strengthen our 
relationship with FEMA, clarifying and redefining roles and 
responsibilities. We have increased our efforts to work with and 
accommodate people with disabilities and continue to seek appropriate 
community partnerships to help us serve other vulnerable communities. 
We have changed our information sharing policies to allow transparency 
with other organizations and local law enforcement while respecting 
client confidentially.
    We also have added the following capacity:
        <bullet> A web-based shelter management application developed 
        in conjunction with FEMA and the Department of Homeland 
        Security. This system has the ability to track shelter 
        inventory, facility survey data, and population counts of the 
        shelter population nationwide. Data on our 44,000 shelters is 
        entered in the system.
        <bullet> Improvements to the Disaster Services Human Resources 
        (DSHR) system to track in real-time staff assigned to relief 
        operations and strengthen the process used for registering 
        spontaneous volunteers. The DSHR system software has also been 
        modified to accommodate DSHR ID Smart Card technology. These 
        improvements provide better information about our volunteers, 
        their skills and availability.
        <bullet> Addition of six on-staff disaster relief operation 
        directors to provide leadership to major relief operations as 
        well as mentor and coach chapter and multi-chapter relief 
        operation directors. This will improve the skill sets of 
        administrators and managers in the DSHR system.
        <bullet> Development of national partnerships that chapters can 
        utilize at the local level to engage underserved groups in 
        their communities.
        <bullet> A ``Disaster Welfare Information'' system for chapters 
        to provide ``safe and well'' status information to the families 
        and loved ones of disaster victims.
        <bullet> Response Center Network expansion for a group of 
        chapters that staff the 1-866-GET-INFO line. We have 250 
        simultaneous workers in chapters nationwide supporting the 
        information center's work.
        <bullet> An enhanced Volunteer Match Portal to help manage 
        expectations of large numbers of spontaneous volunteers and 
        provide updated guidance.
    All of this was completed by the beginning of the 2006 hurricane 
season. Since last fall, we have worked to sharpen our planning, 
starting with the six of the highest disaster-risk regions of the 
country. Working with partner organizations, state and local 
governments, and our federal partners, we have tried to quantify the 
worst case catastrophic scenarios: (1) a hurricane hitting New York 
City; (2) a terrorist incident in Washington, D.C.; (3) a hurricane on 
the Carolina coast; (4) multiple hurricane strikes in the Gulf Coast; 
(5) an earthquake in southern California; and (6) an earthquake in 
northern California. Taking these scenarios, we are asking real-world 
questions. How many would need shelter and are we prepared to shelter 
this many people? How many would need to be fed? How many would need to 
be cared for? These numbers are daunting, Mr. Chairman, and the Red 
Cross--and the country--have many challenges to be prepared to respond.

Changes to the National Response Plan
    As you know, the American Red Cross role in the National Response 
Plan (NRP) is evolving. This is the result of an expansion of 
responsibilities in Emergency Support Function (ESF) 6 (ESF6) and a 
change in the expectations of the role of the Primary Agency.
    Historically, the Red Cross role in the National Response Plan (and 
its predecessor, the Federal Response Plan) has been the primary agency 
for mass care, and as a support agency for six other functions. In the 
primary role, the Red Cross has:
        <bullet> Received, evaluated and forwarded State requests for 
        mass care related support to FEMA for approval and fulfillment 
        by the federal government in time of disaster;
        <bullet> Assisted in federal planning efforts;
        <bullet> Participated in federal level planning for mass care; 
        and
        <bullet> Provided liaisons to FEMA locations in support of ESF6 
        Mass Care activities.
    Three years ago when the NRP was created, the American Red Cross 
assumed the role of the only nongovernmental organization named as a 
``primary agency'' in an Emergency Support Function. We were very proud 
of this important role and approached it with the care and 
consideration necessary to serve in this function. Nevertheless, over 
the years, one of the lessons we learned is that this ``primary 
agency'' role was never fully understood, and for good reason. The 
American Red Cross is not a government agency, and we do not have, nor 
have we ever requested, the federal authority or ability to assign 
federal assets during times of disaster.
    Additionally, our operation as a mass care sheltering service 
provider is separate and distinct from our role in the NRP. We have a 
separate Red Cross NRP team that supports the federal structure in 
disaster. This team receives requests from states for mass care 
(feeding and sheltering) and helps the federal agencies determine how 
to best fill the requests. This team is very different from our service 
provider team operating on the ground running Red Cross shelters and 
feeding clients--the Red Cross NRP team does not direct sheltering or 
other mass care services.
    In the new NRP, currently being rewritten, the confusion regarding 
the Red Cross roles as a federal surrogate and a NGO mass care services 
provider is eliminated. It is imperative that the primary agency in the 
ESF needs to the authority to make quick and decisive commitments of 
federal assets. As I stated above, the Red Cross is not a federal 
agency, and does not have the authority to require or commit the 
federal resources of several cabinet agencies. The Red Cross is very 
pleased with the redesign of the NRP and its designation as a support 
agency.
    For these reasons, and because of the expanded ESF6 role in the 
post-Katrina reforms implemented in the fiscal year 2007 DHS 
Appropriations bill, the American Red Cross and FEMA have concurred 
that it is imperative that it is much more appropriate for FEMA to 
perform the federal role of ``primary agency.'' The Red Cross will 
become a ``support agency'' under ESF6, and our support role for the 
other six emergency support functions will continue unchanged. We 
participated significantly in rewriting the NRP along with FEMA and 
other federal agencies. In the end, we believe it is in the best 
interest of the American people for FEMA to perform the federal 
government's role as the Primary Agency for all areas of ESF6. It has 
the needed federal statutory authority to commit federal resources of 
other federal agencies and to ensure a unified command structure during 
operational response.
    While our ``NRP status'' has changed, our operations--as a service 
provider--have not. The American Red Cross and our partners, regardless 
of our role in the NRP, will continue to provide shelter, feeding, bulk 
distribution, welfare inquiry, recovery planning, emergency assistance, 
heath and mental health assistance, and long term recovery.

Hurricane Season 2007
    Mr. Chairman, Members of the Committee, I have outlined the steps 
the Red Cross has taken to prepare for Hurricane Season 2007. We have 
made immense strides in our supplies, plans, systems, and culture. We 
have learned that what was ``unimaginable'' can, in fact, become 
reality.
    While we have made significant improvements, the fact is that we--
and federal government agencies--can never be ready enough.
    There are significant national issues that still exist. The NRP is 
not complete. While we applaud the work that FEMA, DHS and all the 
contributors have done on the NRP, we need to have an operational plan 
complete.
    We also need to see significant improvement in the areas of 
community and personal preparedness. The greatest defense to surviving 
a disaster is being prepared. The American Red Cross works with 
individuals, communities, states and the federal government to help our 
nation and our citizens become prepared for any disaster that comes 
their way. Red Cross programs are configured to disaster risk, that is, 
we design programs for individuals and families to prepare for natural 
disasters that are conducive to their geographic areas. As we rely on 
the neighbor helping neighbor philosophy, we encourage local 
communities to become more aware of potential hazards that could 
adversely impact their regions and prepare accordingly.
    The Red Cross firmly believes in the importance of preparedness and 
has developed numerous tools and resources offered in a number of 
different languages to help families prepare for any unexpected 
disasters, from a house fire to a hurricane.
    Over the past several years, organizations that help to prepare 
communities, as well as local, state and federal governments, have made 
efforts to streamline our messages on preparedness. We know that a 
single national message helps individuals better understand what they 
need to do to protect themselves and their loved ones during times of 
disaster. It is important that all levels of government and the Red 
Cross convey a unified message to the public on preparedness.
    We encourage families and individuals across this country to ``Be 
Red Cross Ready.'' Our campaign, which parallels the Department of 
Homeland Security's Ready Campaign, provides tools for individual 
households to take three important steps: (1) Get a Kit; (2) Make a 
Plan; and (3) Be Informed.
    Get a Kit--Every household should have prepared and ready to go a 
disaster kit that includes enough food and supplies to last each family 
member for three days. This could be an old knapsack or backpack with 
water, basic first aid supplies, any critical documents (such as 
photocopies of driver's licenses), necessary medicines, a change of 
clothes, and a small amount of cash. This kit should be replenished as 
necessary to ensure that food, water, and medicines are fresh. This 
should be the one thing that anyone needing to leave in a hurry can 
grab to take with them. In addition, families should consider any 
special needs, including those of loved ones as well as their family 
pets.
    Make a Plan--This plan should incorporate such things as where an 
individual and their loved ones would go in the event of a disaster, 
how they would communicate with a friend or loved one to let someone 
know where they are and that they are safe, particularly when critical 
infrastructure like phone lines are down. A good family plan also 
considers the care of pets.
    Be Informed--Get information from either your local Red Cross 
chapter or another organization that offers critical trainings on 
making a disaster plan, a communications plan, and first aid/CPR. 
Knowing what to do during a time of disaster is critical to ensuring 
one's safety and the safety of their loved ones.
    Despite our collective efforts, there has not been a significant 
improvement in preparedness by individual households. We believe that 
Members of Congress could have an impact on this by addressing their 
constituents on preparedness issues, and partnering with organizations 
that promote disaster preparedness.
    While we speak today of the upcoming hurricane season, other 
threats loom. One threat that continues to merit careful planning and 
attention is the potential pandemic influenza. In this regard, I come 
today with a specific request. While the Red Cross will be sharing 
vital family care information, providing a safe and adequate blood 
supply, and helping to meet the needs of isolated or quarantined 
people, we all know that our medical facilities will be overwhelmed. 
The medical community will turn to the Red Cross and other 
organizations for volunteers to help in overflow facilities. There is 
great risk in asking for volunteers to serve in support roles for those 
providing medical care, particularly in temporary facilities full of 
contagious people.
    Our efforts on behalf of the Red Cross and other volunteers 
throughout the United States, their families and organizations to 
extend federal protections to them have been met with no success to 
date. We need strong health care protections for our volunteers, either 
through appropriate amendments to the Federal Volunteer Protection Act 
or new legislation that affords liability and benefits protections to 
volunteers who are placed in harms way. We ask your help here. America 
will need volunteers to help in medical situations. I encourage this 
Congress to act while we still have time.

Conclusion
    Mr. Chairman, Congressman King, and Members of the Committee, thank 
you again for the opportunity to provide testimony on Red Cross 
improvements leading up to the 2007 hurricane season. We want to assure 
you, and the American people, that you can rely on the American Red 
Cross to be there whenever, wherever disaster strikes.
    I am happy to address any questions you may have.

    Chairman Thompson. Thank you very much.
    What I would like to do to start the questioning, Mr. 
Jenkins, in your analysis of FEMA, can you capsule what you 
think, post-Katrina, what you have seen FEMA do that is their 
politics, and what items if any that cause you pause with 
respect to FEMA not being up to what you would consider an 
acceptable standard?
    Mr. Jenkins. Well, as Mr. Paulison pointed out in his 
testimony earlier, there is a number of things that FEMA has 
done in each of the areas that I mentioned in terms of 
situational awareness, where they now have teams that go out, 
they have automated trucks with capacity to do that.
    There is the same thing with regard to assistance. They 
have got now a greater capacity to do that, and a capacity to 
be able to do that in a way that also tries to identify 
duplicates and fraudulent applications. So in each of those 
areas that I mentioned, they have taken positive steps.
    I think with regard to logistics, they have a long way to 
go. They can now, as you point out, track trucks that leave 
from two of their principal warehouses, but they still have 
quite a bit to go in terms of how they are going to refine what 
their requirements are and work with the private sector in that 
area.
    They recognize that it is a multiyear effort, that they are 
not going to have that implemented for this hurricane season. 
They really just need to revamp that system from A to Z, and 
they are working on that.
    The thing that I think I am a little bit concerned about 
is, I think it is important that if in this hurricane season, 
the new NRP comes in places he suggested in late June, it is 
whether or not you really want to try to implement that plan, 
that new plan, in the midst of the hurricane season?
    Or do you want to go with what you have got, where that is 
what you have trained on, that is what people understand their 
roles and responsibilities are. They are not trained in the new 
system, whatever it might be? And so, I think that is one 
question as to whether or not you want to do that.
    I think it is also important that there be a clear 
understanding of the roles of the FCO and PFO, and that is not 
always clear. Under the existing NRP, the secretary of homeland 
security can appoint a single individual to serve as PFO and FO 
except in the case of terrorist events, and the reason for that 
exception is not clear in the NRP.
    But it is, in our view, probably better that that 
particular person, one person, serve both roles, as opposed to 
having it in two roles. It definitely provides clearer lines of 
communication and authority.
    There is, at least, by having them predesignated, however, 
that these positions--now being predesignated for three regions 
and two states--there is an opportunity for both the FCO and 
the PFO to meet with state and local counterparts so that there 
can be a better discussion of what their roles would be, how 
they would interact with the states, what their individual 
roles would be in terms of the federal response. But that is an 
area of concern for us.
    I think the other thing is that FEMA has put a lot of 
things into place that potentially are certainly much better 
than Katrina was. I think the real issue that we have is the 
extent to which these initiatives can actually be successfully 
deployed and implemented on a very large-scale basis, like a 
hurricane IV or V strength.
    Chairman Thompson. Well, I am glad you mentioned that. Mr. 
Paulison talked about a hurricane V scenario for Florida, Mr. 
Fugate. And part of that, phase one, focused on developing a 
regional response and recovery in the counties around Lake 
Okeechobee. Are you familiar with that scenario?
    Mr. Fugate. Yes, sir, Mr. Chairman. It was at my request.
    Last year, the Army Corps of Engineers responded to 
Governor Bush, who had asked for a review of the dike, came 
back with the water management district with concerns that the 
dike may have a higher percentage chance of failure in certain 
scenarios. That was not something we had previously planned 
for.
    So we approached Director Paulison. We knew they were 
looking to do catastrophic planning in South Florida, and said, 
as a part of that, can we first look at Lake Okeechobee, and 
what would happen if we had a dike failure there, all along 
those very small rural communities, and lack of resources.
    So we began there. We are going to shift that focus, as we 
have completed that planning, into South Florida. And much of 
what we are looking at is building upon the system that is 
already in place in Florida, with the state and locals.
    Again, our critical issue is not what many people are 
talking about. Quite honestly, sir, the National Response Plan 
doesn't respond. People do.
    Here is the challenge I want to talk about: We look at a 
Category V hurricane hitting South Florida, similar to the 
Great Miami Hurricane that actually hit in 1926. Based upon 
today's population, that would result in losing over 300,000 
housing units in less than 24 hours in a band that will stretch 
from the Miami-Dade-Broward County line all the way through 
Tampa.
    I have yet to hear anything in the National Response Plan, 
or anything that is being proposed in the Katrina after-action 
reports, that tells me how we are going to house 300,000 
families--close to 1,000,000 people--without having to disperse 
them all over this country.
    Those are the kind of challenges, when we talk about 
catastrophic planning, we are trying to get down to, not who is 
on first base or who is in charge. We knew that in Florida the 
day our constitution got written. It is the governor of the 
state of Florida and the local official declares the emergency.
    Chairman Thompson. And I appreciate this line of 
discussion. Have you shared any of your concerns with anyone at 
FEMA, or anything of this nature?
    Mr. Fugate. Yes, sir, and that is part of why we were very 
fortunate to receive that catastrophic planning. Our primary 
emphasis, as we move into the South Florida areas, will be, 
again, looking at our existing plans for evacuation response, 
but really starting to challenge some of these things that we 
don't have answers for.
    In Florida, we have moved millions of people in hurricanes. 
We have responded after disasters, but there are some 
challenges that we have yet to see the impacts of what people 
term catastrophic.
    I tend to still term that a major disaster, but what 
happens when you have the challenges of housing loss of that 
nature, based upon not theoretical, but actual hurricanes that 
have hit and applied to today's population.
    Chairman Thompson. And I think part of what we saw with 
Katrina--even though we had a scenario run before Katrina--it 
was whether or not we knew what the outcome would be.
    But we did not prepare for the impact on the population, so 
we saw that dispersal of people, and to some degree, the 
abandonment of quite a few. But we knew the physical damage, 
but it was the human aspect of it that was not included.
    And we will probably come back to another round. I see my 
time has expired.
    I yield to the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. And I want to thank you for calling us back. This is 
really important, and I am glad you extended the time. I 
appreciate it very much.
    And thank you for your patience, panel.
    And I love these recesses, because my seniority increases 
every time we come back--climb the ladder of seniority.
    Director Fugate, I would like to thank you for testifying, 
of course, before this committee. The state of Florida has been 
the national leader in disaster prevention and response.
    I know I am a little biased, but I think it is true. 
Mississippi doesn't do bad either. I want to thank you for your 
years of service in making our state a national standard, and 
under, as you said, Governor Chiles first, Governor Bush, and 
now Governor Crist.
    Maybe you can elaborate on this, but what do you attribute 
Florida's success to? I know you touched upon it, but if you 
can elaborate, we would appreciate it.
    Mr. Fugate. I appreciate the question. And again, I think 
it is the leadership that our governors have given us. But more 
importantly, it is the fact we learned we had to be a team.
    Mr. Chairman, I am looking around me, and you have got two 
government officials and the Red Cross. That is not the team. 
We don't have the private sector here. For a long time, when we 
talked about volunteers, we only talked about the Red Cross. We 
left the faith-based off the table.
    When we talk about disasters and building a team, it has to 
be all levels of government as partners. And partners mean you 
bring something to the table. You just don't hand your hand out 
and say, ``Give me something.''
    It means that we have to have our volunteers, and all of 
our volunteers, both those that deal with disasters as a 
primary, to those that step forward with resources that may be 
emergent during an emergency. You can't say no when you need 
the help.
    But following the other leg of that stool is the private 
sector. We oftentimes find ourselves competing and duplicating 
with our private sector when what we really should be doing in 
many disasters is not ordering up more ice and water, but 
spending more time thinking about how we get those local 
retailers back on line, so FEMA's disaster assistance can go to 
people and they can go out and take care of themselves.
    And again, when you talk about building a team, it has to 
be something that is not seen as a local issue, a state issue, 
or a federal issue. It cannot be seen as government solution or 
volunteer solutions. You have to look at what works in a 
community on a day-to-day basis, and look at those elements.
    And from that, that is how you build a team. And the focus 
is always going to be on our citizens we serve. But without the 
private sector, without the volunteers, government is one leg 
of a broken stool. That was the lesson of Hurricane Andrew.
    Mr. Bilirakis. Thank you, appreciate that. Again, Director 
Fugate, would you also address the National Guard issue, if you 
would like, with regard to readiness to respond to a natural 
disaster?
    Mr. Fugate. Yes, sir.
    Again, Mr. Chairman, in the state of Florida, we currently 
have more National Guardsmen back in Florida with more 
equipment than we had in the 2004 and 2005 hurricane seasons. 
Throughout all of the response to the world terrorism and to 
the deployments, we had more National Guardsmen available for 
deployment than we had deployed at any time during Hurricane 
Andrew.
    I think there is a clear distinction between the 
warfighting mission and the long-term impacts on the Guard to 
carry out that federal mission at the expense of training and 
equipment. But in the short term, the disaster response in 
Florida has not been compromised.
    We use our Emergency Management Assistance Compact very 
effectively. I currently have authorized, and we have EMAC 
missions from the state of Georgia and South Carolina 
supporting us with firefighting helicopters fighting fires. 
Those are the types of things we do every day to get ready for 
disasters, and I think it is the way to multiply and maximize 
our forces.
    But I do think long term, the nation needs to look at the 
role of the National Guard in the federal mission, and how do 
you keep them equipped and trained for the long term. But I am 
not concerned about the ability of the Florida National Guard 
to support Governor Crist and the team this hurricane season.
    Mr. Bilirakis. Thank you. Unfortunately, we have been 
seeing numerous disasters have plagued our country. Tornadoes, 
floods, and recently, wildfires have caused millions of dollars 
in damage and tragically, have taken lives. Do you believe that 
the standards outlined in EMAC need to be revised to ensure the 
states are best prepared for these disasters?
    Mr. Fugate. Well, I think in our process that we are using, 
the thing that we lose sight of when we talk about disasters 
are local is, we always look at the community's impact. And we 
forget about the communities nearby that weren't impacted, and 
the states that weren't impacted.
    Our ability to leverage our responders in those communities 
is our biggest force multiplier. They will bring more to the 
table faster than any federal program or any state program. And 
so, as we continue to enhance and develop our Emergency 
Management Assistance Compact, we have asked for is the 
National Emergency Management Association funding to support 
that.
    Again, our goal is, don't leave the resources of this 
nation off the table just because they are not part of the 
federal or state response. And to do that effectively, we have 
to have a system across state lines, get into the areas and 
serve citizens without the paperwork becoming so burdensome 
that it stops a response.
    Mr. Bilirakis. Okay, thank you. I know I have got 10 more 
seconds.
    Quickly, any additional suggestions you may have, how the 
federal government can help out the states?
    Mr. Fugate. Yes, sir. We have got to stop responding to 
disasters as our only course of saving the taxpayers' dollars 
and saving lives, and start mitigating them before they happen. 
Most of these disasters are well known. The hazards are well 
known.
    And we have a backwards system of dealing with disasters. 
We spend billions of dollars after a disaster fixing what would 
have cost hundreds of millions to fix beforehand, at the loss 
of life and misery that is unimaginable.
    I think again, because of our priorities, we need to go 
back and look at how do we get citizens to take greater 
ownership of mitigating their homes, protecting their families, 
so they are not a burden to you and me when disaster strikes, 
but we have given them the tools to make their homes safer and 
protect their family.
    Mr. Bilirakis. Very good. I have a couple of suggestions.
    Thank you very much, appreciate it.
    Chairman Thompson. Thank you very much.
    We have been joined by the gentleman from Colorado for 5 
minutes. Mr. Perlmutter?
    Mr. Perlmutter. Thanks, Mr. Chair.
    And Mr. Fugate, I think the comments you made right at the 
end is just so on the mark. We can always find--whether it is 
in business or something else--you can always find time when 
the car breaks down to take it to the shop and get it fixed, 
most of the time you can.
    And it takes much more time and it takes a lot more in 
dollars if you just spend a few bucks early on to prevent it, 
you have saved yourself the time and the money. And we always 
kind of forget that. And the same thing applies on a much 
grander scale when it comes to disasters.
    But I want to go back to the National Guard piece, because 
you heard my questions earlier, I assume, of Mr. Paulison. So, 
I am looking at your testimony, and I apologize, I didn't hear 
all of you testimony. But it says that you deployed 497 
National Guard personnel to Mississippi during Katrina?
    Mr. Fugate. Yes, sir.
    Mr. Perlmutter. Did you deploy any to Louisiana?
    Mr. Fugate. No, sir we did not deploy battalion strength. 
We provided technical advisor and aircraft to the request we 
got from Louisiana.
    Mr. Perlmutter. Did you retain National Guardsmen and women 
in Florida at the same time you deployed to Mississippi?
    Mr. Fugate. Oh, yes, sir. We probably had about 8,000 
Guardsmen available. In fact, we were faced with a couple of 
tropical storms and hurricanes during that deployment. It did 
not result in us having to back off our support to the states 
when we were facing other threats, not as severe, of course. 
And then we were able to respond full speed to Hurricane Wilma 
with many of the folks that had rotated back out of Mississippi 
when they had been released.
    Mr. Perlmutter. So you maintained some in Florida, just in 
case something bad happened in Florida, but you were able to 
send some to Mississippi to assist them?
    Mr. Fugate. Yes, sir. And also, understand that over 7,000 
responders went from Florida to the National Guard. In many 
cases, the majority of the resources that came from other 
states under EMAC were National Guard.
    In the state of Florida, that was actually local 
governments. Over half those responders came from local 
governments through mutual aid and EMAC. So again, we were able 
to reach out to all our resources, including the National 
Guard, and still be ready in Florida for other disasters.
    Mr. Perlmutter. Do you know how many in total, in terms of 
the National Guard, were deployed to either Mississippi or 
Louisiana during Katrina?
    Mr. Fugate. No, sir. I believe you can get that information 
from General Blum, commander of the National Guard Bureau. It 
was in the tens of thousands. I want to say in testimony--I 
don't want to guess--but it was in the tens of thousands. He 
can give you the best number. And they were coordinated under 
the Emergency Management Assistance Compact.
    Mr. Perlmutter. Do you know whether--and again, this may be 
outside of your purview, but how many--you said in Florida 
today, you have more Guardsmen available than you did in 2004-
2005?
    Mr. Fugate. Yes, sir.
    Mr. Perlmutter. Do you know how many in Florida have been 
deployed today to Iraq?
    Mr. Fugate. Actually, sir, the Florida National Guard, in 
the war on terror, had been deployed. We had one full brigade. 
The 53rd Infantry Brigade was deployed to Afghanistan. We have 
units that have been deployed to Iraq as well as to Africa, and 
also Bosnia.
    So our Florida National Guard has pretty much been 
everywhere in this world that our Department of Defense has 
called upon them. I can ask General Burnett to provide that 
information. But the Florida National Guard has been in a lot 
of countries and a lot of wars since the September 11 attack.
    Mr. Perlmutter. But today, do you know how many, actually 
from Florida, are deployed outside of Florida to another 
country? I assume that you don't have anybody deployed to any 
other state today?
    Mr. Fugate. No, sir. We actually have other states deployed 
to us fighting fires today. One of our main?
    Mr. Perlmutter. Why?
    Mr. Fugate. The helicopters that fly the firefighting 
mission, the Florida National Guard does not have--as organic 
to their mission--sufficient platforms. So it is not an issue 
of the war on terror or any other war. It is actually that we 
don't have that many Blackhawks, so when we are fighting 
wildfires, we routinely--and this is well before September 11--
reach out to our neighboring states for more rotary wing.
    We had more air defense units, most of our infantry-type 
units. We did not have a lot of aviation assets. So, we used 
the Emergency Management Assistance Compact, which we have been 
using since I have been in the division back in 1997, to access 
those National Guards that have particular units that we did 
not have. And that gives us the ability to reach out.
    Mr. Perlmutter. All right, because I just want to 
understand the system. So the system, what you have in place, 
basically it is a national system?
    Mr. Fugate. Yes, sir.
    Mr. Perlmutter. If you don't have the Blackhawks, they come 
in from New York City, or someplace like that, who might have 
them. Some National Guard will be deployed to Florida when 
called upon, or from Colorado or wherever?
    Mr. Fugate. Yes, sir.
    Mr. Perlmutter. Let me go back to my other question. My 
other question was, from Florida today, how many units, if you 
know, have been deployed outside of the United States?
    Mr. Fugate. I would have to defer to General Burnett. I 
know we just got back one of our combat engineering units--the 
Red Horse came back. I think that our Special Forces just came 
back. And so, the last count I got, was we actually had our 
highest number of troops back since we actually engaged in the 
airport security missions right after September 11.
    Mr. Perlmutter. Thank you. I do have one more question, if 
I could, Mr. Chairman. When they return, are they bringing 
their equipment, or are they leaving some or all of it in Iraq, 
or wherever it was they were deployed outside the country?
    Mr. Fugate. By and large, when they deploy their equipment, 
they don't come back with their equipment. But we have been 
successful in getting equipment moved back into Florida, and 
releveling those units.
    I think our primary concern isn't being able to respond to 
disasters in Florida. I think it is the longer-term issue of 
the federal mission, of the equipment and training that will be 
a deficit for the National Guard, but from what we see in 
Florida, is not an immediate threat to our ability to respond 
to disasters, particularly this hurricane season.
    But I think it is nationally a long-term concern that we 
don't equip the National Guard for their federal mission, 
particularly in the training, as we go in the out years without 
this equipment.
    Mr. Perlmutter. Thank you very much.
    Chairman Thompson. Thank you very much.
    And I think we will do another round, since we only have 
these members present.
    Mr. Becker, you referenced some operating agreements that 
you have in place, you said Catholic Charities, Southern 
Baptist Convention, and Salvation Army. Now, those are three 
agreements you have?
    Mr. Becker. On a national level, we have about 130 
agreements with national partners. Those are the partners that 
we know are going to respond on a larger-scale disaster. A lot 
of our other partnerships are with the types of partners that 
Mr. Fugate was referring to. They are not necessarily disaster 
organizations, but they have great resources that the country 
needs in time of disaster.
    Chairman Thompson. What I am trying to get at is, are you 
talking about Tier 1 operating agreements with those three 
organizations that I talked about? Are all operating agreements 
the same?
    Mr. Becker. We specify what each party can expect of the 
other, and what we think they will bring in a disaster, and 
what they can expect from us in terms of support. But I think 
what is important here is, when it is a very small disaster, 
when there is going to be six houses burnt tonight in the 
Capital area, the Red Cross will be there at 2 in the morning 
with our volunteers.
    If the disaster is a little bit bigger than that, a small 
flood or a tornado, the Salvation Army will most likely be 
there, Southern Baptists would most likely be there. And we 
work nationally and locally with them. It is a well-oiled 
machine.
    That part worked during Katrina. What didn't work during 
Katrina was the local faith-based groups in particular, who 
stepped forward and said, ``I have got a kitchen,'' or ``I will 
be a shelter,'' and it was a pastor and a key and an empty 
building.
    And after 2 or 3 days, they fatigued. They didn't know 
where to get supplies, they didn't know where to get help. And 
the local emergency management didn't know they were there, 
didn't know they needed law enforcement, didn't know they 
needed infrastructure.
    What we have done in our local chapters is ask the 
community, in a common structure, to say who will be willing to 
step forward. And we have sought out partners, partners in 
hard-to-serve locations, maybe very rural areas, that speak 
specific languages that we don't have a competence in. So those 
are local partnerships--
    Chairman Thompson. Not to cut you off, but let me tell you 
personal experience, what happened to me. A number of those 
individuals came to offer help, and was rejected, turned away. 
They said that you were not qualified to serve as a volunteer 
in time
    Many of them were people in the faith community. And I am 
of the opinion that that is not the time to turn help away. 
Now, I am glad to hear that you indicate that that is not the 
case any more. But you have not changed the national operating 
agreement.
    One other issue is that in many instances, like in New 
Orleans and areas where there is a high percentage of minority 
populations, you don't have an operating agreement that 
provides reimbursement for expenditures, to my knowledge. Now, 
I stand corrected. But you called three organizations.
    One of the problems associated with Katrina is, you could 
not get individuals to go into the impacted areas for quite 
some time, fear of harm or what have you. So a number of people 
suffered because of that.
    Now, other than the three groups I identified based on your 
testimony, you talked about NAACP and some other groups. But 
that is down the line. Southern Baptist Convention, wonderful 
group, but they are not the only religion in America. Catholic 
Charities is another, but there are a number of other faith 
groups that ought to have a similar operating agreement with 
the Red Cross. Now, are you saying that they do have one?
    Mr. Becker. Yes sir, Mr. Chairman. We have operating 
agreements, particularly with churches, where we will train 
them ahead of time, we will give them access to our supplies, 
our cots and our blankets, and we will pay their expenses if 
they are feeding or if they are sheltering or doing our core 
work. That is new since Katrina.
    Chairman Thompson. What I would like for you to do for the 
committee, and I appreciate you, because that was one of the 
difficulties--a number of churches offered shelter. They were 
told, ``You are not a qualified shelter.''
    I had an armory in my district that offered shelter. They 
were told, ``You are not a qualified shelter,'' even though 
they housed men and women who served us every day. So I would 
hope that we have bridged the Red Cross bureaucracy, and moved 
it into the service bureaucracy for the community, because that 
was one of the major criticisms we heard all along. But I would 
like for you to get me the new list of people you have 
operating agreements with.
    Mr. Becker. Mr. Chairman, just to address the one issue you 
raised, we need to be clear about who designates a shelter, who 
declares a building to be a shelter. The local emergency 
manager would declare a public building to be a shelter.
    The Red Cross just can't show up and take over a school and 
say, ``We are here and we are going to run a shelter.'' We have 
about 40,000 shelters in our Red Cross system. We don't own 
those buildings.
    Those are typically high school gyms, and the ones that are 
churches now would be typically outside the emergency 
management system. And that is where we can reimburse, that is 
where we can enter into those types of agreements.
    Chairman Thompson. Well, what I am of the opinion is that 
my experience with the Red Cross and the state of Mississippi 
in trying to get an armory that had a full kitchen, full 
bathrooms, showers, cots, mattresses, air conditioning, 
everything you would need, the Red Cross personnel said, ``This 
is not an approved shelter for us.'' Do you understand?
    Mr. Becker. Thank you. I would like to look into that, if I 
can.
    Chairman Thompson. Greenwood, Mississippi.
    I yield to Ranking Member.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. And thanks for bringing that up, too, on the 
shelters.
    Mr. Fugate, following up on your comments regarding the 
private sector as an equal partner in disaster preparedness and 
response, will you please discuss how Florida encourages the 
private sector to participate before, during, and after a 
disaster?
    Mr. Fugate. Yes, sir. After the Hurricane Wilma response, 
we realized that in many cases, we were handing out food, 
water, and ice in front of an open store, oftentimes within 
hours to a day after the storm had hit. Didn't make sense to 
us, didn't make sense to them why we were competing.
    So we had individual meetings with all of our major 
retailers in the grocery and in the hardware chains, and sat 
down. And the first question we began asking was, how they 
could do more of our job?
    We realized very quickly we asked the wrong question. The 
question should have been, what can we do to get them open? 
Because when you can get the private sector back open in a 
disaster area, you put people back to work, you jump-start the 
economy, and they are much more effective with their already 
existing logistical chains to meet demand.
    We then can focus on our more vulnerable citizens in those 
areas the retailers don't serve, which if we go back to 
Hurricane Wilma, we should not have been setting up in front of 
an open grocery store. We should have been in Belle Glade and 
Pahokee, where there were no stores, and where our most 
vulnerable citizens were at.
    Because quite honestly, the other thing we never talk about 
in disasters is, who is the most vulnerable in this nation? And 
it is generally the poor. Poverty is the most underestimated 
impact in trying to deal with disasters, because without 
resources ahead of time, they are not prepared.
    They end up in these programs the most vulnerable. The 
programs were never designed to fit them. And they are the ones 
that much later, we find, that are still in need, and there are 
still challenges.
    So we said we should be focusing on those folks, our most 
vulnerable citizens, and support, and asked a question of how 
do we get our retailers back up faster, so they can serve the 
rest of us?those of us that can afford to go get our food, 
water, and ice after a disaster?so that government and 
volunteer agencies can focus on our most vulnerable citizens.
    Mr. Bilirakis. Thank you very much.
    And I yield back the balance of my time, Mr. Chairman. I 
appreciate it.
    Mr. Green. [Presiding.] Thank you very much.
    Mr. Perlmutter is recognized for 5 minutes.
    Mr. Perlmutter. Thanks, Mr. Chair.
    And Mr. Jenkins, I would like to ask you a couple questions 
about the quotation that I read to Mr. Paulison, where it says: 
``Thus it is difficult to assess the probable results of these 
initiatives in improving response to major catastrophic 
disasters, such as a category IV or V hurricane.''
    Can you explain what you meant by that sentence, and how 
you came to that conclusion that you are concerned there is not 
a good plan in place, or I don't know what it is you are 
saying. Let me just ask you what you meant by that sentence.
    Mr. Jenkins. Well, it is not so much that there is not a 
good plan in place. FEMA has taken certain actions. Let me just 
give you an example.
    They had a major problem in Hurricane Katrina registering 
people for individual assistance. If you registered by 
Internet, they could then check for duplicates and check your 
address, and so forth. If you registered by telephone, they 
couldn't, and a lot of people that registered by telephone who 
were not eligible or made multiple applications.
    They now say that they can register up to 200,000 people a 
day with their system, and that they have the ability to check 
addresses and make sure that those addresses are correct. And 
the question that we have is it has never been tested for 
200,000 people a day.
    In other words, it has never been stressed to that point, 
and it is not clear what would happen, and what kind of 
contingency plan they have if that system goes down, for being 
able to register people.
    There is another issue, is a particular file they are using 
to check addresses is a file that very often election officials 
use, and it has one particular flaw. And that is that it tries 
to identify residential addresses, but in that particular file, 
if you live above your business, the address may be shown to be 
a business address, not a residential address.
    And therefore, you might not be able to register, because 
it doesn't show that this was a residential address. So it is 
those kind of issues that we are concerned about.
    Mr. Perlmutter. In the next paragraph, you talk about the 
National Guard, and you say, ``The National Guard needs to 
respond to large-scale disasters that have not been fully 
identified because the multiple federal and state agencies--
such events have not completed and integrated their plans.''
    I mean, when you put together your report, what kind of 
research did you do into the National Guard's part of any 
disaster response?
    Mr. Jenkins. Well, this particular paragraph is actually a 
very high-level summary of a much more detailed report that we 
issued on the National Guard and domestic preparedness in 
January.
    And that did look at the equipment that the Guard had, how 
they were determining what equipment was needed for their 
domestic missions, what kind of equipment they had, how DOD was 
assessing their role in domestic missions.
    As we point out in that report that DOD doesn't routinely 
measure the readiness of the Guard for domestic missions. So 
this is a high summary of a much more detailed report which I 
can send you that was issued in January of this year.
    Mr. Perlmutter. Yes, I would appreciate it if you would 
send me a copy of that, please.
    No further questions, Mr. Chairman. I yield back.
    Mr. Green. Thank you.
    And I will now recognize myself for 5 minutes. I am the 
acting chair, as you can see.
    And Chairman Thompson made a salient point that I would 
like to revisit just for a moment, if I may. He talked to you 
about the relationship between the Red Cross and what I would 
call other NGOs.
    And I assure you, I was not in his district, so I have no 
idea as to what was said, other than what I heard him say. But 
I heard similar comments in my district, and I want to help 
improve the image that has been somewhat tarnished because of 
what happened in the aftermath of Katrina.
    So my first question to you is this: What is the most 
important thing that you have done since Katrina to help you 
become proactive as opposed to reactive with reference to your 
emergency response?
    Mr. Becker. You are referring to the partnerships or to our 
capacity to respond in general?
    Mr. Green. Capacity to respond as well as partnerships.
    Mr. Becker. I would say one of the most significant things 
we have done is, rather than roll resources to a hurricane area 
ahead of the storm--which we have done in the past, and 
prepositioned items as the storm is coming.
    We now have every state, from here to Texas along the 
coast, with at least one prepositioned warehouse with what it 
takes to shelter 500,000 people for a 6-day period of time. To 
have the supplies already in the affected area helps us, 
because we had problems moving items into the affected areas 
and through the affected areas post-Katrina.
    I would say of all the action we took, and there were 40-
something projects that we undertook before last hurricane 
season, that was probably the most significant, to have our 
capacity there before the storm, to have it there year-round.
    Mr. Green. And with reference to the NGOs other than 
yourself, your entity?
    Mr. Becker. I would say the most powerful thing that we 
have done is to enable each of our chapters to work within 
their communities on those right relationships, and give them 
ability to bring resources and money to the table, to the 
conversation.
    When we go to a church and say ``Would you like to help 
this community in time of disaster?'', the answer is typically, 
``Well, call us when the big one hits and we will come if we 
can.'' And we need to do better than that.
    And what we are trying to do is to work with the faith 
community in particular and say, ``Would you help the Red 
Cross, would you be part of this community's disaster response? 
And if you will, we will give you the training you need so that 
you can run the Church X shelter when they have the shelter 
manager and the shelter workers and your supplies.
    ``We will train you, we will give access to our supplies. 
We will give you our cots.'' And then more importantly, what 
they really wanted to know is, ``Will you pay my bills at the 
end of all of this?''
    Mr. Green. How is this message being conveyed to the 
masses?
    Mr. Becker. I am sorry?
    Mr. Green. The masses. How is this message penetrating to 
the entities that you desire to impact?
    Mr. Becker. What we ask our chapters to do is to look 
strategically at the community and see who the right partners 
would be. Some of it is about geography. Where are we slower to 
get to because it is very rural, or very far away from where 
our volunteers are?
    Some of it is demographic. It is language, it is parts of 
town that were slower to respond to, or where do we not look 
like the people we are saving. So it is asking our chapters to 
reach out and form those right partnerships now and ahead of 
time, as we have done on the national level.
    And then I mentioned before, we have about 130 national 
partnerships, and some of these are with organizations that 
aren't disaster responders. We trained 1,000 members of the 
NAACP, and resourced them. They responded in the Daytona area 
to tornadoes. They responded to Alabama with us. They responded 
to Georgia with us. They were doing mass care work, but they 
were representing the NAACP, not the American Red Cross. We all 
think that was a significant improvement.
    Mr. Green. Thank you. Permit me to ask Mr. Jenkins a 
question if I may, sir. Mr. Jenkins, sir, with reference to the 
National Guard and your survey, do you have a comparison 
between when we were at our peak of readiness at home, as 
opposed to where we are now?
    Mr. Jenkins. The survey that we did really wasn't designed 
to do that. What we did is, we asked the various National Guard 
bureaus what kind of equipment they had, and what they thought 
their inventory was compared to what they needed, in other 
words, if you have 40 percent, 50 percent, or whatever.
    But the survey wasn't really framed in terms of peak 
readiness versus current readiness. It was like, what equipment 
do you have and what kind of shortages do you have?
    Mr. Green. Thank you. My time has expired.
    Does Mr. Perlmutter have any additional questions?
    Mr. Perlmutter. No, sir.
    Mr. Green. All right. Well, we would like to thank all of 
the witnesses for your valuable testimony today, and the 
members for their questions.
    The members of the committee may have additional questions 
for you, and we will ask that you respond expeditiously to 
their questions in writing, of course.
    And the hearing is going to be adjourned, given that there 
is no further business. And I am instructed to strike the 
gavel.
    Thank you.
    [Whereupon, at 4:47 p.m., the committee was adjourned.]


    Appendix I: Enhanced Capabilities for Catastrophic Response and 
                                Recovery

                              ----------                              

    Numerous reports and our own work suggest that the substantial 
resources and capabilities marshaled by state, local, and federal 
governments and nongovernmental organizations were insufficient to meet 
the immediate challenges posed by the unprecedented degree of damage 
and the number of victims caused by Hurricanes Katrina and Rita. 
Developing the capabilities needed for catastrophic disasters should be 
part of an overall national preparedness effort that is designed to 
integrate and define what needs to be done and where, how, and how well 
it should be done--that is, according to what standards. The principal 
national documents designed to address each of these are, respectively, 
the NRP, NIMS, and the NPGs. The nation's experience with Hurricanes 
Katrina and Rita reinforces some of the questions surrounding the 
adequacy of capabilities in the context of a catastrophic disaster--
particularly in the areas of (1) situational assessment and awareness, 
(2) emergency communications, (3) evacuations, (4) search and rescue, 
(5) logistics, and (6) mass care and sheltering.
    FEMA is taking actions to address identified deficiencies in each 
of these areas. Examples include designating national and regional 
situational awareness teams; acquiring and deploying mobile satellite 
communications trucks; developing an electronic system for receiving 
and tracking the status of requests for assistance and supplies; 
acquiring GPS equipment for tracking the location of supplies on route 
to areas of need; and working with the Red Cross and others to clarify 
roles and responsibilities for mass care, housing, and human services. 
This appendix provides additional details of FEMA's actions in each of 
these areas.

FEMA Taking Steps to Improve Situational Assessment Capabilities
    One of the critical capabilities that FEMA is working to improve is 
their situational assessment and awareness. FEMA is developing a 
concept for rapidly deployable interagency incident management teams, 
at this time called National Incident Management Team, to provide a 
forward federal presence to facilitate managing the national response 
for catastrophic incidents. FEMA is planning to establish three 
national-level teams and ten regional-level teams, one in each of the 
ten FEMA regions. These teams will support efforts to meet the emergent 
needs during disasters such as the capability to provide initial 
situational awareness for decision-makers and support the initial 
establishment of a unified command. According to FEMA's plans, these 
teams will have a multi-agency composition to ensure that the multi-
disciplinary requirements of emergency management are met. The teams 
are envisioned to have the capability to establish an effective federal 
presence within 12-hours of notification, to support the state, to 
coordinate federal activities, and to be self sufficient for a minimum 
of 48-hours so as not to be a drain on potentially scarce local 
resources. National-level and regional-level teams will be staffed with 
permanent full-time employees, unlike the ERTs, which are staffed on a 
collateral duty basis. Team composition will include representatives 
from other DHS components, interagency and homeland security partners. 
When not deployed, the teams will team-train with federal partners and 
provide a training capability to elevate state and local emergency 
management capabilities. The teams will also engage in consistent and 
coordinated operational planning and relationship-building with state, 
local, tribal, and other stakeholders.
    According to FEMA officials, these teams are still being designed 
and decisions on team assets, equipment, and expected capabilities have 
not yet been finalized. The new teams are envisioned to eventually 
subsume the existing FIRST (Federal Incident Response Teams) and ERTs 
(FEMA's Emergency Response Teams), and their mission and capabilities 
will incorporate similar concepts involving leadership, emergency 
management doctrine, and operational competence in communications. FEMA 
plans to implement one National Incident Management Team and one 
Regional Incident Management Team by May 25, 2007.

Some Progress Has Been Made on Interoperable Communications
    As our past work has noted, emergency communications is a critical 
capability common across all phases of an incident. Agencies? 
communications systems during a catastrophic disaster must first be 
operable, with sufficient communications to meet everyday internal and 
emergency communication requirements. Once operable, they then should 
have communications interoperability whereby public safety agencies 
(e.g., police, fire, emergency medical services, etc.) and service 
agencies (e.g., public works, transportation, and hospitals) can 
communicate within and across agencies and jurisdictions in real time 
as needed.
    DHS officials have identified a number of programs and activities 
they have implemented to improve interoperable communications 
nationally. DHS's Office for Interoperability and Compatibility (OIC) 
was established to strengthen and integrate interoperability and 
compatibility efforts to improve local, tribal, state, and federal 
emergency preparedness and response. SAFECOM, a program of OIC which is 
transitioning to the Office of Emergency Communications (OEC)--in 
response to the Post-Katrina Reform Act--is developing tools, 
templates, and guidance documents, including field tested statewide 
planning methodologies, online collaboration tools, coordinated grant 
guidance, communications requirements, and a comprehensive online 
library of lessons learned and best practices to improve 
interoperability and compatibility across the nation. DHS officials 
cited the development of the following examples in their efforts to 
improve interoperable communications:
        <bullet> Statement of Requirements (SoR) to define operational 
        and functional requirements for emergency response 
        communications.
        <bullet> Public Safety Architecture Framework (PSAF) to help 
        emergency response agencies map interoperable communications 
        system requirements and identify system gaps.
        <bullet> Project 25 (P25) suite of standards and a Compliance 
        Assessment Program. This project is in conjunction with the 
        National Institute of Standards and Technology (NIST) to 
        support the efforts of the emergency response community and 
        industry;
        <bullet> Statewide Communications Interoperability Planning 
        Methodology to offer states a tangible approach as they 
        initiate statewide interoperability planning efforts. SAFECOM 
        also collaborated in DHS grant guidance to help states develop 
        statewide interoperability plans by the end of 2007.
    According to FEMA officials, the agency is taking actions to 
design, staff, and maintain a rapidly deployable, responsive, 
interoperable, and highly reliable emergency communications capability 
using the latest commercial off-the-shelf voice, video, and data 
technology. FEMA's Response Division is the designated lead for 
tactical communications, along with situational awareness information 
technology enablers that are provided by FEMA's Chief Information 
Officer. Mobile Emergency Response Support (MERS) detachments provide 
robust, deployable, command, control, and incident communications 
capabilities to DHS/FEMA elements for catastrophic Incidents of 
National Significance. The MERS mission supports Emergency Support 
Function partners at the federal, state, and local levels of 
government. The plan is to utilize enhanced MERS capabilities and 
leverage commercial technology to provide real-time connectivity 
between communications platforms in a manner consistent with emergency 
communication deployment doctrine being developed by DHS and FEMA. 
According to FEMA officials, emergency managers at the federal, state, 
and local levels of government will benefit from an integrated 
interoperable emergency communications architecture that includes the 
Department of Defense, United States Northern Command and the National 
Guard Bureau.
    Our recent work noted that $2.15 billion in grant funding has been 
awarded to states and localities from fiscal year 2003 through fiscal 
year 2005 for communications interoperability enhancements helped to 
make improvements on a variety of interoperability projects.\1\ However 
this work noted that the SAFECOM program has made limited progress in 
improving communications interoperability at all levels of government. 
For example, the program has not addressed interoperability with 
federal agencies, a critical element to interoperable communications 
required by the Intelligence Reform and Terrorism Prevention Act of 
2004.\2\ The SAFECOM program has focused on helping states and 
localities improve interoperable communications by developing tools and 
guidance for their use. However, based on our review of four states and 
selected localities, SAFECOM's progress in achieving its goals of 
helping these states and localities improve interoperable 
communications has been limited. Officials from the states and 
localities we reviewed often found that the tools and planning 
assistance provided by the program were not helpful, or they were 
unaware of what assistance the program had to offer. The program's 
limited effectiveness can be linked to poor program management 
practices, including the lack of a plan for improving interoperability 
across all levels of government and inadequate performance measures 
that would provide feedback to better attune tools and assistance with 
public safety needs. Until SAFECOM adopts these key management 
practices, its progress is likely to remain limited.
---------------------------------------------------------------------------
    \1\ GAO, First Responders: Much Work Remains to Improve 
Communications Interoperability. GAO-07-301 (Washington, D.C.: April 2, 
2007).
    \2\ See 6 U.S.C. Sec. 194(a).
---------------------------------------------------------------------------
    Further, little progress had been made in developing Project 25 
standards--a suite of national standards that are intended to enable 
interoperability among the communications products of different 
vendors. For example, although one of the eight major subsets of 
standards was defined in the project's first 4 years (from 1989 to 
1993), from 1993 through 2005, no additional standards were completed 
that could be used by a vendor to develop elements of a Project 25 
system. The private-sector coordinating body responsible for Project 25 
has defined specifications for three additional subsets of standards. 
However, ambiguities in the published standards have led to 
incompatibilities among products made by different vendors, and no 
compliance testing has been conducted to ensure vendors' products are 
interoperable. Nevertheless, DHS has strongly encouraged state and 
local agencies to use grant funding to purchase Project 25 radios, 
which are substantially more expensive than non-Project 25 radios. As a 
result, states and local agencies have purchased fewer, more expensive 
radios, which still may not be interoperable and thus may provide them 
with minimal additional benefits. Thus, until DHS takes a more 
strategic approach here, progress by states and localities in improving 
interoperability is likely to be impeded.

FEMA Taking Steps to Address Logistics Problems
    In the wake of Hurricane Katrina, FEMA's performance in the 
logistics area came under harsh criticism. Within days, FEMA became 
overwhelmed and essentially asked the military to take over much of the 
logistics mission.\3\ In the Post-Katrina Reform Act, Congress required 
FEMA to make its logistics system more flexible and responsive. FEMA's 
improvements to their logistics strategy and efforts are designed to 
initially lean forward and provide immediate support to a disaster site 
mainly through FEMA-owned goods and assets, and later on to establish 
sustained supply chains with the private vendors whose resources are 
needed for ongoing response and recovery activities, according to FEMA 
officials.
---------------------------------------------------------------------------
    \3\ GAO, Hurricane Katrina: Better Plans and Exercises Needed to 
Guide the Military's Response to Catastrophic Natural Disasters. GAO-
06-643 (Washington, D.C.: May 15, 2006).
---------------------------------------------------------------------------
    According to FEMA officials, the agency is building forward-leaning 
capabilities that include, for example, its MERS resources designed to 
support a variety of communications requirements--satellite, land 
mobile radio, computer and telephone systems?with the ability to 
operate from one or more locations (mobile and stationary) within the 
response area of operations. FEMA has also developed a Pre-Positioned 
Disaster Supply (PPDS) program to position containers of life-saving 
and life-sustaining disaster equipment and supplies as close to a 
potential disaster site as possible, in order to substantially reduce 
the initial response time to incidents.\4\ Further, FEMA is developing 
a Pre-positioned Equipment Program (PEP) that also consists of 
standardized containers of equipment to provide state and local 
governments responding to a range of major disasters such equipment as 
personal protective supplies, decontamination, detection, technical 
search and rescue, law enforcement, medical, interoperable 
communications and other emergency response equipment. According to 
FEMA officials, currently FEMA has established 8 of the 11 PEP 
locations, as mandated by the Post-Katrina Reform Act, and FEMA is 
currently conducting an analysis to determine where the additional PEP 
sites should be located. FEMA has also stated that it has enhanced its 
relationships with the public sector with its disaster logistics 
partners and has worked to utilize the public sector's expertise 
through Inter-Agency Agreements with the Defense Logistics Agency, the 
Department of Transportation and Marine Corps Systems Command.
---------------------------------------------------------------------------
    \4\ States participating in the PPDS program sign a Memorandum of 
Agreement with FEMA for the use of the containers.
---------------------------------------------------------------------------
    According to FEMA officials, another critical component of creating 
an effective logistics system is based upon FEMA's ability to work 
collaboratively with and leverage the capabilities of its public and 
private partners. FEMA's logistics efforts have identified private 
sector expertise to improve and develop software systems to increase 
logistics program efficiency and effectiveness. For example, the 
Logistics Information Management System (LIMS) is FEMA's formal 
accountability database system for all property managed within FEMA 
nation-wide or at disaster field locations. At the same time, FEMA is 
also developing a multi-phased Total Asset Visibility (TAV) program 
with the assistance of the private sector to leverage the collective 
resources of the private and public sector to improve emergency 
response logistics in the areas of transportation, warehousing, and 
distribution. The current phase of the program, which is operational at 
two FEMA logistics centers (Atlanta, Georgia, and Fort Worth, Texas), 
encompasses two software management packages designed to provide FEMA 
the ability to inventory disaster response commodities upon arrival at 
a warehouse, place the commodities in storage, and track the 
commodities while stored in the warehouse. FEMA plans to expand the 
capabilities of this first phase of the system to all FEMA Regions 
during 2007. This will provide FEMA with sufficient logistics 
management and tracking capabilities until an expanded phase two can be 
implemented. For the second phase, FEMA is currently conducting market 
research to solicit input from the private sector and other sources to 
facilitate final design of the program's second phase. According to 
FEMA officials, initial operational capabilities for this phase are 
scheduled to be in place by June 2008, and fully-operational in June 
2009. According to FEMA, the completed product will provide a more 
comprehensive approach to producing real-time, reliable reporting and 
incorporate FEMA's financial resource tracking requirements. It will 
also be able to support other federal departments and agencies, non-
government organizations, and state, local and tribal organizations 
under the guidelines of the NRP.
    While FEMA has been working to address its logistics capabilities, 
it is too early to evaluate these efforts. We recently examined FEMA 
logistics issues, taking a broad approach, identifying five areas 
necessary for an effective logistics system. Below, we describe these 
five areas along with FEMA's ongoing actions to address each.
        Requirements: FEMA does not yet have operational plans in place 
        to address disaster scenarios, nor does it have detailed 
        information on states? capabilities and resources. As a result, 
        FEMA does not have information from these sources to define 
        what and how much it needs to stock. However, FEMA is 
        developing a concept of operations to underpin its logistics 
        program and told us that it is working to develop detailed 
        plans and the associated stockage requirements. However, until 
        FEMA has solid requirements based on detailed plans, the agency 
        will be unable to assess its true preparedness.
        Inventory management: FEMA's system accounts for the location, 
        quantity, and types of supplies, but the ability to track 
        supplies in-transit is limited. FEMA has several efforts under 
        way to improve transportation and tracking of supplies and 
        equipment, such as expanding its new system for in-transit 
        visibility from the two test regions to all FEMA 
        regions.Facilities: FEMA maintains nine logistics centers and 
        dozens of smaller storage facilities across the country. 
        However, it has little assurance that these are the right 
        number of facilities located in the right places. FEMA 
        officials told us they are in the process of determining the 
        number of storage facilities it needs and where they should be 
        located.
        Distribution: Problems persist with FEMA's distribution system, 
        including poor transportation planning, unreliable contractors, 
        and lack of distribution sites. FEMA officials described 
        initiatives under way that should mitigate some of the problems 
        with contractors, and has been working with Department of 
        Defense and Department of Transportation to improve the access 
        to transportation when needed.
        People: Human capital issues are pervasive in FEMA, including 
        the logistics area. The agency has a small core of permanent 
        staff, supplemented with contract and temporary disaster 
        assistance staff. However, FEMA's recent retirements and losses 
        of staff, and its difficulty in hiring permanent staff and 
        contractors, have created staffing shortfalls and a lack of 
        capability. According to a January 2007 study commissioned by 
        FEMA, there are significant shortfalls in staffing and skill 
        sets of full-time employees, particularly in the planning, 
        advanced contracting, and relationship management skills needed 
        to fulfill the disaster logistics mission. FEMA has recently 
        hired a logistics coordinator and is making a concerted effort 
        to hire qualified staff for the entire agency, including 
        logistics.
    In short, FEMA is taking many actions to transition its logistics 
program to be more proactive, flexible, and responsive. While these and 
other initiatives hold promise for improving FEMA's logistics 
capabilities, it will be years before they are fully implemented and 
operational.

    Revisions Made to Evacuation Planning, Mass Care, Housing and Human 
Services
    In an April 2007 testimony, FEMA's Deputy Administrator for 
Operations said that emergency evacuation, shelter and housing is 
FEMA's most pressing priority for planning for recovery from a 
catastrophic disaster. He said that FEMA is undertaking more detailed 
mass evacuee support planning; the Department of Justice and Red Cross 
are developing methods for more quickly identifying and uniting missing 
family members; and FEMA and the Red Cross have developed a web-based 
data system to support shelter management, reporting, and facility 
identification activities.
    Evacuation. Recent GAO work found that actions are needed to 
clarify the responsibilities and increase preparedness for evacuations, 
especially for those transportation-disadvantaged populations. We found 
that state and local governments are generally not well prepared to 
evacuate transportation-disadvantaged populations (i.e. planning, 
training, and conducting exercises), but some states and localities 
have begun to address challenges and barriers. For example, in June 
2006, DHS reported that only about 10 percent of the state and about 12 
percent of the urban area emergency plans it reviewed adequately 
addressed evacuating these populations. Steps being taken by some such 
governments include collaboration with social service and 
transportation providers and transportation planning organizations--
some of which are Department of Transportation (DOT) grantees and 
stakeholders--to determine transportation needs and develop agreements 
for emergency use of drivers and vehicles. The federal government 
provides evacuation assistance to state and local governments, but gaps 
in this assistance have hindered many of these governments' ability to 
sufficiently prepare for evacuations. This includes the lack of any 
specific requirement to plan, train, and conduct exercises for the 
evacuation of transportation-disadvantaged populations as well as gaps 
in the usefulness of DHS's guidance. We recommended that DHS should 
clarify federal agencies' roles and responsibilities for providing 
evacuation assistance when state and local governments are overwhelmed. 
DHS should require state and local evacuation preparedness for 
transportation-disadvantaged populations and improve information to 
assist these governments. DOT should encourage its grant recipients to 
share information to assist in evacuation preparedness for these 
populations. DOT and DHS agreed to consider our recommendations, and 
DHS stated it has partly implemented some of them.
    In his April 26, 2007 testimony statement for the House 
Transportation and Infrastructure Committee, FEMA's Deputy 
Administrator stated that FEMA is undertaking more detailed mass 
evacuation support planning to help State and local government plan and 
prepare for hosting large displaced populations. The project is to 
include the development of an evacuee registration and tracking 
capability and implementation plans for federal evacuation support to 
states.
    Mass Care and Shelter. During the current NRP review period, FEMA 
has revised the organizational structure of ESF-6, Mass Care, Housing, 
and Human Services, and places FEMA as the primary agency responsible 
for this emergency support function. The Red Cross will remain as a 
supporting agency in the responsibilities and activities of ESF-6. FEMA 
continues to maintain a Memorandum of Understanding (MOU) with Red 
Cross that articulates agency roles and responsibilities for mass care. 
The MOU and addendum were recently revised in May 2006 and December 
2006, respectively. FEMA is currently working with Red Cross and other 
support agencies to revise ESF-6 standard operating procedures. 
According to a February 2007 letter by the Red Cross, this change will 
not take place until the NRP review process is complete and all changes 
are approved. According to FEMA's Deputy Administrator, FEMA and the 
Red Cross have developed the first phase of a web-based data system to 
support shelter management, reporting, and facility identification 
activities. The system is intended for all agencies that provide 
shelter service during disasters to ensure a comprehensive 
understanding of the shelter populations and available shelter 
capacity.
    Temporary housing. Other recent GAO work noted that FEMA needs to 
identify and assess the capabilities that exist across the federal 
government and outside the federal government, including temporary 
housing. In a recent report on housing assistance we found that the 
National Response Plan's annex covering temporary shelter and housing 
in ESF 6 clearly described the overall responsibilities of the two 
primary responsible agencies--FEMA and the Red Cross.\5\ However, the 
responsibilities described for the support agencies--the Departments of 
Agriculture, Defense, Housing and Urban Development (HUD), and Veterans 
Affairs--did not, and still do not, fully reflect their capabilities. 
Further, these support agencies had not, at the time of our work, 
developed fact sheets describing their roles and responsibilities, 
notification and activation procedures, and agency-specific 
authorities, as called for by ESF-6 operating procedures. Our February 
2007 report recommended that the support agencies propose revisions to 
the NRP that fully reflect each respective support agency's 
capabilities for providing temporary housing under ESF-6, develop the 
needed fact sheets, and develop operational plans that provide details 
on how their respective agencies will meet their temporary housing 
responsibilities. The Departments of Defense, HUD, Treasury, and the 
Veterans Administration, and Agriculture, concurred with our 
recommendations. The Red Cross did not comment on our report or 
recommendations. As part of a housing task force, FEMA is currently 
exploring ways of incorporating housing assistance offered by private 
sector organizations. FEMA says it has also developed a housing portal 
to consolidate available rental resources for evacuees from Federal 
agencies, private organizations, and individuals.
---------------------------------------------------------------------------
    \5\ GAO, Disaster Assistance: Better Planning Needed for Housing 
Victims of Catastrophic Disasters, GAO-07-88 (Washington, D.C.: Feb. 
28, 2007).


                   Appendix II: Related GAO Products

                              ----------                              

Homeland Security: Management and Programmatic Challenges Facing the 
Department of Homeland Security. GAO-07-833T. Washington, D.C.: May 10, 
2007

First Responders: Much Work Remains to Improve Communications 
Interoperability. GAO-07-301. Washington, D.C.: April 2, 2007.

Emergency Preparedness: Current Emergency Alert System Has Limitations, 
and Development of a New Integrated System Will be Challenging. GAO-07-
411. Washington, D.C.: March 30, 2007

Disaster Preparedness: Better Planning Would Improve OSHA's Efforts to 
Protect Workers' Safety and Health in Disasters. GAO-07-193. 
Washington, D.C.: March 28, 2007.

Public Health and Hospital Emergency Preparedness Programs: Evolution 
of Performance Measurement Systems to Measure Progress. GAO-07-485R. 
Washington, D.C.: March 23, 2007.

Coastal Barrier Resources System: Status of Development That Has 
Occurred and Financial Assistance Provided by Federal Agencies. GAO-07-
356. Washington, D.C.: March 19, 2007.

Hurricanes Katrina and Rita Disaster Relief: Continued Findings of 
Fraud, Waste, and Abuse. GAO-07-300. Washington, D.C.: March 15, 2007.

Homeland Security: Preparing for and Responding to Disasters. GAO-07-
395T. Washington, D.C.: March 9, 2007.

Hurricane Katrina: Agency Contracting Data Should Be More Complete 
Regarding Subcontracting Opportunities for Small Businesses. GAO-07-
205. Washington, D.C.: March 1, 2007.

Hurricane Katrina: Allocation and Use of $2 Billion for Medicaid and 
Other Health Care Needs. GAO-07-67. Washington, D.C.: February 28, 
2007.

Disaster Assistance: Better Planning Needed for Housing Victims of 
Catastrophic Disasters. GAO-07-88. Washington, D.C.: February 28, 2007

Highway Emergency Relief: Reexamination Needed to Address Fiscal 
Imbalance and Long-term Sustainability. GAO-07-245. Washington, D.C.: 
February 23, 2007.

Small Business Administration: Additional Steps Needed to Enhance 
Agency Preparedness for Future Disasters. GAO-07-114. Washington, D.C.: 
February 14, 2007.

Small Business Administration: Response to the Gulf Coast Hurricanes 
Highlights Need for Enhanced Disaster Preparedness. GAO-07-484T. 
Washington, D.C.: February 14, 2007.

Hurricanes Katrina and Rita: Federal Actions Could Enhance Preparedness 
of Certain State-Administered Federal Support Programs. GAO-07-219. 
Washington, D.C.: February 7, 2007.

Homeland Security Grants: Observations on Process DHS Used to Allocate 
Funds to Selected Urban Areas. GAO-07-381R. Washington, D.C.: February 
7, 2007.

Homeland Security: Management and Programmatic Challenges Facing the 
Department of Homeland Security. GAO-07-452T. Washington, D.C.: 
February 7, 2007.

Homeland Security: Applying Risk Management Principles to Guide Federal 
Investments. GAO-07-386T. Washington, D.C.: February 7, 2007.

Hurricanes Katrina and Rita Disaster Relief: Prevention Is the Key to 
Minimizing Fraud, Waste, and Abuse in Recovery Efforts. GAO-07-418T. 
Washington, D.C.: January 29, 2007

GAO, Reserve Forces: Actions needed to Identify National Guard Domestic 
Equipment Requirements and Readiness, GAO-07-60 Washington, D.C.: 
January 26, 2007

Budget Issues: FEMA Needs Adequate Data, Plans, and Systems to 
Effectively Manage Resources for Day-to-Day Operations, GAO-07-139. 
Washington, D.C.: January 19, 2007.

Transportation-Disadvantaged Populations: Actions Needed to Clarify 
Responsibilities and Increase Preparedness for Evacuations. GAO-07-44. 
Washington, D.C.: December 22, 2006.

Suggested Areas for Oversight for the 110th Congress. GAO-07-235R. 
Washington, D.C.: November 17, 2006.

Hurricanes Katrina and Rita: Continued Findings of Fraud, Waste, and 
Abuse. GAO-07-252T. Washington, D.C.: December 6, 2006.

Capital Financing: Department Management Improvements Could Enhance 
Education's Loan Program for Historically Black Colleges and 
Universities. GAO-07-64. Washington, D.C.: October 18, 2006.

Hurricanes Katrina and Rita: Unprecedented Challenges Exposed the 
Individuals and Households Program to Fraud and Abuse; Actions Needed 
to Reduce Such Problems in Future. GAO-06-1013. Washington, D.C.: 
September 27, 2006.

Catastrophic Disasters: Enhanced Leadership, Capabilities, and 
Accountability Controls Will Improve the Effectiveness of the Nation's 
Preparedness, Response, and Recovery System. GAO-06-618. Washington, 
D.C.: September 6, 2006.

Disaster Relief: Governmentwide Framework Needed to Collect and 
Consolidate Information to Report on Billions in Federal Funding for 
the 2005 Gulf Coast Hurricanes. GAO-06-834. Washington, D.C.: September 
6, 2006.

Hurricanes Katrina and Rita: Coordination between FEMA and the Red 
Cross Should Be Improved for the 2006 Hurricane Season. GAO-06-712. 
Washington, D.C.: June 8, 2006.

Federal Emergency Management Agency: Factors for Future Success and 
Issues to Consider for Organizational Placement. GAO-06-746T. 
Washington, D.C.: May 9, 2006.

Hurricane Katrina: GAO's Preliminary Observations Regarding 
Preparedness, Response, and Recovery. GAO-06-442T. Washington, D.C.: 
March 8, 2006.

Emergency Preparedness and Response: Some Issues and Challenges 
Associated with Major Emergency Incidents. GAO-06-467T. Washington, 
D.C.: February 23, 2006.

Homeland Security: DHS' Efforts to Enhance First Responders' All-
Hazards Capabilities Continue to Evolve. GAO-05-652. Washington, D.C.: 
July 11, 2005.

Continuity of Operations: Agency Plans Have Improved, but Better 
Oversight Could Assist Agencies in Preparing for Emergencies. GAO-05-
577. Washington, D.C.: April 28, 2005.

                                 <all>

</pre></body></html>
